Office of Inspector General
Semiannual Report to Congress



October 1, 1998 – March 31, 1999
                                                FOREWORD



I am pleased to submit the semiannual report on the activities of the Office of Inspector
General (OIG) for the period ended March 31, 1999. This semiannual report is issued in
accordance with the provisions of the Inspector General Act of 1978, as amended.

OIG oversight of major Department of Veterans Affairs' (VA) programs resulted in systemic
improvements and increased efficiencies in areas of medical care, benefits administration,
procurement, financial management, and facilities management. OIG audits,
investigations, and other reviews identified over $474 million in monetary benefits, for an
OIG return on investment of $27 for every dollar expended. A particularly noteworthy
accomplishment was an audit of benefit payments to incarcerated veterans that identified
past and future overpayments exceeding $170 million that could, if recovered and/or
avoided, be used to improve services to veterans. Additional OIG accomplishments
during the period included 70 indictments, 57 criminal convictions, and 141 administrative
actions, foremost of which were cases involving health care and benefits fraud and
employee misconduct.

VA, the second largest Department in the Federal Government, operates the largest
health care system in the United States. The OIG Office of Healthcare Inspections
continues to focus on quality of care issues to include Veterans Health Administration’s
deployment of Quality Management staff and the implementation of the Patient Safety
Improvement Policy. Healthcare inspectors conducted proactive reviews of essential
aspects of VHA clinical operations and patient treatment processes and made
recommendations for improvement.

OIG has recently initiated a new program called the Combined Assessment Program
(CAP) to evaluate the quality, efficiency, and effectiveness of VA medical services. CAP
combines the skills of OIG’s major components to provide collaborative assessments of
key operations and programs at VA medical centers on a cyclical basis.

I look forward to continued partnership with the Secretary and the Congress in improving
service to our Nation's veterans.


(Original signed by:)
RICHARD J. GRIFFIN
Inspector General
                                                    TABLE OF CONTENTS
                                                                                                                                                                      Page

HIGHLIGHTS OF OIG OPERATIONS ..........................................................................................................                                 i
VA AND OIG MISSION, ORGANIZATION, AND RESOURCES .................................................................                                                       1
COMBINED ASSESSMENT PROGRAM .....................................................................................................                                       7
OFFICE OF INVESTIGATIONS
     Mission Statement ..............................................................................................................................                   9
     Resources ...........................................................................................................................................              9
     Criminal Investigations .......................................................................................................................                    9
              Veterans Health Administration.............................................................................................                              10
              Veterans Benefits Administration..........................................................................................                               18
              National Cemetery Administration ........................................................................................                                23
              Office of Human Resources and Administration...................................................................                                          23
              OIG Forensic Documents Laboratory ...................................................................................                                    24
     Administrative Investigations .............................................................................................................                       25
              Veterans Health Administration.............................................................................................                              26
OFFICE OF AUDIT
     Mission Statement ..............................................................................................................................                  29
     Resources ...........................................................................................................................................             29
     Overall Performance ...........................................................................................................................                   29
              Veterans Health Administration.............................................................................................                              30
              Veterans Benefits Administration..........................................................................................                               34
              Office of Financial Management ...........................................................................................                               38
              Multiple Office Action.............................................................................................................                      40
              Implementation of GPRA in VA.............................................................................................                                42
OFFICE OF HEALTHCARE INSPECTIONS
     Mission Statement ..............................................................................................................................                  45
     Resources ...........................................................................................................................................             45
     Overall Performance ...........................................................................................................................                   45
            Veterans Health Administration ..............................................................................................                              45
OFFICE OF MANAGEMENT AND ADMINISTRATION
     Mission Statement .............................................................................................................................                   59
     Resources ...........................................................................................................................................             59
     Hotline and Data Analysis...................................................................................................................                      60
     Hotline Section ....................................................................................................................................              60
              Veterans Health Administration.............................................................................................                              61
              Veterans Benefits Administration..........................................................................................                               63
     Data Analysis Section .........................................................................................................................                   64
     Operational Support............................................................................................................................                   65
     Resources Management ....................................................................................................................                         67
OTHER SIGNIFICANT OIG ACTIVITIES
     President’s Council on Integrity and Efficiency...................................................................................                                69
     OIG Management Presentations ........................................................................................................                             69
     Congressional Testimony ...................................................................................................................                       70
     Obtaining Required Information or Assistance...................................................................................                                   71

APPENDIX A -                      REVIEWS BY OIG STAFF ......................................................................................                          73
APPENDIX B -                      CONTRACT REVIEWS BY OTHER AGENCIES ...................................................                                               81
APPENDIX C -                      CONTRACT REVIEW REPORTS FOR WHICH A CONTRACTING
                                  OFFICER DECISION HAD NOT BEEN MADE FOR
                                  OVER 6 MONTHS AS OF MARCH 31, 1999 ..........................................................                                        83
APPENDIX D                        FOLLOWUP ON OIG REPORTS....................................................................................                          89
APPENDIX E -                      REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL........................                                                              93
APPENDIX F -                      VA OIG FIELD OPERATIONS PHONE LIST ...............................................................                                   95
APPENDIX G -                      GLOSSARY.........................................................................................................................    97
                              HIGHLIGHTS OF OIG OPERATIONS

This semiannual report highlights the activities and accomplishments of the Department of Veterans
Affairs (VA) Office of Inspector General (OIG) for the 6-month period ended March 31, 1999.
Following are the statistical highlights of OIG activities and some of the major accomplishments during
the reporting period by OIG component.

        DOLLAR IMPACT                                                                                              Dollars in Millions

                  Funds Put to Better Use........................................................................           $456.0
                  Dollar Recoveries.................................................................................          $9.1
                  Fines, Penalties, Restitutions, and Civil Judgments.............................                            $9.5

        RETURN ON INVESTMENT
                  Dollar Impact ($474.6M) / Cost of OIG Operations ($17.4M)............                                       27 : 1

        OTHER IMPACT
                  Indictments...........................................................................................      70
                  Convictions ..........................................................................................      57
                  Administrative Sanctions .....................................................................             141

        ACTIVITIES

            Reports Issued
               Combined Assessment Program...........................................................                          1
               Audits ...................................................................................................     24
               Contract Reviews .................................................................................             19
               Healthcare Inspections .........................................................................               20
               Administrative Investigations ..............................................................                    8

            Investigative Cases
                Opened .................................................................................................     177
                Closed...................................................................................................    106

            Hotline Activities
               Contacts................................................................................................     7,470
               Cases Opened .......................................................................................           323
               Cases Closed ........................................................................................          296


OFFICE OF INVESTIGATIONS

During the semiannual period, and as part of an overall OIG reorganization, the former Special Inquiries
staff of the Hotline and Special Inquiries Division was transferred to the Office of Investigations. The
transfer was predicated upon the theory that all investigative activity, whether criminal or administrative
in nature, should be located in one OIG component. Further, since many criminal investigations uncover
collateral administrative violations, and vice-versa, the staffs of each previously separate activity could
provide specialized expertise and cross-disciplinary training when multiple violations were found.



                                                                        i
Therefore, the Office of Investigations is now comprised of a Criminal Investigations Division and an
Administrative Investigations Division. The Analysis and Oversight Division continues with oversight
responsibilities of all operations through a detailed, recurring inspection program; operation of the
Forensic Document Laboratory; policy and procedures updates; analysis of referrals and investigative
results; operation of the National Crime Information Center and National Law Enforcement
Telecommunications System computers; representation to the Financial Crimes Criminal Enforcement
Network; and files operation and maintenance. Criminal investigative priority continues to be given to
cases of patient abuse, instances where incapacitated veterans fall victim to unscrupulous fiduciaries,
public corruption, and major thefts. Immediate response to these types of allegations is absolutely
essential and demonstrates that the OIG will take decisive action against those who prey on veterans and
will hold accountable those VA employees who disregard their public trust responsibilities. During the
period, the Office of Investigations closed 106 criminal investigations resulting in 127 judicial actions and
over $12.6 million returned or saved. The Administrative Investigations Division staff investigates
allegations, generally against high-ranking VA officials, concerning misconduct and other matters of
interest to the Congress, VA Secretary, VA managers, media, and the general public. Five administrative
investigations completed this semiannual period were initiated at the request of individual members of
Congress. During the reporting period, the division closed 22 cases. Six of these cases had
Congressional interest. Staff issued 10 reports and 1 administrative letter. These resulted in
administrative action taken (or planned to be taken) against 18 high-ranking officials and other
employees, and 13 corrective actions taken (or planned to be taken) by management to improve VA
operations and activities.

Veterans Health Administration

The following are examples of investigations in which Veterans Health Administration (VHA) employees
have been charged with various illegal activities: (i) A former VA medical center (VAMC) nurse in the
critical care unit was indicted on 11 counts including the murder of 3 patients, the attempted murder of 2
other patients, assault, and obstruction of justice. (ii) An individual formerly employed as a VAMC Chief
of Surgical Service was sentenced to 5 months’ imprisonment, 36 months’ supervised probation, and
fined $25,000 after being found guilty of involuntary manslaughter in a jury trial. The individual was
found guilty of administering a lethal dose of potassium chloride to a veteran patient. (iii) A former
VAMC licensed practical nurse pleaded guilty to charges of striking a 77 year-old veteran while he was a
patient at the VAMC. (iv) A VAMC physician pleaded guilty after being indicted on one count of theft of
Government property. The physician diverted approximately 45,620 doses of codeine over a 3½ year
period by writing prescriptions for patients and taking them to the VA pharmacy, stating that he would
personally deliver the drugs to the patients. (v) A VA outpatient clinic transportation clerk waived
indictment and agreed to be charged in a five-count criminal information after being arrested on charges
of accepting bribes. The individual had received and retained monetary gratuities from the owners of a
medical transportation company in exchange for the award of transportation business from VA.

Veterans Benefits Administration

The following investigations are examples of fraud relating to some of the benefits programs
administrated by the Veterans Benefits Administration (VBA): (i) A former VA ratings specialist pleaded
guilty to one count of theft of Government funds. Investigation disclosed that the individual created a
record of a fictitious veteran in 1986 and proceeded to award the fictitious veteran benefits for service
connected disabilities. He then had over $624,000 in monthly benefits deposited into a savings account
opened in the name of the fictitious veteran. (ii) A former VA Regional Office (VARO) supervisor
pleaded guilty to a criminal information charging her with engaging in money laundering and other
offenses. Investigation disclosed that the employee created computerized records, which fraudulently
reflected that her fiancé was a 100 percent service-connected disabled veteran. She then caused VA to


                                                     ii
issue checks and make direct-deposit payments totaling more than $600,000 into a bank account she had
opened in both their names. (iii) For almost 16 years, an individual who falsely certified to VA that he
was unemployed in order to receive benefits actually worked continuously as a full-time fire alarm
operator. The individual’s false claims resulted in his collecting almost $112,000 in VA compensation
benefits, based on unemployability, to which he was not entitled. (iv) An individual acting as a VA
fiduciary, court-appointed guardian, and social security representative payee to a number of elderly
veterans pleaded guilty to mail fraud and misapplication of funds by a VA fiduciary. The individual
wrongfully appropriated more than $200,000 in funds belonging to the estates of six of her elderly veteran
wards, five of whom were judged to be mentally incompetent. (v) An attorney was arrested pursuant to a
nine-count indictment and subsequently pleaded guilty in connection with the theft of approximately
$120,000 from the guardianship account of a disabled World War II veteran. Investigation disclosed that
in 1993, the individual started withdrawing large amounts of money from the veteran’s account to pay for
his personal expenditures. (vi) A plea agreement and criminal information were filed charging an
individual with misappropriation by a fiduciary. Investigation disclosed that the individual, over a 1-year
period, embezzled approximately $104,000 from three incompetent veterans.

National Cemetery Administration

(i) A VA national cemetery caretaker pleaded guilty to charges of witness tampering. An accomplice,
employed as a foreman at the cemetery, earlier pleaded guilty to related charges of bribery. Investigation
disclosed that the foreman solicited and accepted bribe money from a probationer who was assigned by a
state court to perform community service at the cemetery. The probationer’s time and attendance record
was falsified by the foreman. Both employees attempted on numerous occasions to prevent witness
cooperation with the investigating agents. (ii) An individual resigned as a VA program assistant after
being confronted by investigators with evidence of her misuse of two Visa SmartPay cards. A joint VA
OIG and FBI investigation determined the employee illegally used two Visa cards assigned to her, for
support of administration operations, to purchase over $284,000 in computers and electronic
entertainment equipment which she converted to personal use or resold for 50 percent of market value for
personal gain. She also used the cards to cover some personal expenses. Criminal charges are pending.


OFFICE OF AUDIT

Audit Saved or Identified Improved Uses for $458 Million

Audits and evaluations were conducted that focus on determining how programs can work better, while
improving service to veterans. During this reporting period, 24 performance and financial audits and
evaluations and 19 contract reviews identified opportunities to save or make better use of $458 million in
monetary benefits. The Office of Audit returned $57 for every dollar spent on performance and financial
audits, and $10 and $63 for every dollar spent on postaward and preaward contract reviews, respectively.

Veterans Health Administration

During this period, nine audit or evaluation reports were issued relating to health care issues. Our reviews
of health care found that: (i) VHA’s reorganization of Veterans Integrated Service Network (VISN) 10
was proceeding in accordance with the Under Secretary’s plan, but weaknesses in patient enrollment,
reporting, and resource allocation needed to be corrected; (ii) local VA medical facilities were not
implementing a new VHA cost and management information system as intended by its designers,
affecting the ability to achieve the full potential of the $140 million system; (iii) significant efforts were
made to reduce inpatient infrastructure and increase ambulatory care infrastructure at medical centers



                                                      iii
reviewed, but cost accounting data was not adequate to identify and quantify the sources of funding for
investments; and (iv) VHA could increase funding available for health care by about $14 million by
improved oversight and monitoring of means testing, billing, and collection of Income Verification Match
(IVM) program referrals. Fourteen projects were begun or ongoing during the period that will be
completed in future reporting periods. These projects focus on: (i) the effectiveness of VISN and
medical facility operations and implementation of VHA organizational goals and objectives, (ii) the
accuracy and reliability of VHA performance measures, and (iii) fee basis medical claims.

Veterans Benefits Administration

We issued five audit or evaluation reports during this period addressing accuracy, timeliness, and quality
of service to veterans, dependents, and survivors. These reviews found that: (i) past and future
Compensation and Pension (C&P) overpayments could exceed $170 million because VBA did not
implement a systematic approach to identify veterans incarcerated or released from prisons; and (ii) VBA
measurement of claims processing timeliness was inaccurate, reporting better timeliness than actually
provided. During the period six projects were begun or ongoing that will be completed in future reporting
periods. These projects are evaluating: (i) VBA disability rating decisions, (ii) compliance with VA
mortgage underwriting standards by private mortgage lenders, and (iii) VBA’s implementation of
Government Performance and Results Act (GPRA).

Office of Financial Management

We issued 10 reports addressing financial and acquisition issues during the period. We qualified our
opinion in our audit of the Department’s Consolidated Financial Statements (CFS) for Fiscal Year (FY)
1998 and made recommendations that will assist the VA Chief Financial Officer in taking the steps
necessary to remove the qualifications. Our review of VA’s Government Purchase Card program found
VA did not achieve the cost-efficiencies expected from the program and we recommended steps to
achieve additional staff reductions totaling over $22 million. We also reported that VHA could reduce
medical supply inventories by more than $75 million through more effective inventory management.
During the period eight projects were begun or ongoing that will be completed in future reporting periods.
These projects include our continuing audit of the adequacy of VA financial management as required by
the Chief Financial Officers Act, and evaluation of the management of prosthetics and pharmaceutical
supply inventories.

Contract Review and Evaluation

During the period we completed 19 contract reviews – 6 preaward and 13 postaward reviews. The
postaward reviews had recoveries of $8.6 million, almost all of which have been returned to VA to fund
programs. Preaward reviews of contractors' proposals resulted in recommendations that can assist
contracting officers in saving $23.9 million in contract costs.


OFFICE OF HEALTHCARE INSPECTIONS

The Office of Healthcare Inspections’ (OHI) program evaluations, hotline inspections, and quality
program assistance reviews, show that VHA clinicians provide generally good care to an aging,
chronically infirm veteran population in a variety of clinical care environments.




                                                    iv
Program Reviews

We conducted three health care program evaluations. (i) Our analysis of VHA’s quality management
(QM) resources and organization showed that VHA QM employees work hard to ensure the provision of
good patient care, but the QM program needs to be integrated more fully into the health care system. QM
employees need to be better trained in more complex ADP systems usage, and appropriately skilled
staffing is needed at the headquarters, VISN, and VAMC levels in order to manage the diverse and
complex QM workload. (ii) Similarly, our analysis of VHA employees’ implementation of selected
aspects of the patient safety improvement policy showed that employees know of their requirement to
report and explore serious patient incidents. Managers have developed a patient safety alert process that
is generally effective in providing critical safety information to employees who care for patients directly.
However, mid-level managers do not always communicate these messages to lower level employees. (iii)
We found that VAMC senior clinicians who are responsible for overseeing State Veterans Home
operations do not usually adhere to nationwide guidance. Serious patient care discrepancies that VA
inspectors identify in State Veterans Homes are often ignored, or not followed up to ensure the provision
of excellent care to eligible veterans.

Quality Program Assistance Reviews

Our Quality Program Assistance reviews at three VAMCs found that managers are generally working
collaboratively to ensure that veterans have access to high quality, low cost health care. With the
exception of one Northeastern VAMC, employees generally support the changes, but the rapid pace and
broad scope of changes are negatively affecting employee morale. In the one exception to this finding,
employees and patients alike were frightened that the magnitude of changes and budget reductions would
threaten the quality of care for veterans. However, they virtually all asserted that the quality of care at the
medical center is excellent.


OFFICE OF MANAGEMENT AND ADMINISTRATION

Hotline and Data Analysis

The Hotline program provides an opportunity for employees, veterans, and other concerned citizens to
report fraud, waste, abuse, and mismanagement. The identification and reporting of issues such as these
are integral to the goal of improving the efficiency and effectiveness of the Federal Government. During
the reporting period the Hotline received 7,470 contacts. Of this number, Hotline staff opened 323 cases,
and completed 296 cases of which 69 contained substantiated allegations. Hotline staff also generated
159 letters responding to inquiries received from members of the Senate and House of Representatives.
Hotline staff recorded 28 administrative sanctions against employees and 35 corrective actions taken by
management to improve VA operations and activities. The Hotline reviews found that some physicians
engaged in improper outside employment activities, and several instances of misconduct by professional
staff in the care and treatment of veteran patients. Hotline reviews also identified that illegal gambling
occurred at one facility, and the inquiries uncovered deficiencies regarding several VA contracts. The
reviews also identified problems with several compensation and pension cases that warranted
management attention.

The Data Analysis Section provides automated data processing technical assessments and support to all
elements of the OIG, and other governmental agencies needing information from VA files. During the
reporting period, Data Analysis staff processed 566 requests for data and information. These requests are



                                                      v
often the first step in more comprehensive reviews by OIG activities that result in solutions beneficial to
the VA, or the identification of fraud, waste, and abuse. The Data Analysis Section also renders
assistance to the investigative components of other agencies. For example, Data Analysis staff provided
assistance to Health and Human Services agents and other governmental investigators on a variety of
billing fraud cases.

Followup on OIG Reports

The Operational Support Division is responsible for obtaining implementation actions on audits,
inspections, and reviews with over $1.2 billion of actual or potential monetary benefits as of March 31,
1999. Of this amount $1 billion is resolved, but not yet realized as VA has agreed to implement the
recommendations, but has not yet done so. In addition, $230 million relates to unresolved reviews
awaiting contract resolution by VA contracting officers. During this reporting period, the Division took
action to close 48 internal reports issued in this and prior periods, with 169 recommendations and a
monetary benefit of $218 million, after obtaining information that showed management officials had fully
implemented corrective actions.




                                                     vi
VA AND OIG MISSION, ORGANIZATION, AND
RESOURCES
The Department of                                        Organization
Veterans Affairs (VA)                                    VA has three administrations that operate direct
                                                         services to veterans:
Background                                               • Veterans Health Administration (VHA)
                                                         provides health care,
In one form or another, American governments             • Veterans Benefits Administration (VBA)
have provided veterans benefits since even               provides benefits, and
before the Revolutionary War. VA’s historic              • National Cemetery Administration (NCA)
predecessor agencies demonstrate our Nation’s            provides burial and recognition.
long commitment to veterans.
                                                         To support these services and benefits, there are
The Veterans Administration had been in                  six Assistant Secretaries, including:
existence since 1930, when Public Law 71-536             • Financial Management (Budget, Finance,
consolidated the Veterans’ Bureau, the Bureau            Acquisition and Materiel Management
of Pensions, and the National Home for                   (A&MM)),
Disabled Volunteer Soldiers.                             • Information and Technology,
                                                         • Planning and Analysis,
The Department of Veterans Affairs was                   • Human Resources and Administration
established on March 15, 1989, by Public Law             (Equal Opportunity, Human Resources
100-527, which elevated the Veterans                     Management, Administration, Security and Law
Administration, an independent agency, to                Enforcement, and Resolution Management),
Cabinet-level status.                                    • Public and Intergovernmental Affairs, and
                                                         • Congressional Affairs.
Mission
                                                         In addition to VA’s Office of Inspector General,
VA's motto comes from Abraham Lincoln's                  other staff offices providing support to the
second inaugural address, given March 4, 1865,           Secretary include the Board of Contract
"to care for him who shall have borne the battle         Appeals, the Board of Veterans’ Appeals, the
and for his widow and his orphan." These words           Office of General Counsel, the Office of Small
are inscribed on large plaques on the front of the       and Disadvantaged Business, the Centers for
VA Central Office building on Vermont Avenue             Minority Veterans and for Women Veterans, and
in Washington, DC.                                       the Office of Discrimination Complaint
                                                         Adjudication.
The Department’s mission is to serve America’s
veterans and their families with dignity and             Resources
compassion and to be their principal advocate in
ensuring that they receive the care, support, and
                                                         While most Americans know that VA exists,
recognition earned in service to this Nation.
                                                         few have any idea of the size of this Department,
                                                         which is the Nation’s second largest in terms of




                                                     1
VA and OIG Mission, Organization and Resources

staffing. For FY 1999, VA has 205,413
employees and a $44 billion budget.
                                                       VA Office of Inspector
There are an estimated 25.9 million living             General (OIG)
veterans and the provision of legislatively
mandated services to them is a massive
operation. To serve our Nation’s veterans, VA          Background
maintains facilities in every state of the union
and the District of Columbia, the                      VA’s OIG was administratively established on
Commonwealth of Puerto Rico, Guam, and the             January 1, 1978, to consolidate audit,
Philippines.                                           investigation, and related operations into a
                                                       cohesive, independent organization. In October
Approximately 189,000 of VA’s employees                1978, the Inspector General Act (Public Law
work in the health care system. Health care            995-452) was enacted and established a statutory
accounts for $18 billion (approximately                Inspector General (IG) in VA.
42 percent) of VA’s budget in FY 1999. VHA
provides care to an average of 62,000 inpatients       Role and Authority
daily. During FY 1999, slightly more than 38
million episodes of care are estimated for             The Inspector General Act of 1978 states that
outpatients. There are 172 hospitals, 722              the IG is responsible for: (i) conducting and
outpatient clinics, 132 nursing home units, and        supervising audits and investigations, (ii)
40 domiciliaries.                                      recommending policies designed to promote
                                                       economy and efficiency in the administration of,
Veterans benefits are funded at $24 billion            and to prevent and detect fraud and abuse in, the
(almost 55 percent) of VA’s budget in FY 1999.         programs and operations of VA, and (iii)
The 11,273 employees of VBA provide benefits           keeping the Secretary and the Congress fully
to veterans and their families. Approximately          informed about problems and deficiencies in VA
2.5 million veterans and their beneficiaries           programs and operations and the need for
receive compensation benefits valued at over           corrective action.
$18 billion. Also over $3 billion in pension
benefits are provided to veterans and survivors.       The Inspector General Act Amendments of 1988
VA life insurance programs have 4.7 million            provided the IG with a separate appropriation
policies in force with a face value of over $467       account and a revised and expanded procedure
billion. Almost 300,000 home loans were                for reporting semiannual workload to Congress.
guaranteed, with a value of almost $33 billion.        The IG has authority to inquire into all VA
                                                       programs and activities as well as the related
The National Cemetery Administration currently         activities of persons or parties performing under
operates and maintains 115 cemeteries and has          grants, contracts, or other agreements. The
1,369 employees in FY 1999. Operations of              inquiries may be in the form of audits,
NCA and all of VA’s burial benefits account for        investigations, inspections, or other appropriate
approximately $264 million of VA’s $44 billion         actions.
budget. There are almost 80,000 interments in
VA cemeteries each year. Approximately
337,000 headstones and markers are provided
for veterans and their eligible dependents in VA
cemeteries, state veterans’ cemeteries, and
private cemeteries.




                                                   2
                                                 VA and OIG Mission, Organization and Resources

Organization
                                                                                         		

                                                                                        
Allocated full time equivalent (FTE) for the FY                                            

1999 staffing plan is as follows:                                        

                                                                         
                                                                                                  	

                                                                                                  



                                  ALLOCATED                                                           


           OFFICE
                                     FTE
                                                                                            
                                                                               

 Inspector General                        4                                     
                                                                                            




 Counselor                                5
 Investigations                        102
                                                            The following chart indicates percent of OIG
 Audit                               * 167                  resources which have been devoted to mandated,
                                                            reactive, and proactive work.
 Management and
 Administration                         51

 Healthcare Inspections                 31                                            	
                                                                                          

           TOTAL                       360

* Does not include 24 reimbursable FTE.
                                                                                                 	
                                                                     		                         

FY 1999 funding for OIG operations is                                   
$38.4 million, with $36 million from
appropriations and $2.4 million through
reimbursable agreements. Approximately
85 percent of the total funding is for personnel
salaries and benefits, 5 percent for official travel,       Mandated work is required by law and the
and the remaining 10 percent for all other                  Office of Management and Budget; examples
operating expenses such as contractual services,            are our audits of VA’s Consolidated Financial
rent, supplies, and equipment.                              Statements, followup activities, and Freedom of
                                                            Information Act information releases.
The percent of OIG resources, which have been
devoted during this semiannual reporting period             Reactive work is generated in response to
in VA’s major organizational areas, are                     requests for assistance received from external
indicated in the following chart.                           sources concerning allegations of fraud, waste,
                                                            abuse, and mismanagement. Most of the work
                                                            performed by the Offices of Investigations and
                                                            Healthcare Inspections is reactive.

                                                            Proactive work is self-initiated and focuses in
                                                            areas where the OIG staff determines there are
                                                            significant issues; some healthcare inspections
                                                            and most audits fall into this category.




                                                        3
VA and OIG Mission, Organization and Resources

OIG Mission Statement
   The OIG is dedicated to helping VA ensure
   that veterans and their families receive the
   care, support, and recognition they have
   earned through service to their country.
   The OIG strives to help VA achieve its
   vision of becoming the best managed
   service delivery organization in
   Government. The OIG continues to be
   responsive to the needs of its customers by
   working with the VA management team to
   identify and address issues that are
   important to them and the veterans served.

   In performing its mandated oversight
   function, the OIG conducts investigations,
   audits, and health care inspections to
   promote economy, efficiency, and
   effectiveness in VA activities, and to detect
   and deter fraud, waste, abuse, and
   mismanagement. The OIG’s oversight
   efforts emphasize the goals of the National
   Performance Review and the Government
   Performance and Results Act for creating a
   Government that works better and costs
   less. Inherent in every OIG effort are the
   principles of quality management and a
   desire to improve the way VA operates by
   helping it become more customer driven
   and results oriented.

   The OIG will keep the Secretary and the
   Congress fully and currently informed
   about issues affecting VA programs and
   the opportunities for improvement. In
   doing so, the staff of the OIG will strive to
   be leaders and innovators, and perform
   their duties fairly, honestly, and with the
   highest professional integrity.




                                                   4
                                                                      DEPARTMENT OF VETERANS AFFAIRS
                                                                        OFFICE OF INSPECTOR GENERAL

                                                                                           Inspector General
                                           Executive Assistant                             ______________                             Counselor to Inspector General
                                                                                                Deputy



         Assistant Inspector General
                                                           Assistant Inspector General                         Assistant Inspector General                        Assistant Inspector General
              Management and
                                                                  Investigations                                         Auditing                                   Healthcare Inspections
                Administration
                                                             __________________                                   _________________                                  _________________
            _________________
                                                                      Deputy                                              Deputy                                             Deputy
                    Deputy


                                                                                                                                                        Medical Assessment             Patient Care
     Hotline and             Operational            Administrative                 Criminal
                                                                                                          Contract Review                                       and                  Inspections and
    Data Analysis             Support               Investigations              Investigations
                                                                                                          and Evaluation                                   Consultation                 Evaluation


                                                                                     Benefits                                                                                       Health Systems
     Information             Resources               Analysis and                     Fraud                                                                                          Development
     Technology             Management                Oversight                                                 Financial                 Financial




5
                                                                                                                Statement                Management
                                                                                    Healthcare
                                                                                      Fraud
                                                                                                                                                                          Field Offices
                                                       Forensic
                                                                                                               Management,                                                   Atlanta
                                                      Documents                                                                          Planning and
                                                                                                                Policy and                                                  Chicago
                                                      Laboratory                                                                          Operational
                                                                                                               Professional                                               Los Angeles
                                                                                                                                            Support
                                                                                                               Development


                                                                    Field Offices
                                                                     New York                                           Operations Divisions
                                                                   St. Petersburg                                         Central Office
                                                                      Chicago                                                Bedford
                                                                    Los Angeles                                               Atlanta
                                                                                                                             Chicago
                                                                                                                           Kansas City
                                                                                                                              Seattle
                                                               Resident Agencies
                                                         Atlanta            Boston                                            Sub-Offices
                                                         Columbia           Dallas                                               Austin
                                                         Denver             Houston                                              Dallas
                                                         Kansas City        Nashville                                            Hines
                                                         New Orleans        Newark                                            Los Angeles
                                                         Phoenix            Pittsburgh                                        Philadelphia
                                                         San Francisco      Washington
                                                                 West Palm Beach
VA and OIG Mission, Organization and Resources




                                       6
COMBINED ASSESSMENT PROGRAM
Combined Assessment Program                                analysis of VHA, VISN, and medical center
Overview                                                   databases and management information. These
                                                           areas may include patient management,
                                                           credentialing and privileging, agent cashier
As part of the OIG's efforts to ensure that quality        activities, data integrity, and the Medical Care
healthcare service is provided to our Nation’s             Cost Fund.
veterans, the OIG recently initiated a new
program to evaluate the quality, efficiency, and           Representatives from the Office of Healthcare
effectiveness of VA medical care – the                     Inspections conduct a Quality Program
Combined Assessment Program (CAP). This                    Assistance (QPA) Review. These are proactive
program provides recurring cyclical oversight of           reviews which incorporate the use of
VA medical facility operations, focusing on the            standardized survey instruments to evaluate the
effectiveness and quality of service provided to           quality of care provided in VA healthcare
veterans.                                                  facilities. These facilities are evaluated to
                                                           determine the extent to which they are
The CAP combines the skills and abilities of the           contributing to VHA's ability to accomplish its
OIG’s major components to provide                          mission of providing high quality healthcare,
collaborative assessments of VA medical                    improved patient access to care, and high patient
facilities. The OIG team consists of                       satisfaction.
representatives from the Offices of
Investigations, Audit, and Healthcare
Inspections. They will provide an independent
                                                           VAMC Martinsburg, West Virginia
and objective assessment of key operations and             Review
programs at VA medical centers on a cyclical
basis.                                                     The OIG CAP team visited VAMC Martinsburg
                                                           from January 11 through January 15, 1999. The
A special agent from the Office of Investigations          following are highlights of our observations and
conducts a Fraud and Integrity Awareness                   testing of management operations that were
Briefing. The purpose of this briefing is to               identified as areas that appear vulnerable and in
provide key staff of the medical center with               need of greater management attention. These
insight into the types of fraudulent activities that       areas include:
can occur in VA programs. The briefing
includes an overview and case specific examples            Quality Program Assessment - The results of the
of fraud affecting healthcare procurements, false          QPA identified several areas of concern that
claims, conflict of interest, bribery, and illegal         affect the quality of patient care; these include
gratuities. Office of Investigations personnel             clinical staffing issues, patient waiting time,
will also investigate certain matters which have           patient privacy, and reporting of medication
been referred to the OIG by VA employees,                  errors.
members of Congress, veterans, and others.
                                                           Management Control Issues - A number of areas
Auditors from the Office of Audit conduct a                were identified where management controls and
limited review to ensure that management                   oversight should be strengthened to correct and
controls are in place and are working effectively.         prevent some internal control deficiencies,
Auditors assess key areas of concern which will            enhance revenue collections, ensure staff are
be derived from a concentrated and continuing              properly trained, or improve the perceptions of




                                                       7
Combined Assessment Program

some staff regarding the fairness of promotions
and awards. Some specific areas where controls
need to be strengthened included: patient safety
and security of personal property - Domiciliary;
purchase cards - reconciliation and
certifications; unauthorized use of the purchase
card; accounts receivable - write off and third
party follow-up; time and attendance - training                     Group Seated & Standing
and supervision; agent cashier - excess funds;                  [photo not available electronically]
and, personnel management - pending actions
and awards criteria.

Fraud and Integrity Awareness and Hotline
Allegations - Two Fraud and Integrity
Awareness Briefings were conducted that
discussed issues concerning the recognition of
fraudulent situations, referral to the Office of         Members of first OIG CAP Team
Investigations, and the type of information              Back row: Jeff Reaves, Linda DeLong, John
needed in making a complaint or referral. The                Cintolo, Philip McDonald
CAP team also initiated a review of hotline              Middle row: Jackie Stumbris, Myra Kennedy,
allegations that fell into five general areas. The           Jim Marchand, Carl Looby
results of that review will be addressed in a            Front row: Pat Christ, Del Levy, Bill Withrow,
separate report.                                             Tom Cargill
                                                         Absent from photo: Lisa Seibert, Marion
                                                             Slachta, Theresa King
We made a series of observations and
recommendations that we believe warrant
management attention. The Director generally
agreed to address the areas of concern. The OIG
may follow up at a later date to evaluate
corrective actions taken. (Combined Assessment
Program Review VAMC Martinsburg, West
Virginia, Report No. 9IG-CAP-501, 3/31/99)




                                                     8
OFFICE OF INVESTIGATIONS
Mission Statement                                       Resources
    Conduct investigations of criminal and              The Office of Investigations has 102 FTE
    administrative activities affecting the             allocated to the following areas.
    programs and operations of VA in an
    independent and objective manner, and
    assist the Department in detecting and
    preventing fraud and other violations.
                                                             
                                                               
                                                               

The Office of Investigations is responsible for
conducting criminal and administrative
investigations affecting the programs and
operations of VA. The office consists of three
divisions.                                                                                   
                                                                                               	

I. Criminal Investigations Division - The                                        
Division is primarily responsible for conducting                                   

investigations into allegations of criminal
activities related to the programs and operations
of VA. Criminal violations are referred to the
Department of Justice for prosecution.
                                                        I. CRIMINAL
II. Administrative Investigations Division - The
Division is responsible for investigating               INVESTIGATIONS
allegations, generally against high ranking VA
officials, concerning misconduct and other
                                                        DIVISION
matters of interest to the Congress and the
Department.                                             Mission Statement
III. Analysis and Oversight Division - The                  Conduct investigations of criminal
Division is responsible for the oversight                   activities affecting the programs and
responsibilities of all Office of Investigations            operations of VA in an independent and
operations through a detailed, recurring                    objective manner, and assist the
inspection program and the operation of the                 Department in detecting and preventing
Forensic Document Laboratory. The Division is               fraud and other criminal violations.
the primary point of contact for law enforcement
communications through the National Crime               Resources
Information Center, the National Law
Enforcement Telecommunications System, and              The Criminal Investigations Division has 93
the Financial Crimes Criminal Enforcement               FTE for its headquarters and 19 field locations.
Network.                                                These individuals are deployed in the following
                                                        program areas:




                                                    9
Office of Investigations
                                                          investigation for criminal prosecution. All
                                                          ratings received exceeded 4.0 and averaged 4.5
                                                       out of a possible 5.0 (5.0 means strongly agree
                                                       and 1.0 means strongly disagree).

                                                          Following are summaries of some of the
                                                          investigations conducted during the reporting
                                  	

                    period by VA component. We discuss VHA,
                                                    VBA, NCA, and the Office of Human Resources
                                                       and Administration. This is followed by a
                                                          summary of the work performed by the OIG
                                                          Forensic Document Laboratory, which provides
                                                          technical support and services to the Criminal
                                                          Investigations Division, and to the VA staff.
Overall Performance

Output
• 106 investigations were closed during the               Veterans Health
reporting period.
                                                          Administration
Outcome
• Indictments - 70
                                                          Fraud and other criminal activities committed
• Convictions - 57
                                                          against VHA encompass patient abuse, theft of
• Monetary Benefits - $12.6 million
                                                          Government property, drug diversion,
• Administrative Sanctions - 82                           bribery/kickback activities by employees and
                                                          contractors, false billings, inferior products, and
Cost Effectiveness                                        so forth.
• The average cost of conducting the 106
closed investigations was $10,607. Each                   During the reporting period, we have continued
investigation averaged a return of $74,113,               our support to VHA in its attempt to remove
resulting in approximately $7 returned for every          from the workers’ compensation rolls those
$1 spent.                                                 employees fraudulently accepting benefits. The
                                                          Office of Investigations investigates those
Timeliness                                                instances of criminal activity against VHA that
• Average work days from receipt of                       have the greatest impact and most deterrent
allegation to initiation of investigation averages        value.
31 days against a goal of 30 days.
• Average work days from initiation of                    Employee Integrity
investigation to referral to an assistant U.S.
attorney was 272 days which did not meet our
goal of 182 days.                                         Theft/Diversion of Pharmaceuticals

Customer Satisfaction                                     • A VAMC physician pleaded guilty after
• Customer satisfaction survey forms were                 being indicted on one count of theft of
provided to each prosecutor upon referral of an           Government property. A joint VA OIG and




                                                     10
                                                                               Office of Investigations

Drug Enforcement Administration investigation            joint investigation by VA OIG and the Federal
disclosed that the physician engaged in a scheme         Bureau of Investigation (FBI) disclosed that
to divert codeine tablets for his own use. The           both were involved with a group of other
physician diverted approximately 45,620 doses            individuals employed at the VAMC who
of codeine over a 3 ½ year period by writing             regularly sold marijuana and cocaine to patients
prescriptions for patients and taking them to the        at the VAMC, and used illicit drugs on hospital
VA pharmacy, stating that he would personally            grounds. Other individuals involved in the case
deliver the drugs to the patients.                       are awaiting sentencing or currently in drug
                                                         treatment.
• A former VAMC registered nurse entered a
plea agreement, wherein he agreed to plead               • A VA OIG proactive undercover
guilty to one charge of theft of Government              investigation in the area of a VAMC resulted in
property. A VA OIG investigation disclosed               the arrest and conviction of an individual in state
that the nurse diverted Morphine intended for            court. The individual was arrested for the
patients for his personal use.                           distribution of a controlled substance
                                                         (Morphine) in and near the VAMC. The suspect
• A VAMC supervisory pharmacist pleaded                  was sentenced to 12 months’ incarceration and
guilty to one count of theft of Government               has no affiliation to VA.
property and was subsequently sentenced to 4
months’ home detention, 36 months’ probation,            Theft and Embezzlement
and was ordered to pay $3,224 in restitution. A
joint VA OIG and state Bureau of Narcotic                A criminal complaint was filed charging an
Enforcement investigation disclosed that, for            individual with one count each of theft, false
more than 2 years, the individual accessed               statements, and bank fraud. The individual was
computers at the VAMC and placed orders for              employed as the secretary/treasurer of an
drugs to be sent by mail to his home in the name         American Federation of Government Employees
of a veteran patient. A search warrant was               union office located in a VAMC. A VA OIG
executed on the individual’s residence and a             investigation disclosed that, over a 2-year
substantial quantity of medical supplies and             period, the individual embezzled approximately
pharmaceuticals, including controlled narcotics,         $20,000 from the union’s bank account.
were found and seized. The individual admitted
that he had stolen pharmaceuticals, including the        Acceptance of Bribes, Gratuities,
controlled narcotics, from the VAMC.                     Conflicts of Interest
Use/Sale of Illegal Drugs                                A VA outpatient clinic medical transportation
                                                         clerk waived indictment and agreed to be
• A former VAMC housekeeping aide pleaded                charged in a five-count criminal information
guilty to one count of possession of narcotics           after being arrested on charges of accepting
(cocaine & marijuana) and to a separate charge           bribes. A joint VA OIG and FBI investigation
of possession of crack cocaine. After being              disclosed that the individual had received and
arrested by VA OIG special agents, she was               retained monetary gratuities from the owners of
placed in a court-ordered drug treatment                 a medical transportation company in exchange
program and was subsequently sentenced to 1              for the award of transportation business from
year’s probation. A second individual employed           VA. As travel clerk, the individual’s duties
as a VAMC food service worker also pleaded               included arranging patient transportation by
guilty to one count of possession of narcotics. A




                                                    11
Office of Investigations

initiating an authorization for transportation          a workers’ compensation benefits fraud
service, awarding the service to local vendors,         investigation. One of the handguns was found to
and subsequently approving and submitting the           have a defaced serial number, which the BATF
appropriate invoices for payment to the VAMC            laboratory was able to raise and determine the
fiscal office. The investigation continues.             gun was reported stolen from the home of a
                                                        retired police officer. The individual had
Workers’ Compensation Benefits Fraud                    previously pleaded guilty to Federal fraud
                                                        charges after he admitted illegally collecting
                                                        over $320,000 in workers’ compensation
                                                        benefits by falsely reporting an inability to work
                                                        because of an injury sustained while working for
                                                        VA. A VA OIG investigation found that during
                                                        the time he was collecting workers’
                                                        compensation benefits, he was working at a
                                                        variety of different jobs, including counselor at a
                                                        children’s school, operator of a transportation
                                                        company, and as a self-employed psychologist.

                                                        • A former VAMC motor vehicle operator has
          Photo of Guns on a Table                      paid a total of $182,820 to the Government in
      [photo not available electronically]              restitution as a result of a prior guilty plea to
                                                        charges of workers’ compensation fraud. He
                                                        had reported that he had been in a motor vehicle
                                                        accident while on duty and sustained injuries to
                                                        his neck and lower back, thus allowing him to
                                                        collect compensation for his inability to work.
                                                        While collecting workers’ compensation
                                                        benefits, however, he was observed working at
                                                        rental properties that he owned and at a
                                                        restaurant, which he owned and operated.

                                                        • An individual was sentenced to 30 months’
The cache of weapons seized during the                  imprisonment and was ordered to pay $32,955 in
execution of a search warrant                           restitution after pleading guilty to charges of
                                                        forgery of a U.S. Treasury check and possession
• A former veterans outreach specialist was             of a firearm by a convicted felon. A joint
sentenced in state court to 5 years’ probation          investigation by VA OIG, DOL OIG, U.S.
after pleading guilty to one count of criminal          Postal Inspection Service, and BATF determined
possession of a weapon. The guilty plea was the         that the individual fraudulently continued to
result of a joint investigation conducted by VA         receive and negotiate U.S. Treasury checks that
OIG, the Department of Labor (DOL) OIG, the             had been issued to his deceased wife, a former
Bureau of Alcohol, Tobacco, and Firearms                VA nurse, for workers’ compensation benefits.
(BATF), and local police. Handguns were
discovered in the individual’s home during the
execution of a Federal search warrant as part of




                                                   12
                                                                                 Office of Investigations

Other Employee Misconduct                                 corporation created by the psychiatrist as part of
                                                          the scheme. Neither VA nor its affiliated
• A former VAMC registered nurse was found                university medical school that was also
guilty of making false statements after a 4-day           victimized knew of the shell corporation. The
jury trial. A VA OIG investigation, initiated             partner in the scheme previously pleaded guilty
pursuant to a complaint from a patient at the             to similar charges and was ordered to pay over
VAMC, disclosed that the nurse, formerly                  $1.1 million in restitution, forfeitures, and fines
assigned to the long-term psychiatric unit at the         and ordered never again to engage in research
VAMC, routinely slept during her shifts and               activities.
then made false statements to VA OIG special
agents when questioned on the subject. For the            • A former VAMC registered nurse was
majority of the nights she worked, she was the            sentenced to 3 months’ incarceration and 2 years’
only registered nurse assigned to the unit and the        supervised release after pleading guilty earlier this
only staff member allowed to dispense                     year to one count of providing false statements.
medications to patients.                                  During a VA OIG investigation into his nursing
                                                          background, he disclosed to investigators that he
• A former VAMC information security                      submitted fraudulent credentials to obtain his
officer pleaded guilty to possession of child             position as a VAMC staff nurse. Throughout his
pornography. A VA OIG investigation                       13-year career, he continued to update those false
disclosed that the individual, while on duty, had         credentials to obtain promotions. Through
downloaded multiple images of child                       promotions, the nurse eventually was elevated to a
pornography and stored them on his                        position responsible for coordinating and
Government computer hard drive. As a result of            managing patient care in two intensive care units
the investigation, the individual applied for and         at the VAMC.
received early retirement. He could be
sentenced to a maximum of 15 years’                       • A former VAMC maintenance supervisor
imprisonment and a fine of $250,000.                      was sentenced to 3 years’ probation and ordered
                                                          to pay $20,000 in restitution after pleading
• A former VAMC chief of psychiatry                       guilty to one count of mail fraud. The former
interrupted his trial and pleaded guilty in state         maintenance supervisor was the Government’s
court to 36 felony charges, including theft by            witness in a trial against two other individuals
taking, theft of services, making false                   who worked for VA vendors that supplied
statements, and a single Racketeer Influenced             construction materials to VA. The owner of one
and Corrupt Organizations violation. He was               of the companies was convicted on one count of
indicted previously in a 172-count indictment.            mail fraud; the second individual, the sales
As part of a plea agreement, he was sentenced to          representative for another company, was found
15 years’ imprisonment, 5 years’ probation,               guilty on two counts of mail fraud. The
fined $125,000, and ordered to pay $4.26                  convictions were the result of a joint VA OIG
million in restitution and forfeitures, and agreed        and FBI investigation which disclosed that the
to surrender his medical license and never to             maintenance supervisor and the two vendors
engage in patient studies again. The charges              participated in a scheme that used the mail to
stemmed from a scheme where the psychiatrist              further various fraudulent acts against VA,
and his partner made false statements to VA to            including the submission of false claims and the
utilize VA facilities and patients in conjunction         diversion of VA goods and property for personal
with pharmaceutical drug research. Funds from             use.
the drug companies were paid to a shell




                                                     13
Office of Investigations

• A VAMC compensated work therapy                           • A former VAMC chief of surgical service
worker was indicted and subsequently arrested               was sentenced to 5 months’ imprisonment, 36
on charges of using VAMC computers to                       months’ supervised probation, and fined $25,000
download pornography. A joint VA OIG and                    after being found guilty of involuntary
VA police investigation disclosed that, on at               manslaughter in a jury trial. As a result of a
least two occasions, the individual utilized                joint VA OIG and FBI investigation, the
computers located in the medical center library             individual was found guilty of administering a
for the purposes of accessing and printing more             lethal dose of potassium chloride to a veteran
than 50 pornographic images, some of which                  patient that he had operated on previously. The
portrayed images of children.                               lethal administration was given in spite of
                                                            warnings from other caregivers in attendance.
Patient Abuse/Death
                                                            • A licensed practical nurse, formerly
• A former VAMC nurse in a critical care unit               employed for 18 years by VA, and a nursing
was indicted on 11 counts including the murder              assistant were both indicted on charges of
of three patients, the attempted murder of two              assault on patients in a VAMC. The licensed
other patients, assault, and obstruction of justice.        practical nurse subsequently pleaded guilty to
She previously had been found guilty of making              charges of striking a 77 year-old veteran while
a telephone bomb threat to the VAMC in                      he was a patient at the VAMC, and at sentencing
retaliation against co-workers who reported her             could face up to 6 months in prison and a fine of
as a suspect in numerous deaths at the facility             $5,000. A joint VA OIG and FBI investigation
and was subsequently sentenced to 15 months in              disclosed that the employees struck and
prison and 3 years’ supervised release. When                otherwise abused patients in separate incidents,
she is tried on the murder charges, she could               causing a facial laceration in one of the cases.
face multiple life sentences or death. A VA OIG             The investigation is continuing.
investigation into the suspicious deaths
disclosed that she was on duty at the time each             Health Care Fraud
of the deaths occurred. Further investigation
involved the exhumation of some of the                      A doctor was sentenced to 5 months’
deceased veterans and tests by experts in the               imprisonment, 5 months in a halfway house, and
fields of pathology and toxicology. The                     3 years’ supervised release for his role in
indictment charges that the nurse used a heart              committing insurance fraud. He previously had
stimulant to murder or assault the patients in her          entered a plea of guilty to mail fraud. A joint
care. A trial date is pending.                              VA OIG and FBI investigation disclosed that the




        headline from the Boston Globe                             [photo not available electronically]




                                                       14
                                                                                  Office of Investigations

doctor, along with another doctor facing separate            Government property. A VA OIG investigation
charges, submitted false bills in order to receive           disclosed that, over a 2-year period, the
insurance payments for elective, cosmetic                    carpenter stole 16 air conditioners, valued at
procedures not normally covered by insurance                 approximately $8,000, from the VAMC for his
providers. A third person involved as a marketer             personal use and monetary gain. VA OIG
in the scheme also was charged and agreed to                 special agents confiscated five air conditioners
plead guilty to mail fraud. The marketer                     from an auto repair shop where the carpenter
acknowledged that several surgery centers paid               had hidden them in an attempt to avoid
her a commission to recruit patients, including VA           detection. The remaining air conditioners were
employees, who were promised free plastic                    sold or given away. The individual was released
surgery procedures. Investigation revealed that              on bond, pending a court appearance.
marketers would refer patients to one of the
surgery centers with the understanding that the              Construction Related Fraud
center and doctors would bill the patients’
insurance companies for the cosmetic surgeries.              • A construction company and its owner,
The marketers also would arrange for the patients’           contracted to perform construction work on a
travel and hotel accommodations. In order to                 VAMC, were debarred from performing work
obtain payments for the cosmetic surgeries, the              with the Federal Government until January
doctors falsely diagnosed the patients to justify the        2002. A VA OIG investigation disclosed
billings as “medically necessary” procedures. As             evidence of poor workmanship, poor project
part of the scheme, the two doctors also submitted           management, and failure to complete projects on
bills that claimed they had been assisted by                 time, as found when the company failed to meet
another surgeon during various procedures when,              construction deadlines for a new tuberculosis
in fact, they never had any assistance.                      ward at the VAMC. It also failed to pay sub-
                                                             contractors and suppliers on time, failed to pay
• Two former nursing home managers who                       the prevailing wage rate, improperly used
provided contractual care for VA patients were               escrow funds, did not comply with contract
convicted on charges of filing false claims, mail            specifications, and violated safety regulations.
and wire fraud, money laundering, and filing                 The value of the VA contract was approximately
false tax returns. A joint VA OIG, Internal                  $1.4 million.
Revenue Service, and State Medicaid Fraud
Bureau investigation disclosed that the two                  • An individual, employed by a company that
billed VA and Medicaid for the care of patients              subcontracted on $7.8 million in Government
who had either been discharged or who had died.              contracts to perform plumbing work on more
One of the individuals remains in jail pending               than 20 projects funded by VA and the U.S.
sentencing; both are to be sentenced shortly and             Department of Housing and Urban
face potential fines and prison terms. The                   Development, pleaded guilty to one count of
former owner of the nursing home settled a civil             conspiracy to submit false statements. He and
suit brought by the Government, paying $1                    three others involved in the scheme, representing
million in damages and penalties.                            two separate companies, previously were
                                                             indicted after a joint VA OIG and DOL OIG
Theft of Government Property                                 investigation revealed their involvement in a
                                                             scheme to submit false wage and hour
A VAMC carpenter resigned from his position                  statements to VA for payment, and false payroll
after being arrested on charges of theft of                  certifications to the DOL, indicating employees




                                                        15
Office of Investigations

were being paid the prevailing union wage rate.           to severe financial and administrative problems,
Their participation in the scheme resulted in the         he would default the contract to his bonding
two companies receiving approximately                     company for completion. He had received more
$700,000 in additional Government payments to             than $900,000 in progress payments prior to
which they were not entitled.                             default.

Procurement Fraud                                         • A former manager of a firm contracting with
                                                          the Government was sentenced to 3 years’
• The president of a company that contracted              probation. Previously, the individual pleaded
to sell adaptive equipment vans to companies              guilty to mail fraud and the company he
and handicapped veterans pleaded guilty in state          represented settled a false claims civil suit by
court to four counts of grand larceny. A VA               agreeing to pay the Government $6 million. A
OIG investigation determined that the company             joint VA OIG and General Services
was only leasing the vehicles and never held title        Administration OIG investigation disclosed that
to them. Once the company “sold” the vans to              the company had failed to provide accurate cost
veterans, they stopped making the lease                   or pricing information to the Government and
payments and as a result, collection agencies             did not pass on price reductions in connection
began threatening to confiscate vans that                 with a multiple award contract. The individual
veterans believed they owned. The president of            submitted to the Government a false and forged
the company previously had been indicted on 24            letter as proof that the Government was
counts of larceny, forgery, and false statements.         receiving prices they were entitled to when, in
Sentencing is pending.                                    fact, they were not.

• A criminal complaint and arrest warrant                 • Two individuals were sentenced after a joint
were issued for the owner and operator of a               VA OIG and DCIS investigation disclosed that
contracting company after a joint investigation           they accepted cash and goods from a VA
revealed that the individual, doing business              contractor in exchange for placing orders for
through the contracting company, engaged in               hand and power tools with his companies. The
fraud against VA and a host of other Federal              first individual was sentenced to 6 months’
agencies. The individual was subsequently                 home confinement, 200 hours’ community
arrested by special agents of the VA OIG, the             service, 5 years’ probation, and an $8,000 fine
Defense Criminal Investigative Service (DCIS),            after he pleaded guilty to conspiracy to accept
and U.S. Postal Inspection Service.                       bribes from the contractor. He admitted to
Investigation disclosed that the individual               accepting cash and machinery in exchange for
illegally obtained Small Business                         placing 18 orders with the contractor’s
Administration 8(a) set aside contracts and then          companies totaling $194,000. The second
defaulted on the work after securing substantial          individual, a plumbing engineer and union
progress payments. He also allegedly submitted            president at a VAMC, was sentenced to 3 years’
false bids and performance bonds on 16                    probation and fined $500 after pleading guilty to
Government contracts valued at approximately              charges of supplementation of his salary as a
$10 million. A VAMC contracted with the                   public official. He admitted approving three
individual’s company for a replacement                    orders to purchase approximately $5,200 worth
telephone system valued at more than $5                   of hand and power tools from the contractor.
million. This contract was terminated in August           This second individual voluntarily came forward
1996, after the individual notified VA that, due          with a confession after attending a Fraud and
                                                          Integrity Awareness briefing sponsored by the




                                                     16
                                                                               Office of Investigations

VA OIG. Additionally, an individual formerly             a result of the investigation and plea, the bakery
employed as a tool and parts attendant at the            was fined $500,000.
VAMC was sentenced to 5 years’ probation after
pleading guilty to a charge of conspiracy to             Product Substitution
accept bribes from the contractor. He admitted
accepting cash and goods in exchange for                 Three former executives of a company that
approving 25 orders to purchase $18,000 worth            distributed surgical instruments to the
of hand and machine tools and hardware from              Government each pleaded guilty to smuggling
the contractor’s companies. He was                       goods into the U.S. and importation of goods by
subsequently debarred from doing any                     fraudulent means. The pleas were in response to
Government contract work until January 2002.             a joint VA OIG, U.S. Customs, and Food and
The contractor and his wife previously pleaded           Drug Administration investigation which
guilty to conspiracy charges and were implicated         disclosed that the individuals imported surgical
in plots to defraud the Departments of Defense           instruments from Pakistan, concealing the fact
and VA of $400,000 and to provide substandard            that Pakistan was the country of origin by first
parts to the Government.                                 shipping the items through countries in Europe,
                                                         where they were repackaged to give the
• An individual formerly employed as the vice            appearance they were manufactured in those
president of sales in a medical products                 countries. The contract under which the items
company pleaded guilty to a one-count criminal           were purchased by the Government specifically
information charging him with conspiracy. A              named Pakistan as a prohibited source. As a
joint investigation by VA OIG, Department of             result, the company bought surgical instruments
Health and Human Services OIG, DCIS, and                 of inferior quality at lower prices and then sold
FBI disclosed that the scheme involved offering          them at a premium rate to VA and other
and paying kickbacks to private clinics if they          Government agencies. Losses to VA are
referred laboratory and blood testing services of        estimated to be $245,000. Sentencing dates
dialysis patients to a wholly owned subsidiary of        have not been set.
the medical products company. The services
were paid primarily by Medicare; however, VA
                                                         Other Criminal Activity
paid the laboratory directly over $1 million for
laboratory analysis services performed at VA
medical facilities. It is alleged that the               • An individual was indicted on third degree
laboratory charged VA for services not                   sodomy charges after a VA OIG investigation
performed and for instances of unnecessary               disclosed that he subjected another person to
testing. Investigation is continuing.                    deviant sexual behavior without that person’s
                                                         consent while on VAMC property. The victim
Bid Rigging                                              is a mentally impaired person who performed
                                                         volunteer work in a nursing home located at a
                                                         VAMC.
A company pleaded guilty to a one-count
criminal information charging Conspiracy to
Restrain Trade (Bid Rigging). A VA OIG                   • An individual was arrested and subsequently
investigation disclosed that the company                 indicted on one count of credit card fraud and
conspired with other companies to violate the            one count of conspiracy to commit credit card
Sherman Antitrust Act in the award and                   fraud, in connection with his fraudulent use of a
performance of contracts to supply bread                 U.S. Government travel credit card which
products to state school districts and to VA. As         resulted in the theft of over $95,000. The




                                                    17
Office of Investigations

indictment was the result of a joint VA OIG and          number. Fraud involving VA surfaced during a
U.S. Secret Service investigation which                  U.S. Secret Service investigation of the couple
disclosed that the individual intercepted a              alleging that they provided false information on
Government Visa card issued by Citibank                  credit applications. Further investigation by VA
intended for a former VAMC employee, and                 OIG disclosed that both the husband and wife
subsequently withdrew more than $95,000 from             provided an array of false information
multiple automated teller machines. The theft            concerning employment and earnings when they
occurred in a short period of time during the            obtained a VA-guaranteed mortgage on a
transition to Visa from American Express. If             property.
found guilty, he faces up to 10 years’
imprisonment and fines of up to $250,000. The            • A VA property management broker was
investigation is continuing.                             sentenced to 12 months’ probation and ordered
                                                         to pay restitution of $3,400 to VA after pleading
                                                         guilty to charges of conspiracy to defraud VA.
                                                         A VA OIG investigation disclosed that the
                                                         individual assisted a buyer of a VA property in
Veterans Benefits                                        submitting false loan origination documentation
Administration                                           to show that the buyer had more income than he
                                                         actually had, in order to be able to qualify for the
VBA provides wide-reaching benefits to veterans          loan. In addition, the property management
and their dependents including pension and               broker furnished half the down payment on the
compensation payments, home loan guaranty                property, for a full 50 percent interest. As part
services, and educational opportunities. Each of         of the plea agreement, the individual resigned
these benefits programs is subject to fraud. For         her employment.
example, individuals submit false claims for
service connected disability, third parties steal        Beneficiary Fraud
pension payments issued after the unreported
death of the veteran, individuals provide false          Employee Misconduct
information so that veterans qualify for VA
guaranteed property loans, equity skimmers               • A former VA ratings specialist pleaded
dupe veterans out of their homes, and                    guilty to one count of theft of Government
educational benefits are obtained under false            funds. A VA OIG investigation disclosed that
representations. The Office of Investigations            the individual created a record of a fictitious
spends considerable resources in investigating           veteran in August 1986 and proceeded to award
and arresting those who defraud the benefits             the fictitious veteran benefits for service
operations of VA.                                        connected disabilities. He then had over
                                                         $624,000 in monthly benefits deposited into a
Loan Guaranty Program Fraud                              savings account opened in the name of the
                                                         fictitious veteran and every month, would
Loan Origination Fraud                                   withdraw funds from the account. In August
                                                         1998, the individual was arrested by VA OIG
• A husband and wife were charged in a 29-               special agents while making a withdrawal from
count indictment with conspiracy, making false           the account in the fictitious veteran’s name. At
statements on a Federal credit union loan                the time of arrest, he was in possession of
application, and use of a false Social Security




                                                    18
                                                                                  Office of Investigations

$10,000 and was wearing a set of green army                 Among the charges are desertion, assault with a
fatigues over his clothes in order to disguise his          deadly weapon, assault, impeding an
appearance. Sentencing is pending.                          investigation and multiple counts of sexual
                                                            assault, sodomy and rape of children. The
• A former VARO supervisor pleaded guilty                   individual and several of his relatives face
to a criminal information charging her with                 separate charges for theft of Government funds
engaging in money laundering and other                      and conspiracy regarding the wrongful receipt of
offenses. She had earlier resigned her position             insurance, VA, and SSA benefits. The
at the VARO after being arrested on charges of              individual also faces charges of murder and
making false claims to the Government and theft             arson in state court relative to the circumstances
of Government funds. A joint task force                     surrounding his faked death. He has already
investigation comprised of members from VA                  been convicted on separate charges of sexual
OIG, U.S. Postal Inspection Service, and the FBI            assault and was sentenced for that conviction to
disclosed that the employee created                         45 years in jail. This is a joint VA OIG and
computerized records which fraudulently                     SSA OIG investigation.
reflected that her fiancé was a 100 percent
service-connected disabled veteran. She then                • An individual was indicted for making false
caused VA to issue checks and make direct-                  statements to VA in order to continue receiving
deposit payments totaling more that $600,000                VA Dependency and Indemnity Compensation
into a bank account she had opened in both their            (DIC) benefits. A VA OIG investigation
names. The VARO was in the process of                       disclosed that the individual, the surviving
suspending the employee pending termination                 widow of a deceased veteran, remarried in 1970
when she resigned from her position.                        and failed to inform VA of her marriage. Prior
Sentencing is pending.                                      to the marriage, she was entitled to receive DIC
                                                            benefits as the surviving spouse; however,
• A former VA Medical and Regional Office                   entitlement terminated when she remarried. She
Center claims examiner was convicted on                     failed to report the marriage and took steps to
charges of making false claims to the                       conceal that information from VA, causing
Government and subsequently sentenced to 6                  benefits totaling more than $130,000 to be
months’ imprisonment, 3 years’ probation and                disbursed.
fined $1,000. A VA OIG investigation disclosed
that the individual, who was also a veteran,                • A VA OIG investigation determined that,
knowingly claimed an ineligible individual as a             for almost 16 years, an individual, who falsely
dependent on his application for veteran’s                  certified to VA that he was unemployed in order
compensation benefits, in order to receive                  to receive benefits, actually worked
additional funds to which he was not entitled.              continuously as a full-time fire alarm operator.
                                                            The individual’s false claims resulted in his
Compensation Benefits Fraud                                 collecting almost $112,000 in VA compensation
                                                            benefits, based on unemployability, to which he
• A U.S. Marine, who faked his death to                     was not entitled. The matter could not be
receive the proceeds from military life                     prosecuted criminally due to the expiration of
insurance, VA and Social Security                           the statute of limitations; however, the results of
Administration (SSA) benefits, was officially               the investigation have been reported to the
charged by the U.S. Marine Corps with multiple              VARO, and collection action has begun.
violations of the Uniform Code of Military
Justice and will face court martial later this year.




                                                       19
Office of Investigations

• An individual pleaded guilty to one count of             confinement, and ordered to pay $73,648 in
fraudulent acceptance of VA benefits. A VA                 restitution. The wife was sentenced to 5 years’
OIG investigation disclosed that the individual            probation, 6 months’ home confinement, and
failed to report her mother’s death and, for 9½            joint responsibility with her husband for
years, diverted and negotiated her deceased                restitution. A VA OIG investigation disclosed
mother’s DIC benefits. Total loss to VA is                 that the couple failed to report the mother’s
approximately $57,000.                                     death in April 1987, and continued for 9½ years
                                                           to accept and negotiate her VA DIC benefits
• An individual was arrested on charges of                 checks totaling $73,648.
theft of Government funds after a VA OIG
investigation revealed that the individual has             • Two individuals, a husband and wife, were
diverted more than $49,000 in VA DIC and                   indicted and charged with seven counts of false
Civil Service Retirement Annuity benefits                  contracts, deeds, and powers of attorney and one
intended for her mother. The individual failed to          count of conspiracy. The couple conspired to
report her mother’s death in 1991, which would             forge and negotiate U.S. Treasury checks
have caused the payments to cease. The                     representing DIC benefits intended for the
investigation continues, and a trial date is               wife’s deceased mother. The total loss to the
pending.                                                   Government is estimated at $46,782.

• An individual was arrested by VA OIG and                 • An individual pleaded guilty to theft of
SSA OIG special agents as a result of a sealed             Government property and was subsequently
indictment charging him with 10 counts of                  sentenced to 10 months’ home detention, 5
uttering a forged writing and 1 count of making            years’ probation, and was ordered to pay
a false statement. The indictment charged that             $65,600 in restitution after pleading guilty to
over a 7-year period, the individual forged and            one count of theft of Government property. The
negotiated U.S. Treasury checks representing               individual previously had been indicted on 51
VA DIC benefits and social security benefits               counts of theft of Government property and
intended for his deceased mother. The total loss           making false statements. A VA OIG
to the Government exceeds $80,000.                         investigation disclosed that, for a period of
                                                           almost 6 years, the individual continued to
• An individual was sentenced to 4 months’                 receive and negotiate his deceased mother’s VA
home detention, 3 years’ supervised probation,             DIC payments, which should have ceased at the
and was ordered to pay $97,685 in restitution in           time of her death.
response to a prior guilty plea to charges of theft
of Government funds. A VA OIG investigation                • A husband and wife each were sentenced to
disclosed that the individual, failing to notify           6 months’ home detention with electronic
VA of her mother’s death, cashed DIC benefits              monitoring, 3 years’ probation, and ordered to
checks totaling $97,685 issued to the deceased             pay total restitution of $48,095 to VA. The
mother.                                                    couple previously had pleaded guilty to one
                                                           count each of theft of Government funds. A VA
• A husband and wife were sentenced for the                OIG investigation disclosed that, for almost 9
theft of VA benefit checks after pleading guilty           years, the couple received and negotiated more
to charges that they fraudulently diverted VA              than $48,000 in VA DIC benefits checks
benefits intended for the husband’s mother. The            payable to the wife’s deceased mother.
husband was sentenced to 5 years’ probation, 3
months in a halfway house, 4 months’ home




                                                      20
                                                                                 Office of Investigations

• An individual pleaded guilty after being                  • As the result of a joint VA OIG and U.S.
indicted and charged with making false                      Postal Inspection Service investigation, the
statements to the Government when an                        brother of a deceased veteran was sentenced to
investigation disclosed that she used a false               24 months’ imprisonment, 36 months’
name and Social Security number to divert more              probation, and ordered to pay $40,000 in
than $26,000 in DIC benefits to which she was               restitution for crimes associated with
not entitled. A joint VA OIG and SSA OIG                    impersonating his twin brother to illegally
investigation revealed that the individual, the             obtaining VA benefits. After the death of the
widow of a deceased veteran, had been in receipt            veteran, the brother assumed the veteran’s
of DIC benefits since 1977. She also had been               identity and continued to receive and cash VA
in receipt of Social Security benefits for part of          pension checks, making at least five changes of
that time period, but failed to disclose the receipt        address to which the checks were mailed. The
of the additional benefits to VA.                           veteran’s brother also obtained a VA guaranteed
                                                            home loan for his daughter by claiming to be the
Pension Benefits Fraud                                      veteran and filing false documentation with the
                                                            mortgage company and VA. The fraudulently
• An individual was indicted by a Federal                   obtained loan has defaulted. Potential loss to
grand jury and charged with filing false                    VA is in excess of $70,000.
statements. The indictment is the result of a VA
OIG investigation that determined the individual            • An individual who fraudulently claimed to
made false statements regarding his total family            be a Navy veteran in order to get VA pension
income which caused VA to pay him $54,000 in                and health benefits was sentenced to 6 months’
benefits to which he was not entitled.                      home detention, 2 years’ probation, and was
                                                            ordered to make efforts to repay $41,961 in
• The spouse of a deceased veteran was                      pension benefits and $9,748 in medical services
indicted on charges of theft of Government                  he improperly received. He had pleaded guilty
property for continuing to collect benefits and             in an earlier court appearance to theft of
failing to report the veteran’s death. A joint VA           Government funds. He received a reduced
OIG, Railroad Retirement Board (RRB), and                   sentence in response to a motion filed by his
U.S. Secret Service investigation disclosed that            attorney, which showed he is presently suffering
the wife continued a scheme initiated by the                from debilitating ailments including heart and
veteran before his death whereby, using a false             kidney failure and diabetes. His older brother
name, fraudulent Social Security number and                 had fraudulently enlisted in the Navy years ago
date of birth, he created a false identity and lived        using his identity. After receiving VA
under the assumed name. Under his actual                    correspondence with his name on it, he applied
name, he received VA and RRB benefits. Upon                 for benefits. The older brother was not
his death, he was buried under the false identity;          prosecuted for his fraudulent enlistment as the
therefore, VA and RRB benefits continued. The               statute of limitations had expired.
wife further perpetrated the fraud by having her
sons forge the veteran’s name on yearly                     • An individual was sentenced to 4 months’
verification forms, which she continued to file             imprisonment, 4 months’ home confinement and
with both VA and the RRB after his death. Loss              was ordered to pay $50,571 in restitution after
to VA is approximately $51,000.                             pleading guilty to making false statements to
                                                            obtain VA pension benefits. A VA OIG
                                                            investigation disclosed that the individual
                                                            remarried twice following her veteran husband’s




                                                       21
Office of Investigations

death and failed to notify VA of either marriage.        • An individual appointed to act as fiduciary
VA pension benefits are provided to the                  for his cousin, a veteran judged by VA to be
surviving spouse and children of a deceased              unable to handle his VA benefit funds, pleaded
veteran and are terminated when the spouse               guilty to seven counts of theft of Government
remarries. Loss to VA is more than $50,000.              funds for stealing the cousin’s VA benefit
                                                         monies. A VA OIG investigation disclosed that,
Fiduciary Fraud                                          over a period of approximately 3 months, the
                                                         fiduciary forged VA authorization letters and
• An individual acting as a VA fiduciary,                illegally drained the funds from a restricted bank
court-appointed guardian, and Social Security            account. The veteran never received any of the
representative payee to a number of elderly              funds withdrawn from the account. The
veterans pleaded guilty to mail fraud and                unauthorized withdrawals by the fiduciary
misapplication of funds by a VA fiduciary. The           amounted to a theft of almost $39,000 in VA
individual wrongfully appropriated more than             compensation benefits.
$200,000 in funds belonging to the estates of six
of her elderly, veteran wards, five of whom were         • An individual pleaded guilty to a one-count
judged to be mentally incompetent. She also              criminal information charging him with
made a series of false and fraudulent statements         fraudulently misusing VA compensation
on accountings that were submitted to VA in              benefits belonging to an incompetent veteran. A
order to conceal the thefts.                             VA OIG investigation disclosed that the
                                                         individual, who was serving as fiduciary for his
• An attorney was arrested pursuant to a nine-           brother, a veteran deemed to be incompetent to
count indictment and subsequently pleaded                take care of his own affairs, failed to account for
guilty to one count of mail fraud in connection          expenditures of VA funds in excess of $10,000
with the theft of approximately $120,000 from            over a period of 14 months. He admitted to
the guardianship account of a disabled World             misappropriating the veteran’s benefits for his
War II veteran. The individual acted as court-           personal use.
appointed guardian for the veteran from 1989 to
1994, during which time he was entrusted to              Educational Benefits Fraud
receive Government benefits and other monies
due to the veteran, and was required to submit           • The civil division of the U.S. Attorney’s
periodic reports to the court and VA concerning          Office is continuing to obtain civil settlements
his handling of the veteran’s finances. A VA             from student veterans who received VA benefits
OIG investigation disclosed that in 1993, the            but did not attend regularly scheduled classes at
individual started withdrawing large amounts of          a community college. Bribes were paid to faculty
money from the veteran’s account to pay for his          staff including the chairman of a department at the
personal expenditures.                                   college to ensure that high grades would be given
                                                         with no class attendance required. Most recently,
• A plea agreement and criminal information              the civil division has obtained settlement
were filed charging an individual with                   agreements from additional students. The total
misappropriation by fiduciary. A joint VA OIG            number of students who have negotiated
and SSA investigation disclosed that the                 settlement agreements thus far with the civil
individual, over a 1-year period, embezzled              division is 241, resulting in restitution totaling
approximately $104,000 from three incompetent            $2,834,913. Civil actions have been filed
veterans while serving in a fiduciary capacity.          against student veterans who declined to
                                                         negotiate settlement agreements, and there are




                                                    22
                                                                               Office of Investigations

109 remaining cases pending resolution. A trial           who was assigned by a state court to perform
date is pending as a result of indictments against        community service at the cemetery. The
the college staff.                                        probationer’s time and attendance record was
                                                          falsified by the foreman to reflect over 200
Vocational Rehabilitation and                             hours of service not actually performed. Both
Counseling Service                                        employees attempted on numerous occasions to
                                                          prevent witness cooperation with the
A former VA contractor who owned a computer               investigating agents, once the nature of the
company pleaded guilty to a one-count criminal            investigation became known. Sentencing for
information charging him with filing fraudulent           both is pending.
claims with VA for products that were never
delivered. A joint VA OIG and FBI                         • An individual resigned as a VA program
investigation of fraud by fee-basis providers and         assistant after being confronted by investigators
others associated with VA’s Vocational                    with evidence of her misuse of two Visa
Rehabilitation & Counseling Service program               SmartPay cards. A joint VA OIG and FBI
disclosed that the company owner and another              investigation determined the employee illegally
individual conspired to defraud VA by                     used two Visa cards assigned to her, for support
submitting invoices for approximately $67,838             of administration operations, to purchase over
in computer equipment that was never delivered.           $284,000 in computers and electronic
Investigation further revealed that a network of          entertainment equipment, which she converted
Government contractors, hired to provide                  to personal use or resold for 50 percent of
various services such as training and case                market value for personal gain. She also used
management services to disabled veterans in               the cards to cover some personal expenses.
vocational rehabilitation, conspired to bill VA           Criminal charges are pending.
for remedial educational, employment and
vocational training services which, in many
instances, were not provided. An additional plea
relating to this matter is anticipated.                   Office of Human
                                                          Resources and
                                                          Administration
National Cemetery
Administration                                            Support to VA Central Office

Employee Misconduct                                       Theft and Embezzlement

                                                          Two VA laborers resigned their positions after
• An individual employed as a caretaker at a
                                                          being notified that they would be terminated
VA national cemetery pleaded guilty to charges
                                                          from employment for their roles in the theft of
of witness tampering. An accomplice, employed
                                                          VA property. A third individual employed as a
as a foreman at the cemetery, earlier pleaded
                                                          VA supply technician executed a 1-year “last
guilty to related charges of bribery. A VA OIG
                                                          chance agreement” and accepted a 30-day
investigation disclosed that the foreman solicited
                                                          suspension in connection with his lesser
and accepted bribe money from a probationer
                                                          involvement in the property thefts. All three




                                                     23
Office of Investigations

employees, who were implicated in the theft and              Laboratory Cases for the Period
attempted theft of $9,750 in VA property,                                               Cases
surfaced during a joint VA OIG and VA Office                      Requester
                                                                                      Completed
of Security and Law Enforcement investigation            OIG Office of Investigations      8
into extensive VA property thefts. Other
employees who were found to be involved more             VA Regional Offices                      17
extensively in the thefts of over $40,000 in             Board of Veterans Appeals                 4
property were prosecuted previously and have             VA Office of Regional
been sentenced.                                                                                    2
                                                         Counsel
                                                         Finance & Administration
                                                                                                   1
                                                         Service
OIG Forensic Document                                               TOTAL                         32
Laboratory
                                                         The following are examples of laboratory work
                                                         that was completed:
The OIG operates a nationwide Forensic
Document Laboratory service for fraud detection          • VA OIG investigated a registered nurse
that can be utilized by all elements of VA. The          practitioner who diverted drugs from a VA
types of requests routinely submitted to the             domiciliary for her own use. The nurse wrote
laboratory include handwriting analysis,                 bogus prescriptions for a veteran who was not a
typewriting, inks, paper, photocopied                    patient, and wrote other bogus prescriptions for
documents, and suspected alterations of official         patients at the domiciliary. The laboratory
documents. During this reporting period, the             examinations identified the registered nurse
laboratory received 288 documents from various           practitioner as the author of handwritten entries
non-OIG sources and 1,642 pieces of evidence             on 11 bogus prescriptions. An indictment is
in 8 OIG investigations, which required                  anticipated in this case.
extensive laboratory examinations. A review
and inspection of the laboratory concluded that          • VA OIG investigated a former health system
laboratory examinations conducted for the                specialist at a VA medical center, and two non-
Department on questioned documents submitted             VA associates who used the confidential
in support of benefits claims resulted in savings        identifying information of at least three VA
of approximately $248,000 over the past 2 years.         employees to apply fraudulently for various
There were a total of 32 forensic laboratory             credit card accounts. The amount of fraud
reports issued during this semiannual period.            exceeds $60,000, and involves at least 17
                                                         accounts. Laboratory examinations identified
                                                         one subject of the investigation as the author of
                                                         the forged signatures of the three VA
                                                         employees. The same subject also was
                                                         identified as the author of handwritten entries
                                                         appearing on documentary evidence associated
                                                         with the credit card fraud schemes. An
                                                         indictment is anticipated in this case.




                                                    24
                                                                                 Office of Investigations

• VA OIG investigated a foreman employed at
a VA national cemetery who solicited and
                                                          II.       ADMINISTRATIVE
accepted bribes from a probationer. The VA                          INVESTIGATIONS
cemetery hosts individuals placed on probation
by the local State District Court to perform court                  DIVISION
ordered community service at the cemetery. The
VA foreman accepted money from one                        Mission Statement
probationer in order to complete sign-in sheets
that falsely showed he worked over 200 hours at                 Independently review allegations and
the cemetery. Laboratory examinations                           conduct administrative investigations
identified the VA foreman as the author of                      generally concerning high ranking senior
fraudulent entries appearing on the sign-in                     officials and other high profile matters of
sheets. The VA foreman pleaded guilty to                        interest to the Congress and the
bribery.                                                        Department.
• VA OIG investigated an individual who
assisted a widow of a 100 percent service                 Resources
connected veteran to obtain DIC benefits. The
widow did not speak or understand English.                The Administrative Investigations Division has
Laboratory examinations identified the subject            nine FTE assigned. The following chart shows
as the author of the widow’s signatures on U.S.           the percentage of resources utilized in reviewing
Treasury checks, one of which was for $32,952.            allegations by program area.
The subject also was identified as the author of
41 fraudulent handwritten entries related to VA
benefit payments to the widow.
                                                                     
                                                                     




                                                                                        	


                                                                                         
                                                                                  
                                                                                  




                                                          Overall Performance
                                                          During the reporting period the Division closed
                                                          22 cases, 6 of which had Congressional interest.

                                                          Output
                                                          • During the reporting period, 10 reports and 1
                                                          administrative letter were issued. Twelve cases
                                                          resulted in administrative closures.




                                                     25
Office of Investigations

Outcome                                                    official. VHA also took administrative action
• VA managers took administrative actions                  against the senior official, billed the other
against 18 high-ranking officials and other                official for the cost of the fence, and returned the
employees and 13 corrective actions to improve             large sedan. (Conduct Issues Concerning a
operations and activities as the result of these           Senior Official, Alvin C. York VA Medical
reviews.                                                   Center, Murfreesboro, Tennessee,
                                                           9PR-D03-026, February 2, 1999)
Customer Satisfaction
• Customer satisfaction surveys indicated that             Harassment
VA managers found reports to be useful in
addressing allegations at their facilities. The            An administrative investigation substantiated
customer satisfaction survey rating for the                that a senior official inappropriately removed a
period averaged 4.1 out of a maximum of 5                  document from a private automobile. The
possible points.                                           investigation disclosed that the senior official
                                                           reached into the automobile to remove a
The administrative investigation reports                   document the official reasonably believed might
discussed below address serious issues of                  be released to the media in violation of the
misconduct against high ranking officials and              Privacy Act. We concluded that, while we
other high profile matters of interest to the              understood the motivation, the action had the
Congress, Secretary, VA managers, media, and               effect of harassing three employees. VHA
the general public.                                        officials informed us they would take
                                                           appropriate administrative action against the
                                                           senior official. (Conduct and Personal Property
                                                           Issues, New Jersey Health Care System, Lyons
                                                           Division, New Jersey, 9PR-G03-035,
Veterans Health                                            February 12, 1999)
Administration
                                                           Misuse of Position
Misuse of Position and Waste of                            An administrative investigation substantiated
Resources                                                  that a senior official of a VAMC misused the
                                                           position to receive free medical care improperly.
An administrative investigation substantiated              The investigation disclosed that, for a 2 – 3 year
that a senior official improperly requested and            period, the senior official asked a subordinate
approved construction of a $5,000 fence at the             employee for monitoring and treatment of a
Government quarters he occupied, in part to                medical condition, rather than seeking treatment
accommodate his pet. We concluded the official             from a private physician. VHA officials
misused his position to benefit himself. The               informed us they took appropriate administrative
investigation also disclosed that a senior official        action against the official and discussed the
wasted medical care funds to construct a canoe             proper use of healthcare services with the
ramp on VA property that was not for patient               physicians involved. (Ethical Conduct Issues,
use, and that he leased a large passenger sedan            VAMC Memphis, Tennessee, 9PR-A03-015,
without determining whether it was mission-                January 20, 1999)
essential. VHA officials informed us they
planned to take administrative action against the




                                                      26
                                                                               Office of Investigations

Gambling and Time and                                     finalized, which precluded administrative action
Attendance Issues                                         being taken. VHA officials informed us they
                                                          would take appropriate administrative action
                                                          against the other senior VISN official and
An administrative investigation substantiated
                                                          responsible procurement officials, and had
that a supervisory employee used poor judgment
                                                          taken, or would take, other corrective actions.
in granting administrative leave to her
                                                          (Travel, Vehicle Use, and Contracting Issues,
subordinates to attend monthly social activities,
                                                          Mid-Atlantic Veterans Integrated Service
particularly when the activities occurred at a
                                                          Network, Durham, North Carolina, 9PR-A99-
gambling casino. The investigation also
                                                          059, March 25, 1999)
substantiated that a senior official used poor
judgment by allowing the employees to go off-
station routinely for periods in excess of that           Misuse of Position and Misuse of
prescribed by VA’s regulations. Further, the              Resources
investigation disclosed that management
controls over time and attendance activities in           An administrative investigation substantiated
another area of the facility were lax. VHA                that a VA physician misused his position when
officials took appropriate administrative and             he solicited funds for a private venture using VA
corrective actions to address these issues.               letterhead and the VA facility’s name, and
(Gambling, Time and Attendance, and Other                 improperly solicited donations from companies
Issues, VAMC Biloxi, Mississippi, 9PR-A99-043,            doing business with VA. The investigation also
March 3, 1999)                                            substantiated that a senior official improperly
                                                          disposed of medical supplies by donating them
Travel, Vehicle Use, and                                  to the physician for his private venture. Finally,
Contracting Issues                                        the investigation disclosed that three employees,
                                                          who were not veterans, improperly received
                                                          treatment by the medical center’s medical staff.
An administrative investigation substantiated
                                                          VHA officials informed us appropriate
that a VISN senior official misused a
                                                          administrative action would be taken against the
Government vehicle, established an unnecessary
                                                          physician who misused his position, the senior
office away from his official duty station, and
                                                          official who improperly disposed of medical
performed unnecessary temporary duty travel
                                                          supplies, and the employees who received
there to be near his family residence. The
                                                          medical treatment improperly. VHA officials
investigation also substantiated that the official
                                                          also informed us the employees who should not
improperly claimed and received reimbursement
                                                          have received treatment were billed for their
from another Government agency when he
                                                          medical procedures. (Misuse of Position and
drove a VA Government vehicle on temporary
                                                          Misuse of Resources Issues, VA Palo Alto
duty travel. Further, the investigation disclosed
                                                          Health Care System, Palo Alto Division,
that the official unnecessarily selected a large
                                                          California, 9PR-A19-045, March 16, 1999)
luxury sedan for his use, contributed to
irregularities in the procurement of consulting
contracts, and wasted funds by locating a VISN
position outside the geographic boundaries of
the VISN. The investigation substantiated that
another senior VISN official also misused a
Government vehicle. The VISN subject of the
complaint resigned before the report was




                                                     27
Office of Investigations

Use of Credit Union Checking
Account

An administrative investigation substantiated
that the VA Central Office Chaplain Service
improperly maintained a credit union checking
account after March 1990 despite directives to
the contrary. The investigation found no
evidence that Chaplain Service officials
improperly spent appropriated funds deposited
in the account, although they improperly
commingled those funds with other, non-
appropriated funds. The investigation concluded
that using appropriated funds to pay for meals at
the Service’s annual conference was proper as
long as participants adjusted their claims for per
diem reimbursement. Chaplain Service officials
informed us they would close the account and
consult with the Office of General Counsel to
determine the proper disposition of the account’s
balance. (Credit Union Checking Account
Issues, VA Central Office Chaplain Service,
Hampton, Virginia, 9PR-A18-073, March 30,
1999)




                                                     28
OFFICE OF AUDIT
Mission Statement                                      preaward and postaward reviews of certain
                                                       categories of VA contracts.
    Improve the management of VA programs
    and activities by providing our customers
    with timely, balanced, credible, and               Overall Performance
    independent financial and performance
    evaluations that address the economy,              Output
    effectiveness, efficiency, financial, and          • Issued 24 performance and financial audits
    internal control of VA operations, and that        and evaluations, for an output efficiency of one
    identify constructive solutions and                report per 6.4 FTE; and issued 19 contract
    opportunities for improvement, and to              review reports (6 preaward contract reviews and
    conduct preaward and postaward reviews             13 postaward reviews), for an output efficiency
    to assist contracting officers in price            of one report per 1.2 FTE.
    negotiations and to ensure reasonableness
    of prices paid.                                    Outcome
                                                       • Recommendations were made to enhance
Resources                                              operations and correct operating deficiencies
                                                       with monetary benefits totaling $426 million. In
The Office of Audit had 154 FTE assigned in            addition, postaward contract reviews identified
VA Central Office and 7 operating divisions            recoveries of $8.6 million and preaward contract
throughout the country. The following chart            reviews, designed to assist VA contracting
shows the percentage of resources utilized in          officers in negotiating the best possible prices,
auditing each of VA’s major program areas.             made recommendations that could save VA
                                                       $23.9 million.

                                                       Cost Effectiveness
                          
                         
                    • A return of $57 in monetary benefits was
                                                    achieved for every dollar spent in performance
                                                       and financial audits and evaluations, $10 was
                                                       recovered for every dollar spent on postaward
         	

                                          contract reviews, and $63 in contract costs were
                                                    avoided for every dollar spent on preaward
                               
                                              contract reviews.
                             !
                      
                                                       Customer Satisfaction
                                                       • Customer satisfaction with performance and
                                                       financial audits and evaluations was 4.3 on a
                                                       scale of 5, for reports issued during the period.
                                                       The average customer satisfaction rating for
In addition, the Office of Audit’s Contract            contract reviews was 4.4 out of a possible 5.
Review and Evaluation Division had 24 FTE
reimbursed by the VA Office of Acquisition and         Audits completed during the period identified
Materiel Management. This Division conducts            opportunities to improve services to veterans,
                                                       and identified savings that could be used to




                                                  29
Office of Audit

provide more and better service. The following            did not include all eligible veterans who had
summarizes some of the audits completed during            applied for care at the Network’s facilities.
the reporting period organized by VA                      Also, patient workload was not properly
component: VHA, VBA, Office of Financial                  accounted for by the Veterans Equitable
Management, and issues requiring action by                Resource Allocation funding model. The
multiple offices.                                         Network Director concurred with the report
                                                          recommendations and provided appropriate
                                                          implementation actions. (Audit of VISN 10
                                                          Organization, Planning, and Implementation of
                                                          Key Strategic Goals and Objectives,
Veterans Health                                           9D2-A19-001, 1/12/99)
Administration
                                                          Issue: Decision Support System (DSS)
                                                          Conclusion: VHA must adhere to the
Resource Utilization                                         basic building-block structure if the
                                                             system is to achieve its full potential.
Issue: Implementation of VHA’s overall                    Impact: Better use of invested funds.
   reorganization plan in VISN 10.
Conclusion: Integration of VISN 10                        We audited VHA’s implementation of a new
   facility management structure is                       management information system intended to aid
   proceeding as planned. However,                        clinicians, managers, and executives in making
   some improvement is needed.                            decisions affecting the delivery of health care.
Impact: Improved quality of care and                      The audit was requested by the Under Secretary
   better use of funds.                                   for Health, and its purpose was to determine if
                                                          implementation of DSS at 147 medical facilities
The audit assessed the Veterans Healthcare                was sufficiently standardized to ensure the
System of Ohio’s (also known organizationally             usefulness of DSS data at local, VISN, and VHA
as VISN 10) implementation of VHA’s overall               headquarters levels. Through September 1998,
reorganization plan, and examined                         we estimate that implementation of DSS cost
implementation of three of VHA’s most                     about $140 million. The potential usefulness of
significant strategic goals and objectives. The           DSS and its data was being compromised
audit found the Network is effectively                    because some medical center staff had diverged
implementing the Under Secretary for Health’s             from the system’s basic structural standard.
reorganization plan. We also found the                    Where such divergence had been detected, it
Network’s efforts to reduce costs per patient             prevented data from these medical centers being
treated have been substantial and the Network             accurately aggregated along with data from
has a number of initiatives in process to increase        other facilities that did adhere to the standard.
medical care funding from sources other than              We were also concerned that data divergences
Federal appropriations. Network efforts to                that had not been detected may have resulted in
increase veteran access to VA healthcare are              inaccurate data being aggregated into roll-up
also proving effective. However, we found                 reports. Facilities that had diverged from the
Network management needs to take action to                DSS structural standard also lost the opportunity
ensure that weaknesses in VHA processes                   to perform a variety of analyses that adhering to
relating to patient enrollment, reporting, and            the structural standard provides.
resource allocation do not adversely affect these
efforts. We found the patient enrollment process




                                                     30
                                                                                           Office of Audit

For DSS to achieve its full potential, we                   the IPA authority. Of the 25 IPAs, 18 (72
recommended that the Under Secretary for                    percent) were established after the issuance of
Health: (i) ensure that all staff and managers              the VHA guidance on IPAs. In response to our
involved with DSS be required to input data into            finding, VHA management initiated immediate
the local DSS systems in adherence with the                 corrective action, issuing a memorandum that
standard DSS structure, (ii) periodically                   forcefully directed VAMCs to terminate
determine the degree of adherence to the DSS                inappropriate IPAs.
structural model that is required of medical
center systems, and (iii) establish the controls            The evaluation also found that some VAMCs
necessary for full compliance with decisions                had begun using commercial item contracts as a
made under (ii). The Under Secretary for Health             substitute for SMS contracts. Unlike SMS
concurred with all report findings and                      contracts, commercial item contracts do not
recommendations, and provided acceptable                    require cost or pricing data to support proposed
implementation plans. Therefore, all issues in              prices. As a consequence, there is a risk that
the report are considered resolved. (Audit of               VAMCs could overpay for services. We
VHA Decision Support System Standardization,                recommended that VHA follow through with
9R4-A19-075, 3/31/99)                                       issuing guidance that would: (i) emphasize the
                                                            importance of obtaining sufficient information to
Issue: Clinical services contracts with                     insure that prices paid on noncompetitive
   medical schools.                                         commercial item contracts are reasonable, and
Conclusion: VAMCs need additional                           (ii) recommend the use of cost or pricing data as
   guidance on using commercial                             the benchmark for price reasonableness for staff-
   contracts to purchase services.                          based contracts and Medicare rates as the
Impact: Reduce risk associated with                         benchmark for procedure-based contracts. The
   noncompetitive contracts to                              Under Secretary for Health concurred in
   purchase services.                                       principle with the recommendation and provided
                                                            an acceptable implementation plan. (Evaluation
We performed an evaluation of VAMC practices                of VAMC Clinical Services Contracts with
in contracting for clinical services with affiliated        Medical Schools, 9R8-E11-008, 10/30/98)
medical schools. The evaluation focused on
determining if VAMCs were using inappropriate               Issue: Medical center investment in
contracting practices, such as using                           ambulatory care infrastructure.
Intergovernmental Personnel Act assignments                 Conclusion: Significant efforts were
(IPAs) as a substitute for scarce medical                      made to reduce inpatient
specialist (SMS) contracts. That practice was                  infrastructure and increase
identified in a 1997 audit of IPAs. As a result of             ambulatory care infrastructure, but
findings from the 1997 audit, VHA issued                       data was not adequate to identify and
guidance directing VAMCs not to use IPAs to                    quantify the sources of funding.
obtain clinical services. We followed up on the             Impact: Improved resource allocation.
implementation of that guidance in the current
audit.                                                      At the request of the Under Secretary for Health,
                                                            the OIG conducted an evaluation to determine
We found that some VAMCs continued to use                   whether savings resulting from reductions in
IPAs as a substitute for SMS contracts. We                  inpatient care infrastructure were reinvested in
reviewed 25 non-research IPAs at 4 VAMCs and                ambulatory care infrastructure. Additionally, the
found that all 25 were an inappropriate use of              Under Secretary requested our suggestions for




                                                       31
Office of Audit

improving the collection of cost data and cost          Issue: Income Verification Match (IVM).
reporting systems.                                      Conclusion: Improved procedures can
                                                           prevent unnecessary verification,
Our evaluation found that, for the 5 facilities            ensure compliance with the Privacy
reviewed during the period FYs 1994 through                Act, and increase collections.
1998, inpatient workload fell 64 percent, 44            Impact: Increase funding by $14.2
percent of operating beds were closed, inpatient           million and better use of $3.8 million.
staffing was reduced 28 percent, and outpatient
workload increased 46 percent. Additionally,            We conducted an evaluation of VHA’s IVM
significant investment in campus and                    program to: (i) follow-up on the implementation
community based ambulatory care infrastructure          of recommendations made in a March 27, 1996
took place at each medical center visited.              OIG report, Review of VHA’s Income
                                                        Verification Match Program, and (ii) determine
Regarding the utility of VHA cost information           whether there are opportunities for VHA to
systems, we concluded that: (i) VHA’s cost              conduct the IVM program in a more efficient
accounting system, the Cost Distribution Report         and cost effective manner.
(CDR), was not sufficiently reliable to quantify
the reinvestment of inpatient infrastructure            We concluded that VHA can ensure compliance
savings in ambulatory care infrastructure, and          with Privacy Act requirements, increase funding
(ii) the Decision Support System, VHA’s                 available for health care by $14.2 million, and
planned successor cost accounting system to the         put resources valued at $3.8 million to better
CDR, has the potential to provide more useful           use, by requiring VISN Directors to establish
and reliable data on the cost of providing              performance monitors for means testing
services.                                               activities and billing and collection of program
                                                        referrals. Additionally, to further ensure these
We suggested that management provide                    monetary benefits are achieved, VHA
supplemental direction for collection and               management needs to implement previous
reporting of workload and cost data to the CDR,         recommendations and the Chief Information
pending full implementation of DSS.                     Officer needs to increase oversight of Health
                                                        Eligibility Center (HEC) activities. VHA also
The Under Secretary for Health agreed with our          needs to expedite action to centralize means
conclusions. He stated that a work group has            testing activities at the HEC.
been established to develop an action plan for
replacement of the CDR. He also indicated that          We recommended that VHA improve IVM
further study would be conducted of the                 program activities by: (i) requiring VHA’s
relational consistencies of inpatient and               Chief Network Officer to ensure that VISN
outpatient costs through time. All issues are           Directors establish performance standards and
considered resolved. (Evaluation of Medical             quality monitors for means testing activities and
Center Investment in Ambulatory Care                    billing and collection of program referrals, (ii)
Infrastructure, 9AY-A19-061, 3/31/99)                   requiring the VHA Chief Information Officer to
                                                        develop performance measures and monitor
                                                        periodic performance reports of HEC activities,
“I appreciate your prompt and                           and (iii) expediting action to centralize means
professional response to my request.”                   testing activities at the HEC.
                  Under Secretary for Health




                                                   32
                                                                                         Office of Audit

The Under Secretary for Health concurred with            determine the effect that new Community Based
the findings, recommendations, and estimated             Outpatient Clinics would have on reducing
monetary benefits and provided acceptable                medical center workload and space needs.
implementation plans. (Evaluation of VHA’s
Income Verification Match Program,                       We concluded that the $3.7 million project was
9R1-G01-054, 3/15/99)                                    not adequately justified. We recommended that
                                                         the project not be approved until space needs are
                                                         reevaluated. The Director, VISN 7 concurred
Facility Management                                      with the recommendations and began an
                                                         acceptable implementation plan by conducting a
                                                         reevaluation of space needs. While we consider
Issue: Ensuring that construction
                                                         the recommendations resolved, we reviewed the
   projects are justified and funds are
                                                         VISN 7 interim reevaluation results and
   used to meet agency goals.
                                                         concluded that the need for the project has not
Conclusion: Cost effective alternatives
                                                         yet been demonstrated. We will follow up on
   were available for some projects.
                                                         these issues until implementation is completed.
Impact: Better use of funds.
                                                         (Audit of Ambulatory Care Renovation Project
                                                         at VAMC Atlanta, GA, 9R5-D02-032, 1/29/99)
We audited two construction projects as part of
an ongoing national audit of Minor Construction
                                                         Surgical Suite Renovation Project at VAMC
and Nonrecurring Maintenance.
                                                         Fresno, CA
Ambulatory Care Renovation Project at
                                                         We conducted an audit of the renovation project
VAMC Atlanta, GA
                                                         to determine whether it was necessary or
                                                         whether alternatives existed that would provide
We conducted the audit to determine whether
                                                         the required services in a more cost-effective
this ambulatory care renovation project was
                                                         manner. According to the project plans, the
necessary or whether there were alternatives that
                                                         existing surgical suite comprised of four
would satisfy the needs of the medical center in
                                                         operating rooms would be remodeled to provide
a more cost-effective manner. We concluded
                                                         state-of-the-art equipment and utilities and
that the project should be reevaluated.
                                                         adequate space for efficient traffic flow.
According to the project plans, a new 2-story
                                                         Our audit found the existing surgical suite was
addition would be built adjacent to the existing
                                                         in need of modernization and the existing layout
ambulatory care building to provide additional
                                                         did not provide appropriate patient flow from the
space for ambulatory care functions. The
                                                         surgery preparation area to the recovery area.
addition would add 12,500 net square feet and
                                                         However, the current surgical workload did not
cost $3.7 million.
                                                         support the need for four operating rooms.
                                                         VAMC management believed that surgical
Our audit found that the existing ambulatory
                                                         workload will increase in the future, and
care area was crowded and improvement was
                                                         estimated that the cost to remodel four operating
needed. However, medical center management
                                                         rooms instead of three would not be significant.
did not adequately assess the impact that three
                                                         We agreed, but recommended that the fourth
other construction projects, which more than
                                                         operating room not be equipped unless justified
double existing ambulatory care space, will have
                                                         by future workload and that future projects be
on space needs. Also, they did not adequately
                                                         thoroughly assessed. This would enable




                                                    33
Office of Audit

$126,000 in equipment funds to be redistributed
for better use. The Director, VISN 21 agreed
with our recommendation and provided
acceptable implementation plans. (Audit of
Surgical Suite Renovation Project at VAMC
Fresno, CA, 9R5-D02-007, 10/23/98)
                                                                    Award Presentation
                                                             [photo not available electronically]
“Your assistance in this important
 matter is appreciated.”

       Director, VA Sierra Pacific Network



OIG Contribution Award

During the last year, the OIG has been engaged         Veterans Benefits
in a joint effort with VHA to review the
Workers’ Compensation Program (WCP). This              Administration
effort included the development of a protocol
package and handbook for use in day to day             Delivery of Benefits and Services
WCP case management and detection for
program fraud. A review of the WCP area in
                                                       Issue: Benefit payments to incarcerated
VISN 22 was completed to test and refine the
                                                          veterans.
methodologies used in the protocol package.
                                                       Conclusion: VBA did not implement a
                                                          systematic approach to identify
Arlene B. Rubin, WCP Coordinator at VAMC
                                                          incarcerated veterans and
Long Beach was presented an Inspector
                                                          dependents.
General’s Contribution Award and a plaque for
                                                       Impact: Past and future overpayments
her outstanding contribution and assistance in
                                                          exceeding $170 million.
this joint effort to enhance case management,
reduce WCP costs, and detect fraudulent
                                                       We conducted an evaluation to determine if
workers’ compensation claims.
                                                       benefit payments to incarcerated veterans were
                                                       appropriately adjusted. The evaluation included
Pictured at the award ceremony are, from the
                                                       veterans incarcerated or released from State
left: James Farmer, OIG Project Manager;
                                                       prisons in California, Florida, Michigan, New
Sandra Miller, OIG Staff Auditor; award
                                                       York, Ohio, and Texas. The evaluation also
recipient Arlene B. Rubin, WCP Coordinator at
                                                       included review of VARO processing of
VAMC Long Beach; Juanita Martinez, Equal
                                                       prisoners’ data received from the Federal Bureau
Employee Opportunity Manager, VAMC Long
                                                       of Prisons.
Beach; Kathryn Goto, Associate Director,
VAMC Long Beach; Melvin Reid, OIG Staff
                                                       We found that VBA officials did not implement
Auditor; and Stephen Gaskell, Director, OIG
                                                       a systematic approach to identify incarcerated
Central Office Operations Division.
                                                       veterans and dependents, and adjust their
                                                       benefits as required by Public Law 96-385. A




                                                  34
                                                                                          Office of Audit

prior audit conducted in 1986 found that controls        appropriate progress is being made to adjust
were not in place to cutoff benefits to veterans         benefits and establish overpayments.
when they were incarcerated. In that audit we
recommended that a systematic approach be                VBA’s Deputy Under Secretary for
applied, but actions were not taken to implement         Management concurred with the findings and
the recommendations.                                     recommendations and provided acceptable
                                                         implementation plans. (Evaluation of Benefit
According to the Department of Justice, Bureau           Payments to Incarcerated Veterans,
of Justice Statistics, Federal and State prison          9R3-B01-031, 2/5/99)
populations more than doubled since 1986, from
522,100 to 1,085,400. In addition, about 4.6             Issue: Data integrity for veterans claims
million individuals have been admitted to and               processing timeliness.
about 4.1 million inmates have been released             Conclusion: VBA needs to improve data
from Federal and State prisons since 1986.                  input to ensure accurate
                                                            measurement of claims processing.
The current evaluation included review of 527            Impact: Enhanced customer service.
veterans randomly sampled from the population
of veterans incarcerated in 6 states. Results            We conducted an audit to assess the accuracy of
showed that VAROs had not adjusted benefits in           three VBA performance measures used for
over 72 percent of the cases requiring                   Government Performance and Results Act
adjustment, resulting in overpayments totaling           reports: average days to complete original
$1.8 million. Projecting the sample results              disability compensation claims, average days to
nationwide, we estimate that about 13,700                complete original disability pension claims, and
incarcerated veterans have been, or will be,             average days to complete reopened
overpaid about $100 million. Additional                  compensation claims.
overpayments totaling about $70 million will be
made over the next 4 years to newly incarcerated         Data used in the measurement of claims
veterans and dependents, if VBA does not                 processing timeliness were not accurate.
establish a systematic method to identify these          Comparisons of data from automated systems
prisoners.                                               with source documents for three random
                                                         samples of claims completed in FY 1997
We recommended that the Under Secretary for              disclosed that 30 percent of the records in each
Benefits enter into a matching agreement with            of the three samples were inaccurate or
the Social Security Administration to identify           misleading. As a result, reported average
incarcerated veterans and make benefit                   processing times were inaccurate and implied
adjustments. Until such an agreement is made,            better timeliness than actually occurred. We
VAROs should obtain this data from Federal               made recommendations to improve data input to
Bureau of Prisons, State, and local prison               the automated systems and to clarify policies.
officials. Also, overpayments should be
established and collected for current and past           VBA took immediate action to develop an end
incarcerations that were not adjusted.                   product transaction database for field facilities to
Compensation & Pension Service should                    enhance review and oversight of data input to
monitor the program and monthly progress                 automated systems. VBA also established a
reports should be provided to ensure that                Data Management Office to enhance the quality




                                                    35
Office of Audit

of all data collection, reporting, and analysis          student veterans who received VA benefits but
activities. Additionally, VBA began field visits         did not attend regularly scheduled classes at a
to enhance the quality of data collected and to          community college. Because VBA was
clarify VBA policies. (Audit of Accuracy of              restructuring compliance survey activities,
Data Used to Measure Claims Processing                   Education Service’s quality review results
Timeliness, 9R5-B01-005, 10/15/98)                       regarding compliance surveys were not included
                                                         in the scope of this review. However, we
Issue: Education Service’s quality                       believe that Education Service has effectively
   review system.                                        enhanced its compliance survey protocol in an
Conclusion: VBA oversees an effective                    effort to detect and prevent similar benefit fraud
   quality review system.                                schemes. The Deputy Under Secretary for
Impact: Assuring program integrity.                      Management concurred with the audit results.
                                                         We consider the issues resolved and may
The purpose of the review was to determine               reevaluate the compliance survey area after the
whether VBA’s Education Service quality                  restructuring has taken effect. (Review of
review system identifies program deficiencies            Education Service’s Quality Review System,
and their causes, recommends corrective action,          9R1-B18-012, 11/25/98)
and follows up to ensure corrective action was
taken. This is one of a series of reviews
assessing VBA quality review systems. During             “Your validation of our methodology
FY 1998, Education Service administered about             is important to us.”
$1 billion in education benefit payments to
435,000 veterans, servicepersons, and                            VBA’s Deputy Under Secretary for
dependents or survivors of veterans and                                             Management
processed about 1.12 million benefit award
actions.
                                                         Issue: Vocational Rehabilitation and
Based on a statistical sample of benefit award              Counseling (VR&C) Service’s quality
cases that had been quality reviewed by                     review system.
Education Service during FY 1997, we                     Conclusion: Implementation of the
concluded that Education Service had an                     system will improve program
effective quality review system. Deficiencies               accountability and integrity.
and their causes are identified and reported to          Impact: Assuring program integrity.
local and central office management and
followed up on to ensure they are corrected.             The purpose of our review was to determine
The quality review system is effective because it        whether VR&C Service had an effective quality
evaluates the accuracy of benefit awards and             review system. During FY 1998, the Service
validates important performance measurement              reported expenditures of about $403 million to
indicators, including reported performance on            rehabilitate an estimated 53,000 veterans. We
case processing timeliness and productivity.             found that in 1995 the Service had discontinued
                                                         quality reviews. Because VR&C Service did not
We also found that Education Service had                 have a quality review system, our review
enhanced its oversight of compliance surveys,            focused on determining whether sufficient
and provided guidance and training to local staff        management controls were in place to ensure
to help them detect and prevent benefit fraud.           that program services were delivered in a timely
Civil settlements are being obtained from some           and cost-effective manner, and program




                                                    36
                                                                                          Office of Audit

payments were appropriate and accurate. Our               Loan Guaranty
review of a statistical sample of current
vocational rehabilitation cases from one VARO             Issue: Defaulted VA home loans.
identified both local and systemic management             Conclusion: Prepurchase counseling
control weaknesses in the following areas: (i)               would benefit active duty service
accuracy and integrity of cost accounting                    members who are homebuyers.
records and program performance data, (ii)                Impact: Reduce VA home loan defaults.
appropriateness of procurement decisions, and
(iii) program management decisions.                       We reviewed the effect of the implementation of
                                                          VA’s Housing Credit Assistance program
We concluded that the $400 million vocational             policies on loan defaults. Also, we assessed the
rehabilitation program was at high risk because           reliability, accuracy, and completeness of
few management controls were in place to                  information in two of VA’s loan guaranty data
ensure program integrity and accountability.              systems, used for: (i) loan originations, and (ii)
Lack of control and oversight heightened the              operational control, and the servicing and
risk of fraud; we referred a number of matters            reporting of defaults, claims, and liquidation of
for criminal investigation. The Director, VR&C            loans.
Service agreed with our findings and
conclusions, and also agreed they related to              Loans made to active duty service members
systemic issues. During our review, the Director          defaulted more often than loans made to
began a number of initiatives to address these            veterans and also tended to default earlier in the
matters, including the establishment of a quality         loan period. Service members may be more
review system. We made several                            prone to default on loans due to several factors,
recommendations to improve management                     including: inexperience at handling debt,
controls over the vocational rehabilitation               difficulty in coping with mortgages when
program and to strengthen VR&C program                    transferred to other duty stations, or after being
accountability, integrity, and cost-effectiveness.        discharged. Most of the data fields (84 percent)
The Under Secretary for Benefits concurred with           we reviewed contained accurate data. As VA
the findings and provided acceptable                      progresses toward allowing lenders to enter loan
implementation plans for the recommendations.             data directly into its computer systems, the
(Review of Vocational Rehabilitation and                  process will become more efficient.
Counseling Service’s Quality Review System,
9R1-B18-044, 2/24/99)                                     We recommended prepurchase counseling for
                                                          service members who were in their first
 “We would like to acknowledge the                        enlistment or were first-time homebuyers. The
complex task you and your staff                           Deputy Under Secretary for Management agreed
undertook to help VR&C program                            and proposed establishing a prepurchase
improve the delivery of services to                       counseling requirement for all first-time
veterans.”                                                homebuyers. This requirement may require a
       VBA’s Deputy Under Secretary for                   regulatory change. In addition, we
                             Management                   recommended that coding options for “reasons
                                                          for liquidation” be broadened to allow staff to
                                                          more appropriately categorize the reason. The
                                                          Deputy Under Secretary agreed to revisit codes
                                                          for reasons for default and liquidation, and to
                                                          consider OIG’s remarks in developing the new




                                                     37
Office of Audit

Loan Servicing and Claims System. (Attributes            our prior recommendations and have additional
of Defaulted VA Home Loans, 9R5-B10-047,                 recommendations addressing these weaknesses
3/25/99)                                                 and the reportable conditions.

                                                         Our report on compliance with laws and
                                                         regulations discusses the Department’s
                                                         noncompliance with Federal Financial
Office of Financial                                      Management Improvement Act requirements
Management                                               concerning HCA program financial management
                                                         information systems, information system
                                                         security, and cost accounting standards, and
VA’s Financial Statements                                provisions of the Credit Reform Act as it relates
                                                         to guarantees on HCA loans sold. Except for
Issue: VA’s Consolidated Financial                       these noncompliances, the report concludes that
   Statements (CFS) for FYs 1998.                        for the items tested, VA complied with those
Conclusion: Some assets may not be                       laws and regulations materially affecting the
   adequately protected and resources                    financial statements. We also identified
   may not be properly controlled.                       noncompliance with two laws that, while not
Impact: Improved stewardship of VA                       material to the financial statements, warrant
   assets and resources.                                 disclosure. One concerns requirements for
                                                         charging interest and administrative costs on
Our audit report contains the OIG audit opinion,         compensation and pension accounts receivable.
and assessment of VA's internal control structure        The other concerns the requirement that agents
and compliance with laws and regulations. We             of the Government receiving money for the
qualified our audit opinion concerning Housing           Government shall deposit the funds with the
Credit Assistance (HCA) program related                  Treasury as soon as practical.
balances for intragovernmental accounts
receivable, loans receivable and related                 The Assistant Secretary for Financial
foreclosed property, liabilities for loan                Management stated appropriate offices have
guarantees, and resources payable to the                 reviewed the report and concur with the reported
Treasury contained in VA’s CFS. We were                  findings and recommendations. (Audit of VA’s
unable to satisfy ourselves as to whether the            Consolidated Financial Statements for FY 1998
recorded balances were reasonable.                       9AF-G10-061, 3/10/99)
Our report on internal control discusses two             Issue: Financial management.
material weaknesses concerning VA-wide                   Conclusion: Five management letters
information system security controls and HCA                were issued to assist the Department
program accounting, and a reportable condition              in improving financial management.
regarding medical facility accounts receivable.          Impact: Improved financial reporting
These internal control weaknesses expose VA to              and control.
significant risks and vulnerabilities. The
Department reported the information systems              As part of the CFS audit, we issued five
security controls and the HCA program                    management letters addressing financial
accounting issues as material weaknesses in              reporting and control issues. The management
their Federal Managers’ Financial Integrity Act          letters provided Department managers additional
report for FY 1998. In this report we reaffirm           observations and advice that, while not material




                                                    38
                                                                                          Office of Audit

in relation to the CFS, will enable the                   Postaward Contract Reviews
Department to improve day-to-day accounting
operations and controls. The management                   Issue: Contractor overcharges for
letters contained observations concerning: (i)               pharmaceuticals.
medical facility accounts receivable; (ii) payroll        Conclusion: Postaward audits and
transactions; (iii) accuracy of property, plant,             surveys disclosed overcharges.
and equipment reporting and controls; and (iv)            Impact: Recovery of $8.6 million.
ADP security.
                                                          • A pharmaceutical manufacturer remitted $8
No conditions were noted that had a material              million to VA for contract overcharges resulting
effect on the FY 1998 CFS, but correction of the          from not disclosing accurate, complete, and
conditions is considered necessary for effective          current pricing and discount information to the
operations. Where needed, appropriate                     contracting officer during negotiations on four
adjustments were made to financial statements.            contracts. The contractor’s failure to disclose
(i. Management Letter: Accuracy of FY 1998                their most favored customer discounts denied
Medical Facility Accounts Receivable Financial            the Government the opportunity to negotiate
Information, 9AF-G10-067, 3/31/99;                        more favorable discounts.
ii. Management Letter: Accuracy of VA’s
Payroll Data for FY 1998, 9AF-G10-065,                    • We completed 10 Public Law 102-585
3/29/99;                                                  compliance reviews. For 3 of the 10 companies
iii. Management Letter: Accuracy of FY 1998               we discovered errors in the calculation of
Property, Plant, and Equipment Financial                  Federal Ceiling Prices that resulted in contract
Information, 9AF-G10-066, 3/26/99;                        overcharges. The companies agreed to pay
iv. Management Letter: ADP Security at Carl T.            $470,740 to VA. We also made
Hayden Medical Center, 9AF-G10-068, 3/17/99;              recommendations to all of the companies
and                                                       reviewed suggesting ways they could improve
v. Management Letter: ADP Security at                     their policies and procedures so that the
Southwest Healthcare Network, 9AF-G10-018,                Government and the company could be assured
12/9/98)                                                  that their systems were producing accurate
                                                          Federal Ceiling Prices.

                                                          Issue: Contractor overcharges for
                                                             medical equipment and supplies.
                                                          Conclusion: Postaward audits disclosed
                                                             contract overcharges.
                                                          Impact: Recovery of $86 thousand.

                                                          • A medical equipment and supply company
                                                          remitted $71,536 to VA for contract overcharges
                                                          resulting from not disclosing accurate, complete,
                                                          and current pricing and discount information to
                                                          the contracting officer during negotiations.

                                                          • A medical supply company remitted
                                                          $14,337 to VA for contract overcharges




                                                     39
Office of Audit

resulting from not disclosing accurate, complete,
and current pricing and discount information to
                                                         Multiple Office Action
the contracting officer during negotiations
                                                         Issue: Government purchase card
Preaward Contract Reviews                                   program.
                                                         Conclusion: Management controls were
Issue: Federal Supply Schedule vendors                      not effectively implemented and cost-
   did not always offer best prices.                        efficiencies were not achieved.
Conclusion: Contractors can offer better                 Impact: Better use of $22 million.
   prices to VA.
Impact: Potential better use of funds of                 The purpose of the audit was to evaluate the
   $23.9 million.                                        effectiveness and efficiency of the purchase card
                                                         program. VA-wide use of the program grew
• A preaward review of a x-ray film and                  from 170 cards issued with 2,400 transactions
equipment company’s offer resulted in potential          valued at $567,000 in FY 1994, to over 34,100
contract savings of $20,640,256.                         cards issued with 1.1 million transactions valued
                                                         at $592 million, as of April 1998. Purchase card
• A preaward review of a pharmaceutical                  expenditures for FY 1998 were expected to
company’s offer resulted in potential savings of         exceed $1 billion.
$2,409,502.
                                                         We found the program is sound in principle and
• A preaward review of a wheelchair                      has clearly created opportunities for cost-savings
manufacturer’s offer resulted in potential               and other benefits. VA has provided facility
savings of $680,400.                                     managers with procedures to monitor and
                                                         control purchase card use. However, VA
• Two preaward reviews of medical                        facilities did not effectively implement these
equipment and supply companies’ offers                   management controls to ensure the integrity of
resulted in potential savings of $170,000.               the program.

                                                         Reconciliations of billing statements were either
                                                         not performed, or were not performed timely;
                                                         and, approving officials were not certifying the
                                                         reconciliations timely. In addition, VA did not
                                                         have a system in place to monitor facility
                                                         reconciliations of billing statements. In October
                                                         1997, VA had about 38,000 unreconciled
                                                         transactions valued at $21.9 million, including
                                                         over 33,200 valued at $19.2 million that were
                                                         not reconciled timely. About 11,600 of these
                                                         transactions, valued at $6.7 million, were over
                                                         60 days old. As a result, we believe that
                                                         reconciliation of card transactions should be
                                                         considered for reporting as an internal weakness
                                                         because basic controls against erroneous and
                                                         unauthorized transactions were not
                                                         implemented.




                                                    40
                                                                                           Office of Audit

We also found that VA did not achieve the cost-           Issue: Management of medical supply
efficiencies expected from reengineering the                 inventories.
acquisition and payment processes made                    Conclusion: VAMCs could reduce
possible by implementation of the program.                   excess inventories by more
Achieving the efficiencies could result in                   effectively using automation and
additional staff reductions totaling over $22                other modern inventory techniques.
million.                                                  Impact: Better use of $75.6 million.

We recommended that the Assistant Secretary               We evaluated how effectively VAMCs managed
for Financial Management strengthen controls              their inventories of medical supplies. In FY
by (i) considering the reconciliation process as a        1998, VAMC medical supply purchases totaled
material weakness, (ii) establishing appropriate          $467.8 million. At any given time, the value of
mechanisms to monitor unreconciled                        medical supply inventories at VAMCs was
transactions on a VA-wide basis, (iii)                    about $103.8 million.
establishing mechanisms to ensure that
deficiencies identified are effectively                   VHA and A&MM have encouraged VAMCs to
communicated to program officials, and (iv)               modernize and improve inventory management.
monitoring corrective actions to ensure desired           However, VAMCs still maintain large medical
results are achieved. We also recommended the             supply inventories that far exceed requirements
Under Secretary for Health realign staff                  for current operating needs.
commensurate with savings anticipated from
implementing the program. (Audit of VA’s                  Our audit at 5 VAMCs with combined medical
Purchase Card Program, 9R3-E99-037,                       supply inventories valued at $7 million found
2/12/99)                                                  that about $4.3 million was excess. Based on
                                                          the audit results, we estimated that at any given
                                                          time the value of VHA-wide excess inventory
“We appreciate the thoroughness and                       was $64.1 million, which was 62 percent of the
cooperation of your auditors, who have                    $103.8 million total inventory. Of the $64.1
assisted us in prioritizing areas for                     million in excess inventory, at least $10.8
improvement relating to the purchase                      million was inventory for which there was no
card program.”                                            demand.
                 Under Secretary for Health               The excess inventories occurred because VAMC
                                                          inventory managers did not adequately monitor
                                                          stock levels, made unnecessary large quantity
                                                          purchases, and did not effectively manage
                                                          reductions in item demand. These deficiencies
                                                          could have been avoided or mitigated if the
                                                          VAMCs had more effectively used automated
                                                          inventory controls.

                                                          We estimated that stronger inventory
                                                          management could reduce VHA medical supply
                                                          inventories by $75.6 million, which is the
                                                          midpoint between two inventory reduction
                                                          goals, a minimum goal of 30 days supply




                                                     41
Office of Audit

($64.1 million) and a more aggressive goal of 7          Implementation of GPRA in VA
days supply ($87.2 million).
                                                         Congress attaches great importance to effective
We recommended that VHA: (i) issue guidance              implementation of the Government Performance
requiring VAMCs to establish goals for                   and Results Act (GPRA). The OIG has a
inventory reductions and to use automation and           significant role to play in informing both VA
other modern techniques for managing their               and Congress on issues concerning efforts to
inventories, (ii) establish procedures to monitor        implement GPRA.
progress in reducing inventories, and (iii)
provide VAMC staff training aimed at                     As background for our efforts in this area, it is
improving inventory management. We also                  relevant that VA was an Office of Management
recommended that A&MM provide VHA                        and Budget designated pilot agency for
technical support and assistance in preparing the        performance measurement. As such, VA began
recommended guidance on inventory                        establishing performance measures for its
management and in providing the recommended              programs and operations in FY 1992.
training. The Under Secretary for Health and
the Assistant Secretary for Financial                    In FY 1995, the Office of Audit conducted three
Management concurred with the                            reviews to assess VA progress in implementing
recommendation, and provided acceptable                  the strategic planning and performance
implementation plans. (Audit of VAMC                     measurement requirements of GPRA.
Management of Medical Supply Inventories,
9R8-E04-052, 3/9/99)                                     Overall, the results of these reviews showed that,
                                                         while VA departments had made progress
                                                         implementing strategic plans, the agency was a
                                                         long way from achieving the ultimate goal of
                                                         using performance measurement as a tool for
                                                         improving the efficiency, effectiveness, and
                                                         economy of VA operations. For example,
                                                         Departmental strategic plans either did not
                                                         include program or performance measures or
                                                         incorporated measures which were not
                                                         sufficiently specific and quantifiable to measure
                                                         whether goals and objectives were achieved.

                                                         The Office of Audit recommended establishing:

                                                         • More specific and quantifiable performance
                                                         measurements to assess whether goals and
                                                         objectives were achieved.
                                                         • Management responsibility and
                                                         accountability for the development and
                                                         implementation of the strategic plan.

                                                         In FY 1998, at the request of the Assistant
                                                         Secretary of Policy and Planning, we initiated a




                                                    42
                                                                                        Office of Audit

multi-stage audit to examine the integrity of the        NCA Performance Measure:
data used for GPRA reports. There will be a
series of audits to evaluate VA’s most critical          •   Percent of the veteran population served by
GPRA performance measures for validity,                      the existence of a burial option within a
reliability, and integrity of the data.                      reasonable distance of the place of
                                                             residence.
The first audits assessed the accuracy of the
following three VBA Performance Measures:                We will issue reports on each performance
                                                         measure as audits are completed. Those reports
•   Average days to complete original disability         done to date are:
    compensation claims.
•   Average days to complete original disability         Review of Implementation of VHA’s Strategic
    pension claims.                                      Plan and Performance Measurements,
•   Average days to complete reopened                    5R1-A19-026, 2/6/95.
    compensation claims.
                                                         Review of Implementation of National Cemetery
We found that VBA needs to improve the                   System’s Strategic Plan and Performance
accuracy of data input to ensure accurate                Measurements, 5R1-B18-082, 7/6/95.
measurement of claims processing timeliness.
For example, more than 30 percent of the                 Review of Implementation of VBA’s Strategic
records in each of the three samples contained           Plan and Performance Measurements,
inaccurate or misleading data, which resulted in         5R1-B18-100, 8/25/95.
inaccurate measurement of average processing
times. Data from the automated systems used in           Accuracy of Data Used to Measure Claims
developing GPRA reports indicated average                Processing Timeliness, 9R5-B01-005, 10/15/98.
processing times for all three samples were
shorter than the actual processing times.                Audit of Data Integrity for Veterans Claims
                                                         Processing Performance Measures Used for
Current Status                                           Reports Required by the GPRA, 8R5-B01-147,
                                                         9/22/98.
As part of our ongoing assessment to validate
the accuracy and reliability of VA’s
performance measures in accordance with
GPRA, the OIG is auditing five VHA
performance measures and one NCA
performance measure. These measures are:

VHA Performance Measures:

•   Number of unique patients.
•   Prevention index.
•   Bed days of care per 1,000 unique patients.
•   Chronic disease index.
•   Addiction severity index.




                                                    43
Office of Audit




                  44
OFFICE OF HEALTHCARE INSPECTIONS
Mission Statement                                      improvement policy, and an evaluation of
                                                       VHA’s oversight of state veterans homes. OHI
   Promote the principles of continuous                also strengthened its VHA quality of care
   quality improvement to provide effective            oversight by developing a more deliberative and
   inspections, oversight, and consultation to         stringent process for selecting and assigning
   enhance and strengthen the quality of VA’s          Hotline allegations, which will ultimately
   health care programs for the well being of          improve our ability to complete and report on
   veteran patients.                                   these reviews more promptly. We established
                                                       closer working relationships with VISN clinical
                                                       managers in our ongoing effort to strengthen the
Resources                                              quality program assistance (QPA) review
                                                       process. This relationship helped us to use the
The Office of Healthcare Inspections (OHI) has
                                                       QPA effectively in the context of inspecting
13 FTE allocated, all of whom work in OIG
                                                       several sensitive Hotline allegations at VAMCs.
headquarters. They are deployed 100 percent in
healthcare inspections and evaluation issues.
We plan to hire 18 additional employees in the
second half of FY 1999; these employees will be
deployed in three regional offices.                    Veterans Health
Overall Performance
                                                       Administration

Output
                                                       Nationwide Healthcare Program
• We published 20 final reports during the             Reviews
reporting period.
                                                       Issue: VHA’s responsibility to oversee
Outcome                                                   and evaluate care provided to
• We made 82 recommendations, focused on                  veterans in State Veterans Homes
improving both clinical care delivery and                 (SVH).
management efficiency.                                 Conclusion: SVH inspections frequently
                                                          do not adhere to VHA guidelines
Customer Satisfaction                                     because employees do not
• Program managers’ satisfaction and                      understand their responsibilities.
acceptance level of our work was an average of         Impact: Enhanced ability to ensure
4.4 on a 5.0 scale for the year.                          patient safety and health care in SVH.

OHI inspectors have continued to emphasize the         The VA reimburses SVHs a per diem allowance
need for VHA to strengthen its quality                 for each eligible veteran who occupies a SVH
management infrastructure by developing and            bed. VA policy requires that parent VAMC
pursuing a variety of quality management (QM)          employees inspect SVHs annually in order to
related projects and reports. These projects           ensure optimal quality of care and to verify the
included reviews of VHA’s deployment of QM             names of veterans who are receiving care. If
structure and resources, an analysis of VHA            VAMC inspectors identify problems with care,
employees’ implementation of the patient safety        they should recommend improvements and




                                                  45
Office of Healthcare Inspections

follow up to ensure that SVH managers have                 report analyzes VHA’s QM programs at the
effected the improvements.                                 headquarters, VISN, and VAMC levels. We
                                                           also compared VHA’s QM staffing and
We found several instances in which VAMC                   organization structure with two large private
employees had identified operational                       sector health care organizations. This program
discrepancies, but had either not made corrective          evaluation followed up on our February 1998
recommendations, or had failed to follow-up to             review of VHA’s QM Programs. Both program
ensure that SVH managers had corrected the                 evaluations were done at the request of the
problems.                                                  Senate Committee on Veterans’ Affairs.

In one case, we found that veterans who were               We were concerned that QM manpower,
occupying an older wood frame residence were               technological capability, resource availability,
smoking without anyone paying attention to the             and organization structure are not adequate to
safety issues. The building had a history of               meet QM’s ever changing needs and clinician
smoking-related fires, and VAMC inspectors                 demands. We continue to be concerned that the
were aware of the problem. However, SVH                    QM program is not adequately staffed to
managers asserted that smoking was a human                 perform its mission of evaluating and improving
rights issue, and that the State refused to support        patient care. Most particularly this concern
a nonsmoking initiative. Inspectors stopped                applies to QM’s staffing and leadership within
reporting on the issue, and no one followed up             the VHA Office of Performance and Quality.
with the SVH or State officials in order to
discontinue the hazardous smoking practices.               VISN-level staffing appears to be improving, but
                                                           recently authorized QM officer positions are not
The Under Secretary for Health agreed with our             yet fully staffed. These positions are vital to
conclusions and recommendations and provided               ensuring consistent leadership and oversight of
appropriate implementation plans. (Evaluation              local VAMC QM program activities.
of VHA’s State Veterans Home Inspection
Process, 9HI-A06-014, 1/25/99)                             Local medical center QM programs do not have
                                                           consistent staffing, operating philosophies, or
                                                           practices. There is significant staffing disparity
Issue: VHA staffing, structure, and                        among VAMCs; this needs to be stabilized.
   resources allotted to the QM process.                   Some medical centers provide thorough QM
Conclusion: QM program is an effective                     evaluations and oversight of a wide variety of
   program, but improvements are                           health care practices, and engage in total quality
   needed.                                                 improvement, while other programs provide
Impact: Managers can be more                               narrowly defined and limited oversight
   knowledgeable and effect patient                        evaluations of only those patient care practices
   care improvements with a fully                          that are defined and required by VHA policies.
   integrated and consistent operating
   program.                                                Similarly, medical center QM offices have
                                                           different titles among the 172 VAMCs. These
VHA has operated a health care QM program                  variations in office and employee titles,
for more than 30 years. The program is in a                available resources, and broadly differing work
continuous state of change, in keeping with                initiatives can potentially lead to QM
developments in health care evaluation and                 employees’ loss of identification or association
electronic data processing technology. This




                                                      46
                                                                    Office of Healthcare Inspections

with the purpose for which their organizations            was disseminated throughout the VHA health
were established.                                         care system.

We reiterated from our February 1998 report               OHI inspectors reviewed the Boards of
that VHA needs to establish national QM                   Investigations and supporting testimony and
guidelines that would incorporate such important          documents in the two sentinel events and
practices as patient safety, sentinel event               reviewed investigative documents in a
reporting, and lessons learned communication.             subsequent case that involved similar
We found that many VISNs already have a                   circumstances. We also interviewed more than
similar set of guidelines, and these could be             210 VHA employees in 10 randomly selected
disseminated throughout VHA as an example of              VAMCs. These employees ranged in
“best practices.” The Under Secretary for                 responsibility from executive managers to
Health concurred, or concurred in principle, with         individuals at the “sharp end” who directly care
our recommendations and provided responsive               for patients, and who most critically have to be
implementation plans. (Evaluation of Quality              aware of information on how to safeguard
Management Staffing and Resources in VHA,                 patients from harm.
9HI-A28-042, 2/18/99)
                                                          We found that VHA employees are aware of
                                                          their responsibilities to report serious events.
Issue: Need for prompt reporting and                      However, employee memories of a former
   distribution of information pertaining                 environment, in which punitive actions were
   to serious patient incidents.                          closely associated with incurring or reporting an
Conclusion: VHA employees are                             error, continue to impede full reporting.
   knowledgeable of their
   responsibilities for reporting                         VAMC managers and clinicians who conduct
   incidents, even though they                            Boards of Investigations are frequently not
   frequently do not do so. Managers                      properly trained to conduct sensitive and
   are generally effective in                             complex investigations and tend to miss or
   communicating information to                           disregard important information or leads that
   prevent future patient harm.                           could provide better answers as to why an
Impact: The ability to ultimately prevent                 incident occurred. Similarly, VAMC employees
   patients from incurring harm as a                      are often reluctant to investigate their peers,
   result of similar serious incidents.                   particularly when the event in question is
                                                          particularly sensitive or resulted in serious
The Chairman, House Committee on Veterans’                patient consequences.
Affairs, Subcommittee on Health, asked the OHI
to determine how effectively VHA employees                We concluded that VHA is in the process of
implemented selected aspects of VHA’s January             developing an effective method for
1998 Patient Safety Improvement policy. The               communicating potentially preventive
Chair made this request in view of two similar            information pertaining to serious incidents, and
serious incidents that resulted in serious                that for the most part, this procedure is followed
consequences for patients who were confined in            effectively at the VISN and VAMC levels.
soft restraints. He was particularly interested in
the patient safety alert system, and how                  We found, however, that mid-level managers, in
effectively potentially preventive information            4 of the 10 VAMCs that we visited elected not
                                                          to communicate this information to lower level




                                                     47
Office of Healthcare Inspections

employees. They refrained on the basis that they          managers were working collaboratively, with
did not use the same equipment as that used               varying degrees of success, to initiate
where the serious incidents occurred. These               programmatic changes that were designed to
decisions were flawed. This is demonstrated by            improve veterans’ access to high quality health
the fact that managers in the second facility             care. Managers were also developing and
where a serious soft-restraint incident occurred          implementing strategies that reduced operating
had decided not to give this information to lower         costs and allowed them to reprogram funds so
level employees because the soft restraints they          that more money would be available for direct
used were not the same brand or model as that             patient care. In all three cases, executive and
implicated in the first incident.                         mid-level managers held positive attitudes about
                                                          the changes that were underway. Similarly, with
The Under Secretary for Health concurred, or              one exception, clinicians were generally very
concurred in principle, with our                          supportive of the organizational and operational
recommendations and provided responsive                   changes that had occurred and believed that
implementation plans. (Oversight Evaluation of            these changes had improved the quality and
VHA’s Implementation of Its Patient Safety                accessibility of patient care.
Improvement Policy in Two Sentinel Events,
9HI-A28-051, 3/2/99)                                      VAMC Togus was experiencing what clinicians
                                                          and patients perceived to be draconian
                                                          reductions in operating resources which they
QPA Reviews                                               believed threatened the medical center’s ability
                                                          to ensure access to quality care and possibly
Issue: VAMCs’ ability to provide optimal                  threatened the ability of clinicians to provide
   access to high quality, low cost, and                  sound health care.
   timely health care.
Conclusion: Managers are working                          Patients had generally positive impressions
   collaboratively to reorganize the                      about recent improvements in care, accessibility,
   health care process, but the scope                     and employee attitudes that occurred in
   and pace of changes often negatively                   association with the changes.
   affects employee morale.
Impact: Managers are developing                           Notwithstanding the generally positive
   initiatives to provide good,                           impressions that we reported in our previous
   accessible care at an affordable cost.                 semiannual report, employees who responded
                                                          anonymously to our QPA questionnaires raised
During this reporting period, OHI completed               concerns that the rapid pace and broad scope of
three QPA reviews. Two of these QPA reviews               the many organizational and operational changes
were done in the context of inspecting and                that have occurred have increased personal
resolving a variety of allegations about clinical         tensions and reduced employee morale.
and administrative issues. This concurrent                Employees appear to attribute their concerns to
review process not only allowed OHI inspectors            uncertainties about job security and perceived
to review the events surrounding the allegations          increased workloads or insufficient staffing
critically; it also provided a context in which to        situations in their particular work areas.
view the perceptions that led to the allegations.         Executive managers at all three VAMCs have
                                                          established intensive communication initiatives
In all three QPA reviews, OHI inspectors                  to keep employees and other stakeholders fully
concluded that medical center executive                   informed about ongoing and contemplated




                                                     48
                                                                     Office of Healthcare Inspections

organizational and operational changes.                   with inadequately monitoring all anticoagulant
However, employees continue to hold negative              patients at one time, but local managers had
impressions about the change process.                     identified this problem in its earliest stages and
                                                          developed strong anticoagulant therapy criteria
OHI continues to be concerned that the issues of          and monitoring procedures. These measures
degraded employee morale, and increased                   ensure that all patients who are receiving
tensions in the workplace, have the potential to          anticoagulant drugs are consistently and
lead to diminished quality of care, lowered               intensively monitored in order to avoid any
patient satisfaction, or the occurrence of adverse        problems with excessive clotting times or the
patient incidents. Thus, we believe that VHA              development of uncontrolled bleeding.
managers need to seriously consider ways to               (Inspection of Alleged Mismanagement of Fee-
alleviate these employee problems. (Reports:              Basis Program and Patient Mistreatment,
QPA Reviews, VAMCs San Juan, PR; Togus,                   VAMC San Juan, PR, 9HI-A28-006, 10/23/98)
ME; and Northport, NY; 9HI-F03-011, 11/9/98;
9HI-A28-039, 2/17/99; and 9HI-A28-062,
3/17/99)                                                  Issue: Lack of fully informed consent
                                                             associated with inadequate
                                                             information about potential operative
Healthcare Hotline Inspections                               complications at VAMC Tampa, FL.
                                                          Conclusion: Clinicians informed the
Issue: Verbal patient abuse, failure to                      patient about potential complications
   monitor anticoagulant patients,                           of surgery and the patient signed the
   unethical employee conduct, and                           operation consent form.
   mismanagement of a fee-basis                           Impact: Better understanding of
   program at VAMC San Juan, PR.                             patients’ emotional reaction to
Conclusion: Employees were                                   potentially devastating surgical
   respectfully and properly caring for                      complications.
   patients, and had appropriately
   managed fee-basis operations.                          We inspected allegations that VAMC Tampa
Impact: Procedures serve to safeguard                     urologists failed to inform a patient properly and
   patient well being and improve care.                   completely that a proposed prostate operation
                                                          could result in permanent impotence and other
We inspected allegations that VAMC San Juan               unpleasant complications. The complainant
clinicians and clinical managers frequently               asserted that he would never have consented to
verbally abused patients; that nursing employees          having the operation had he known about the
did not adequately monitor clotting levels of             potential for these problems to occur. However,
patients who were receiving anticoagulant                 the patient’s medical records contained adequate
therapy; that some employees improperly                   documentation to show that the urologist had
divulged sensitive medical information about              extensively discussed the procedure with the
patients to unauthorized sources; and that                complainant and that the complainant appeared
employees did not adequately monitor the fee-             to understand the potential risks. The
basis program, such that many patients received           complainant evidently did not recall this
more fee-basis treatment than they required.              conversation.

Our inspection failed to confirm the allegations.         Even though we did not substantiate the
We found that there may have been a problem               allegation, we recognize the complainant’s




                                                     49
Office of Healthcare Inspections

concerns, and recommended that the Director               However, managers failed to follow up
ensure that clinicians offer him a second opinion         adequately on recommended corrective actions
as to how he can best deal with his surgically            intended to strengthen patient search procedures
incurred complication. The Medical Center                 in the case of a patient who wandered from his
Director concurred with our recommendation                treatment area and was subsequently found in a
and took immediate action to provide the                  construction area. Approximately 1 year after
complainant with a second opinion. (Inspection            the first inadequate patient search incident
of Alleged Inadequate Informed Consent for                occurred, another patient wandered from his
Surgery, James A. Haley Veterans’ Hospital,               ward and was later found dead, from a fall in a
Tampa, FL, 9HI-A28-017, 12/8/98)                          stairway, adjacent to another construction site.
                                                          The County Medical Examiner concluded that
                                                          the patient had suffered a heart attack and was
Issue: Five unrelated adverse patient                     dead before he fell down a flight of steps, but
   care events that managers at VAMC                      medical center managers acknowledged that it
   Miami had already investigated                         took too long for searchers to locate the patient.
   thoroughly.
Conclusion: Managers had not                              We found that managers had not established
   consistently followed up on                            formal tracking procedures to ensure that
   corrective actions to ensure                           recommended actions take place, and the
   implementation.                                        medical center had not strengthened the patient
Impact: Unimplemented corrective                          search policy and procedure as had been
   actions can lead to repetition of                      recommended in an earlier investigation. We
   serious adverse patient events.                        recommended that the Director establish a
                                                          reliable procedure for tracking issues that are
We inspected allegations that VAMC Miami                  based on corrective recommendations to ensure
managers had ignored or covered up five serious           their prompt completion. The Medical Center
adverse patient events and did not take any               Director concurred with our recommendation
corrective actions to improve patient safety as a         and took immediate action to establish an
result of these incidents. We reviewed the                implementation tracking system through the QM
medical center’s Boards of Investigations, root-          office. (Inspection of Five Adverse Patient Care
cause analyses, and other documents associated            Events at VAMC Miami, FL, 9HI-A28-019,
with these five incidents. We also interviewed            12/16/98)
the principals who were involved with each
incident and quality managers who are
responsible for coordinating and tracking the             Issue: Alleged disrespectful and
investigative process.                                       inattentive treatment in retaliation for
                                                             a patient’s inability to follow
We concluded that managers had adequately                    instructions at VAMC Tampa, FL.
dealt with all of the incidents, from an                  Conclusion: Allegations could not be
investigative standpoint, and that there is no               confirmed. The complainant refused
indication that anyone attempted to obscure the              to elaborate on the specifics of the
facts in any of the cases. Medical center                    case.
managers had initiated corrective actions to              Impact: Increased sensitivity to
prevent, or reduce the potential for, any of these           debilitated patients’ problems leads
incidents to reoccur.                                        to better patient care.




                                                     50
                                                                     Office of Healthcare Inspections

We inspected allegations that Nursing Home                 Issue: A patient eloped from an
Care Unit (NHCU) nursing employees at                         unsecured ward at VAMC Tuskegee
VAMC Tampa punished a patient for his                         and disappeared.
inability to follow nursing instructions by: (i)           Conclusion: Nursing employees did not
making him lie in his own waste for 2 hours,                  properly monitor an incapacitated
causing him to develop bed sores, and (ii)                    patient who was known to wander.
causing him to fall out of his wheelchair by not           Impact: Strengthened patient
adequately securing him in the chair. Clinical                surveillance and evaluation practices
employees also allegedly treated the patient                  will improve patient safety.
disrespectfully, and in an insensitive and
condescending manner, not recognizing or                   The House Committee on Veterans’ Affairs
appreciating the loss of dignity and self-respect          asked OHI to inspect the circumstances
that he incurred as a result of a recent                   surrounding a patient’s disappearance from the
cerebrovascular accident (stroke).                         VAMC Tuskegee campus. We found that
                                                           clinical employees’ had become inured to the
We found that NHCU clinical managers had                   patient’s tendency to wander away from the
completed an incident report as required, but did          ward without notifying employees that he was
not fully investigate the alleged incidents                leaving. He had always returned in the past.
because the complainant refused to provide
necessary basic information in order to allow              Nursing employees also asserted that the ward
investigators to focus on a time, place, or alleged        was so understaffed that no one had the time to
perpetrator. Even so, the NHCU clinical                    escort patients to extra-ward activities. Thus
manager provided all employees with sensitivity            they allowed the patient to go to a recreation
training, and increased the number of licensed             activity unaccompanied. When employees
nursing employees in the unit.                             realized that the patient was not going to return
                                                           to the ward, they properly initiated a missing
The patient’s medical records do not show any              patient alert, and medical center managers
indication that he ever had a bed sore, but he did         initiated a prompt and comprehensive search for
have a rash on his inner thighs, associated with           the patient that included searchers from the local
urinary incontinence, that nursing employees               community as well as medical center employees.
properly treated with antibacterial ointment. We           However, searchers failed to locate the patient.
also found that the patient fell from his
wheelchair when he attempted to self-transfer              We made six recommendations to address the
from his chair to the toilet without seeking               issues that we identified during our inspection.
assistance from nursing employees. Since we                The Acting Medical Center Director concurred
did not find any untoward practices, we did not            with our recommendations and provided
make any recommendations. (Inspection of                   responsive implementation plans. (Inspection of
Alleged Nursing Non-Attendance, Lack of                    Search Procedures for an Allegedly Missing
Compassion, and Verbal Abuse, James A. Haley               Patient, VA’s Central Alabama Health Care
Veterans Hospital, Tampa, FL, 9HI-A28-023,                 System, Tuskegee, AL, 9HI-A28-025, 1/11/99)
1/7/99)




                                                      51
Office of Healthcare Inspections

Issue: Alleged inadequate patient care                     In the second case, surgeons inserted an intra-
   at VAMC Tampa, FL.                                      aortic balloon pump into a patient’s aorta during
Conclusion: We did not substantiate the                    an emergency triple coronary artery bypass graft
   allegations that clinicians improperly                  operation. The balloon passed easily but failed
   used an arterial catheter balloon or                    to inflate as it should. When surgeons were
   an aortic balloon pump; better                          removing the balloon, the patient’s right distal
   security would have reduced the                         leg pulse was lost. Surgeons attempted to
   possibility that a patient could                        perform a right femoral-popliteal artery bypass,
   wander from the ward.                                   but they could not salvage the patient’s leg.
Impact: Strengthened patient                               Again, we agreed with local investigators’
   surveillance and wandering                              conclusions that the balloon pump was faulty,
   prevention practices would improve                      and we agreed with their action of reporting the
   patient safety.                                         problem to the manufacturer. We did not
                                                           identify any practitioner fault in either of these
The VHA’s Office of Medical Inspector asked                two separate incidents.
OHI to inspect three allegations pertaining to
inadequate patient care practices at VAMC                  In the third case, a patient eloped from a secured
Tampa. One complainant alleged that clinicians             ward, after he had been treated by local
had improperly inserted an arterial catheter with          psychiatrists for more than 1 month for a serious
a balloon to dilate an obstruction of a patient’s          mental health disorder. A nurse asked him to
iliac artery, causing the balloon to rupture, and a        wait in a day room while she prepared to escort
balloon fragment to become lodged in the artery,           him to the chapel. When she returned, he had
leading to the need to perform more extensive,             disappeared, and she immediately called a
invasive surgery. In another case, a complainant           missing patient alert. The door to the secured
alleged that improper use of an intra-aortic               ward was unlocked at the time. Local searchers
balloon resulted in the patient having to have an          could not locate the patient, but he appeared,
above-the-knee amputation. The third                       about 6 days later, at his family’s home.
complainant charged that careless employees
allowed a patient to escape from a locked ward.            We recommended that the Director consider
                                                           installing a patient alarm system on the acute
We found that medical center managers had                  psychiatry ward. The Director offered
thoroughly investigated each of the incidents at           alternative measures to our recommendation,
the times that they occurred, and had failed to            including strengthened surveillance of certain
substantiate any of the allegations. In the first          psychiatric patients, increased employee
case, clinicians attempted to dilate a patient’s           sensitivity and awareness of elopement
diseased iliac artery with a catheter balloon. The         potential, and allowing ward egress through only
balloon ruptured during the procedure, and a               one door. We believe that these alternative
fragment of the balloon became entangled in the            measures will effectively reduce the potential for
stent that surgeons had installed to maintain              a similar incident. (Inspection of Alleged
arterial patency. This problem required                    Inadequate Medical Care, James A. Haley
surgeons to perform an axillo-bifemoral bypass             Veterans Hospital, Tampa, FL, 9HI-A28-028,
graft. Local investigators concluded that the              1/26/99)
arterial balloon was faulty, and they reported the
incident to the manufacturer. We concurred
with local investigators’ conclusions and the
corrective action.




                                                      52
                                                                    Office of Healthcare Inspections

Issue: Alleged inadequate psychiatric                     Issue: Alleged inadequate care, over-
   nursing staff for safe patient care at                    medication, and discharge planning
   VAMC Marion, IN.                                          for long-term mentally ill patients at
Conclusion: A patient assaulted an                           VAMC American Lake.
   employee when the ward was                             Conclusion: Clinicians properly cared
   inadequately staffed.                                     for patients, and did not administer
Impact: Adequate staffing will ensure                        excessive doses of medicines.
   the safety of employees and patients.                     Employees need to understand the
                                                             duties of patients’ guardians.
We inspected allegations regarding VAMC                   Impact: Improved understanding of the
Marion, IN that there was inadequate nursing                 guardian versus the fiduciary
staffing on psychiatric wards to ensure employee             process will better safeguard
and patient safety. A psychiatric patient had                patients’ rights.
allegedly assaulted and raped a registered nurse
on an evening when there were only two nursing            The Washington State Aging and Adult Services
employees to care for a fully occupied acute              Administration asked OHI to inspect several
psychiatry ward.                                          allegations that they had received regarding
                                                          purported inappropriate patient treatment
We confirmed that the incident occurred and that          practices at the VAMC American Lake campus.
the ward was inadequately staffed at the time of          The complainants charged that clinicians
the incident. We also concluded that there were           inappropriately attempted to discharge an
certain treatment areas in the medical center that        elderly, difficult-to-manage patient to a private
were chronically under staffed. These                     sector nursing home, without input from the
understaffing situations occurred predominantly           family; and that clinicians routinely over-
in the psychiatry wards.                                  medicated patients in order to make them easier
                                                          to manage.
We made three recommendations to remediate
the situation. The Medical Center Director                We found that clinicians had concluded that they
concurred with our recommendations and                    could no longer provide an elderly, chronic,
provided responsive implementation plans.                 long-term psychiatric patient with meaningful
(Inspection of Alleged Unsafe Psychiatric                 therapy, and planned to out-place him to a
Staffing Levels, VAMC Marion, IN, 9HI-A28-                community psychiatric nursing home that has a
029, 1/29/99)                                             highly structured treatment program to manage
                                                          difficult patients. Clinicians discussed their
                                                          discharge plans with the patient’s fiduciary
                                                          guardian, instead of the guardian of the person.
                                                          This error occurred because the court had
                                                          administered the guardian issue for more than 25
                                                          years and had made several changes, which
                                                          many employees did not understand. The
                                                          patient’s brother is his guardian of person, and
                                                          clinicians should have consulted him instead.
                                                          When the brother and his family objected to the
                                                          out-placement plans, clinicians cancelled them.




                                                     53
Office of Healthcare Inspections

We determined that clinicians have established          communications in order to exchange important
several controls to prevent excessive                   clinical information about patients and to ensure
administration of psychoactive drugs. At least          continuity of care in selected cases. We also
two physicians have to concur that such drugs           found that inadequate communications led to a
are needed. Ward nursing employees have                 lack of assurance that all patients were properly
substantial input into the final psychoactive           fed at every meal time, although we did not
medication decisions, since nursing employees           identify any instance in which any patients were
actively seek to find alternative means of              not fed.
reducing disturbed patients’ agitation and
aggressiveness. In addition, nurses are provided        We made three recommendations to improve
with regular inservice training on how best to          employees’ interpersonal relationships and
treat difficult acute and chronic mentally ill          communications and to ensure that managers
patients without medication.                            could be assured that all patients are fed. The
                                                        Medical Center Director concurred with our
We recommended that the Director ensure that            recommendations and provided responsive
involved clinicians clarify and understand the          implementation plans. (Inspection of Multiple
guardianship status of all of the more than 200         Clinical and Administrative Allegations, VAMC
patients who may have this protection. The              New Orleans, LA, 9HI-A28-038, 2/10/99)
Medical Center Director concurred with our
recommendation and implemented immediate
corrective actions. (Inspection of Multiple             Issue: VAMC Phoenix, AZ oversight of
Allegations of Improper Medical and                        State Veterans Home (SVH)
Psychiatric Care for Long-Term Patients, VA                operations.
Puget Sound Health Care System, American                Conclusion: Clinicians did not properly
Lake Division, 9HI-A28-034, 2/2/99)                        oversee correction of SVH
                                                           discrepancies.
                                                        Impact: Adequate SVH oversight can
Issue: Alleged improper treatment of                       improve care.
   patients on two acute care wards
   caused by alleged understaffing at                   We inspected allegations that VAMC Phoenix
   VAMC New Orleans, LA.                                clinicians failed to provide required oversight of
Conclusion: Wards were not                              Arizona SVH operations or to follow up on
   understaffed; however,                               known treatment deficiencies at the State
   communication patterns were                          facility. The VAMC has a statutory
   ineffective and feeding methods need                 responsibility to inspect the Arizona SVH
   better coordination.                                 annually to certify that the level of care meets
Impact: Better employee communication                   existing VA treatment standards.
   will lead to better patient care.
                                                        We substantiated the allegations that VAMC
We inspected allegations that VAMC clinicians           inspectors found examples of substandard
provided substandard patient care to patients on        treatment practices at the SVH but did not
two acute care wards because the wards were             adequately oversee or monitor the correction of
inadequately staffed to provide good care. We           these problems, thereby ensuring an adequate
did not substantiate that the wards were                level of care. We did not find any instance in
understaffed. However, we found that clinicians         which any patients were actually harmed as a
needed to improve interpersonal                         result of these substandard practices.




                                                   54
                                                                    Office of Healthcare Inspections

We made two recommendations to strengthen                 compromised nutritional status and developed
the medical center’s SVH inspection process.              more definitive plans to ensure that he was
The Medical Center Director concurred with our            adequately nourished. (iii) Two medication
recommendations and provided appropriate                  errors occurred, but did not affect the patient’s
implementation plans. (Inspection of Alleged              ultimate demise.
Substandard Patient Care in the Arizona State
Veterans Home, Phoenix, AZ, 9HI-A28-041,                  We concluded that the time required to
2/12/99)                                                  definitively diagnose the patient’s cancer was
                                                          reasonable given the intervening weekends, and
                                                          that it was not viewed as an urgent situation
Issue: Multiple allegations of inadequate                 because of the patient’s otherwise good
   treatment for a patient who had                        condition. The patient was competent, and fully
   serious pulmonary disease at VAMCs                     functional, and it was his decision as to whether
   Fayetteville and Little Rock, AR.                      or not to involve family members in the surgical
Conclusion: Inadequate medical record                     decision; apparently he elected not to include the
   documentation and inadequate                           family in the decision. However, after he was
   communication with family members                      unconscious and on mechanical ventilation, it
   led to perceptions of poor care.                       appears that clinicians communicated regularly
Impact: Improved documentation, and                       with the family and included them in important
   strengthened communications                            treatment decisions.
   enhance understanding of the
   treatment process.                                     It appeared to OHI inspectors and to consulting
                                                          specialists that both VAMCs’ clinicians
We inspected the circumstances surrounding the            provided adequate and appropriate care for the
allegedly substandard care and avoidable death            patient, given his age, and the seriousness of his
of a lung cancer patient. Family members                  other physical conditions. However, clinicians
alleged that a series of unnecessary delays in            failed to adequately record several of their
diagnosing the patient’s cancer, and transferring         interventions and their decision making
him from VAMC Fayetteville to VAMC Little                 processes in the patient’s medical record,
Rock for definitive surgery, and the ultimate             making it difficult to make a post-treatment
decision not to operate urgently on the lung              judgment about the appropriateness and
cancer, led to complications that required the            timeliness of all of their treatment decisions.
patient to suffer brain death, and be placed on a
mechanical ventilator until his ultimate death.           We made several recommendations to remediate
Family members also were distressed that                  the problems that we identified in the course of
clinicians did not include them in the decision as        this inspection. The Medical Center Directors
to whether or when to operate on the patient.             concurred, or concurred in principle, with all of
                                                          our recommendations and provided responsive
We substantiated 3 of the complainants’ 11                implementation plans to correct the problems.
allegations. We found: (i) When radiologists              (Inspection of Alleged Failure to Provide
were concerned about the diagnostic value of              Surgery and Appropriate Medical Care, VAMCs
some of the x-rays that they had obtained, they           Little Rock and Fayetteville, AR, 9HI-A28-48,
should have repeated the films and obtained               2/26/99)
images from different positions in order to
maximize the diagnostic adequacy. (ii)
Clinicians should have recognized the patient’s




                                                     55
Office of Healthcare Inspections

Issue: Alleged cover-up of                               (Inspection of Alleged Cover Up of a Patient’s
   circumstances surrounding a                           Death, VAMC Dayton, OH, 9HI-A28-069,
   patient’s suicide at VAMC Dayton,                     3/18/99)
   OH.
Conclusion: Managers had properly
   informed the patient’s next-of-kin                    Issue: Failure to diagnose a patient’s
   about the circumstances surrounding                      colon cancer at VAMC Boston, MA.
   the patient’s death, but this                         Conclusion: Clinicians failed to make a
   information had not been                                 very difficult diagnosis of colon
   communicated to the son.                                 cancer, but his cancer was so far
Impact: Providing complete information                      advanced when he presented for care
   to all family members helps them                         that curative treatment was not
   deal with grief.                                         possible.
                                                         Impact: Family assured that diagnosis
We inspected the circumstances surrounding a                and treatment actions were reviewed.
patient’s suicide at VAMC Dayton. The
patient’s son was convinced that medical center          We inspected allegations that VAMC Boston
officials had covered up important information           clinicians had failed to diagnose a patient’s
about his father’s death, because they had not           colon cancer, and that private sector physicians
discussed the issues with him, even though he            diagnosed the condition and promptly operated
had asked for the information in writing, and in         to remove the tumor, but the patient died.
conversations with someone in the Director’s
office.                                                  We found that VAMC clinicians did miss the
                                                         cancer diagnosis, but concluded that the
We found that the patient had been treated for           patient’s condition and the tortuosity of his
mental health problems for an extended period            colon were such that missing the diagnosis was
of time, and that he had consistently denied             understandable. Clinicians performed a
having any thought or plan for committing                colonoscopy on the patient, but his bowel was
suicide or any other violent act. We concluded           compromised because of a blood-oxygen deficit,
that medical center clinicians conducted a               and they could not safely advance the
thorough psychological autopsy into the                  colonoscope beyond the compromised part of
patient’s suicide, and had properly discussed the        the colon. Thus, they did not identify a possible
issues in the case with the patient’s next-of-kin        tumor formation.
of record.
                                                         We also concluded that the patient’s cancer was
However, we suggested that the Director ensure           so advanced when he presented for treatment,
that the patient’s treating clinicians and the           that no surgical intervention would have been
Chief of Staff meet with the complainant and             curative. Senior medical center clinicians
thoroughly explain all aspects of the patient’s          reviewed the patient’s entire diagnostic and
care to him and his mother. The Director                 treatment course and identified areas that may
initiated this recommended meeting while OHI             have been done better, but even with these
inspectors were on station, and the complainant          improvements, identifying the patient’s cancer
informed us that he and his mother were                  would have been unlikely.
satisfied with the answers that clinicians
provided for their questions. We did not make            We did not find any treatment errors that
any formal recommendations.                              medical center clinicians had not already




                                                    56
                                                                   Office of Healthcare Inspections

identified, and we did not make any                      before the second operation could get underway,
recommendations. (Inspection of Quality of               the patient experienced life threatening cardiac
Care Allegations, VAMC Boston, MA,                       complications and surgeons aborted the bypass
9HI-A28-077, 3/29/99)                                    procedure with the intent of performing it when
                                                         the patient recovered sufficiently from the
                                                         nephrectomy. Unfortunately the patient’s lower
Issue: Failure to obtain fully informed                  legs worsened because of the greatly
   consent for a kidney removal, failure                 compromised vascularity, and the difficulty
   to explain bilateral leg amputations,                 involved in turning the patient because of his
   and inadequate treatment for                          large size and many medical problems.
   bedsores at VAMC West Los                             Therefore, surgeons had to amputate both legs
   Angeles, CA.                                          below-the-knees.
Conclusion: Clinicians provided the
   patient with appropriate care and                     Following the second operation, the patient had
   with the patient’s fully informed                     to be connected to a mechanical ventilator.
   consent.                                              Surgeons made every reasonable attempt to
Impact: Managers ensure that clinicians                  communicate with the complainant, in order to
   obtain and document informed                          ensure that she was aware of the patient’s
   consent.                                              condition, and could consent, when and if the
                                                         patient needed further surgical interventions.
We inspected allegations that clinicians at              The patient subsequently became ventilator-
VAMC West Los Angeles performed a                        dependent, and clinicians transferred him to a
nephrectomy on a patient when he entered the             private sector rehabilitation hospital, where he
medical center for leg surgery, that surgeons            could receive adequate chronic ventilator care.
amputated both of the patient’s legs without             The patient died at the private hospital about 1
explaining a rationale to the complainant, and           month after being transferred from the VAMC.
that clinicians provided inadequate treatment for
the patient’s bedsores.                                  We concluded that while the patient was
                                                         conscious and responsive, it was appropriate for
We found that the patient had severe peripheral          him to consent to his surgical procedures.
vascular disease, which had greatly                      Clinicians contacted the complainant prior to the
compromised the circulation to both of his legs          bilateral leg amputations and obtained her
and had caused his left kidney to stop                   consent, by telephone, to have the procedures
functioning. The patient’s medical record shows          done. The physician who obtained the consent
that clinicians thoroughly explained the need for        and the nurse who witnessed the telephone
him to have his left kidney removed, and to have         conversation both recorded their versions of the
an aorto-bifemoral bypass graft to attempt to            conversation in the patient’s medical record.
restore circulation to his legs. The record shows        However, they did not record the conversation
that the patient appeared to understand what his         on tape and have it transcribed for entry into the
physicians told him. Furthermore, he signed and          record as required by VHA policy.
dated a consent to have the operations
performed.                                               We made three recommendations to improve
                                                         and strengthen VAMC employees’ procedures
At the time of surgery, clinicians successfully          for obtaining informed consents from patients’
removed the patient’s kidney, and began to               families or guardians and to clearly document
perform the arterial bypass operation. However,          patients’ decision-making capacities. The




                                                    57
Office of Healthcare Inspections

VAMC Director concurred with our
recommendations and provided us with
appropriate implementation plans. (Inspection
of Alleged Poor Quality of Care, VAMC West
Los Angeles, CA, 9HI-A28-079, 3/30/99)




                                                58
OFFICE OF MANAGEMENT &
ADMINISTRATION
Mission Statement                                        IV. Information Technology (IT) Division - The
                                                         Division manages nationwide IT support,
    Promote OIG organizational effectiveness             systems development and integration, and
    and efficiency by providing reliable and             represents the OIG on numerous intra- and inter-
    timely management and administrative                 agency IT organizations and does strategic
    support, and providing products and                  planning for all OIG IT requirements. This
    services that promote the overall mission            Division was established during this reporting
    and goals of the OIG. Strive to ensure that          period; recruitment for the Division Director has
    all allegations communicated to the OIG              just begun.
    are effectively monitored and resolved in a
    timely, efficient, and impartial manner.             Resources
The Office of Management and Administration              The Office of Management and Administration
is a diverse organization responsible for a wide         has 51 FTE allocated to the following areas.
range of operational and administrative support
functions. The Office includes four Divisions:
                                                                                    
I. Hotline and Data Analysis Division - The                                        		
Division is responsible for determining action to            	
              
be taken on allegations received by the OIG                   
                                                                
Hotline. The Hotline section receives thousands
of contacts annually, mostly from veterans, VA
employees, and Congressional sources. This
includes controlling and referring many cases to                		
impartial VA components having jurisdiction.                    	
              
	 
                                                                                          
The Data Analysis section provides automated
                                                                                        !	

data processing technical support.                                                        "

II. Operational Support Division - The Division
does followup tracking of OIG report
recommendations; Freedom of Information Act
(FOIA) releases; strategic, operational, and
performance planning; IG reporting and policy
development; and Internet document
management.

III. Resources Management Division - The
Division is responsible for OIG financial
operations, including budget formulation and
execution; OIG personnel management; and all
other OIG administrative support services.




                                                    59
Office of Management & Administration

I. HOTLINE AND DATA                                                             
                                                                                "    	


ANALYSIS DIVISION                                                                       

                                                                                          
                                                                                          
Mission Statement                                                                             
                                                                                           
    Ensures that allegations of fraud, waste,                                             

                                                                                          "
    abuse, and mismanagement are responded                       
    to in an efficient and effective manner.
    Provides automated data processing
    technical support to all elements of the
    OIG and other Federal Government
    agencies needing information from VA                 Overall Performance
    files.
                                                         During the reporting period the Hotline received
The Hotline Section operates a toll-free
                                                         7,470 contacts. Of this number, 323 cases were
telephone service five days a week, Monday
                                                         opened. The OIG reviewed 41 of these and the
through Friday, from 5 AM to 10 PM Eastern
                                                         remaining 282 cases were referred to VA
Time. Phone calls, letters, and e-mail messages
                                                         program offices for review.
are received from employees, veterans, the
general public, the Congress, General
                                                         Output
Accounting Office, and other Federal agencies
                                                         • During the reporting period, Hotline staff
reporting issues of fraud, waste, and abuse. Due
                                                         closed 296 cases of which 69 contained
consideration is given to all complaints and
                                                         substantiated allegations (23 percent). The
allegations received; mission related issues are
                                                         Hotline staff generated 159 letters responding to
addressed by OIG or other Departmental staff.
                                                         inquiries received from members of the Senate
                                                         and House of Representatives.
The Data Analysis Section provides automated
data processing technical support to all elements        Outcome
of the OIG, and other Federal and governmental
                                                         • VA managers took 28 administrative actions
agencies needing information from VA files.
                                                         against employees and 35 corrective actions to
The Section is physically located at the VA
                                                         improve operations and activities as the result of
Automation Center in Austin, Texas.
                                                         these reviews. The monetary impact resulting
                                                         from these cases totaled $50,828.
Resources

There are 20 staff positions allocated to Hotline
and Data Analysis Division. In addition to the
Division Director, there are 11 employees in the
                                                         A. HOTLINE SECTION
Hotline Section, and 7 employees in the Data
Analysis Section; 1 statistician provides support        The Hotline Section’s most significant leads are
to all OIG operating elements. The following             referred to other OIG elements, such as
chart shows the percent of resources utilized by         Healthcare Inspections or Administrative
various program areas.                                   Investigations. Hotline staff retained oversight
                                                         on a number of cases that were referred to




                                                    60
                                                            Office of Management & Administration

independent VHA and VBA program officials                  Patient Care and Service
for resolution. Hotline staff members follow up
on issues such as patient care, veterans’ benefits,        • A VAMC review prompted by a Hotline
employee conduct, property, and use of public              inquiry disclosed that a service-connected
office for personal gain. The following are some           veteran was inappropriately billed for prosthetic
examples of the cases that were closed during              devices and care. The VAMC rescinded the
this reporting period.                                     charges and issued a letter of apology to the
                                                           veteran.

                                                           • A VHA review in response to a Hotline
Veterans Health                                            inquiry disclosed that a patient was
                                                           inappropriately billed for $2,206. The veteran
Administration                                             was hospitalized for treatment at a private
                                                           mental health facility, as recommended by the
Outside Employment                                         VAMC. The VAMC authorized payment upon
                                                           receipt of an itemized bill from the private
• A Hotline inquiry resulted in a substantiated            facility.
allegation that a physician was holding clinics at
outside hospitals while he was scheduled to                • A VISN review substantiated the allegation
work at the VAMC. The review found that the                that a VAMC emergency room misdiagnosis of
physician spent 215 hours (the equivalent of               a veteran's leg fracture resulted in surgery.
$14,966) outside of the VA. The VAMC                       Based on the Hotline inquiry, the VISN and the
accepted the physician's voluntary resignation             VAMC have implemented system safeguards to
with the physician's agreement to reimburse VA             prevent recurrence of the emergency room
for the salary he should not have been paid.               misdiagnosis.

• In response to a Hotline inquiry, a VISN                 Employee Misconduct
Director confirmed that a VAMC surgeon
improperly obtained outside employment. The                A VHA review prompted by a Hotline inquiry
surgeon in question has agreed to pay back                 found that a Vet Center supervisor attempted to
$9,400 over a two-year period.                             recruit a veteran he was counseling into a
                                                           pyramid sales scheme involving natural herbal
Patient Abuse                                              medications. The supervisor received a seven-
                                                           day suspension and was required to take
As a result of a Hotline inquiry, a VHA review             supervisory training and ethics classes.
substantiated the allegations of employee
misconduct by a VAMC employee, patient                     Quality of Care
abuse, and poor quality of care. A Board of
Investigation found that a nurse assaulted a               As the result of a Hotline Inquiry, a VHA review
psychiatric unit inpatient. The VAMC is                    found that a VAMC physician inaccurately
pursuing removal action against the nurse. The             completed a death certificate, resulting in the
VAMC is also taking other corrective actions to            Medical Examiner holding the body and
prevent recurrences.                                       returning the death certificate to the facility three
                                                           times for correction. VAMC officials counseled
                                                           the physician and issued a corrected death




                                                      61
Office of Management & Administration

certificate. On receipt of the corrected death           vendor to make specific guest room
certificate, the Medical Examiner released the           modifications to accommodate wheelchair-
veteran’s body to the family for burial.                 bound patients.

Gambling on Government Property                          • Based on a Hotline inquiry, an A&MM
                                                         review found that a VAMC made a final
A VISN review prompted by a Hotline inquiry              payment to a vendor who did not complete a job.
found employee gambling at a VAMC. The                   Additionally, the review found that the monetary
review disclosed that 14 VAMC employees                  value of the contract was improperly increased.
were gambling in a football lottery on VA                A&MM is recommending that an on-site
property. All of the employees, including senior         acquisition review be performed; the Office of
VAMC officials, were counseled regarding VA              Special Counsel is investigating a reprisal action
regulations about gambling activities on                 related to this Hotline.
Government property.
                                                         Government Equipment and Supplies
High Profile Cohabitation in Station
Quarters                                                 • An OIG review found that a medical center
                                                         director failed to report properly the loss of a
A VISN review in response to a Hotline inquiry           hand-held computer valued at $600 and did not
substantiated the allegation that high profile           use proper purchasing procedures when he
cohabitation occurred in VAMC station quarters.          replaced it and acquired other computer-related
The review found that two VAMC supervisors               items. The director retained possession of the
were or had been involved in questionable                computer when he transferred to a new duty
relationships with a subordinate and a lower             station. The investigation further substantiated
graded employee. The VAMC Director is                    that the director improperly received travel
reevaluating the criteria used to determine rules        reimbursements by third party draft checks, and
of conduct for those employees living in station         that fiscal service officials erroneously made
quarters.                                                two duplicate payments to vendors. The VISN
                                                         director took appropriate administrative action
Contracting Activities                                   against the VAMC director and stated that
                                                         custodial responsibility for the computer would
• A Hotline-prompted review at a VAMC                    be transferred to the director's new duty station.
failed to substantiate allegations that an
ambulance service did not meet VA                        • A Hotline-prompted VHA review found that
specifications. However, the review confirmed            information resources management service
that air-conditioning units were not working in          personnel improperly disposed of old computer
several of the ambulances. The VAMC                      equipment. The VAMC director took action to
terminated the ambulance service's contract.             clarify responsibilities for condition-coding
                                                         computer equipment and to enforce computer
• A Hotline inquiry that prompted a VHA                  equipment disposition responsibilities. The
review disclosed that a new accommodations               review also revealed that the VAMC was not
program vendor was not providing handicapped             repairing computer equipment in the most cost-
accessible rooms to veterans referred by the             effective manner. The VAMC is determining
medical center for overnight stays, as required          the most cost-effective organization and
by the contract. The VAMC required the new               procedures for maintaining and repairing
                                                         computer hardware.




                                                    62
                                                          Office of Management & Administration

Appropriateness of Certain Timekeeping                   Failing to Report Incompetent Veteran's
Procedures                                               Income in Excess of $1,500

• A Hotline-prompted VISN review at a                    A VARO review in response to a Hotline
VAMC substantiated allegations of time and               inquiry found a fiduciary at fault for failing to
attendance abuse. Two employees left their               report an incompetent veteran's income above
work station before the end of their tour of duty        $1,500, as required by law, which establishes an
without following proper leave requesting                income limitation for incompetent veterans
procedures. The employees were placed in an              hospitalized at Government expense. The
unpaid status for their absences. An additional          review found a state veterans' home had
allegation involving the overpayment of                  knowledge of the law’s requirements but failed
incentive pay to an employee was also                    to notify VA of the veteran's receipt of
substantiated. The overpayment was the result            additional income. The regional office assessed
of a miscalculation of extra time worked.                the fiduciary for the $24,000 overpayment.
Corrective action was taken to collect $162 from
the employee.                                            Fiduciary Responsibilities

•   A Hotline inquiry resulted in a substantiated        A Hotline review by a VARO was unable to
allegation of time and attendance abuse. An              substantiate allegations of fraud by a fiduciary.
employee posted her timecard and the timecard            However, the review did show that the
of her husband for compensatory time on one              incompetent veteran had poor living conditions.
occasion. The service chief, assistant service           The VARO sent the fiduciary a letter citing the
chief, and the employee were counseled about             findings and requesting corrective action. The
avoiding conflicts of interest in timekeeping            VARO will revisit the veteran to verify that his
responsibilities.                                        living conditions have improved.

                                                         Misuse of Government Equipment

                                                         A VARO review in response to a Hotline
Veterans Benefits                                        inquiry did not substantiate an allegation that a
                                                         VA employee destroyed Government property.
Administration                                           However, the review determined that the
                                                         employee used poor judgment in replacing a
Continuing Compensation Payments to                      hard drive in a personal computer that was in
Incarcerated Veterans                                    perfect condition. The employee received an
                                                         admonishment for negligence with Government
A VBA review initiated by a Hotline inquiry              equipment and records.
found that a veteran was receiving full benefits
while incarcerated. The veteran failed to notify         VA Insurance
the VARO of his incarceration that began in
June 1998, resulting an overpayment of                   Responding to a Hotline inquiry, VBA
compensation benefits in excess of $2,300. The           confirmed that an improper authorization was
VARO is taking action to collect the                     made against a life insurance policy. The review
overpayment.                                             found that a $10,000 loan was issued against the
                                                         wrong veteran’s policy. VBA officials
                                                         identified employee errors made in the




                                                    63
Office of Management & Administration

processing of the request. The records were              Assistance to the FBI
corrected; VBA secured repayment from the
veteran who received the funds in error.                 • The FBI sought our assistance in locating a
                                                         former VA nurse involved in the sale of stolen
                                                         Government computers. We provided the FBI
                                                         with the nurse’s last known address, bank
                                                         account number, social security number, and
B. DATA ANALYSIS                                         other data in support of their investigation.
SECTION
                                                         Assistance to the Department of Health
                                                         and Human Services (HHS)
The Data Analysis Section conducts reviews of
VA computerized data files and reports
                                                         • HHS sought our assistance on several
conditions in VA computer systems. Data
analysis staff search for data and indicators of         occasions in their ongoing efforts to detect
fraud, waste, and abuse. They also identify data         billing fraud. We provided investigators
inconsistencies that may indicate the existence          information pertaining to three health care
of invalid or erroneous information in VA files.         providers who were suspected of submitting
These efforts are often the first step in                false billings. We also provided data in support
identifying issues warranting comprehensive              of an investigation of health care providers that
reviews by the OIG.                                      allegedly overcharged for services.

The Data Analysis Section processed 566                  • HHS also requested assistance in obtaining
requests for information received from OIG               VA payment information pertaining to several
operational elements in the last six months. In          companies that allegedly altered invoices,
conjunction with these requests, data analysis           certificates of necessity, altered diagnoses, and
staff worked closely with auditors, inspectors,          misrepresented the services provided.
and investigators requesting information to
ensure the data was valid, complete, and met             Assistance to VA Elements
their needs. The support work provided by data
analysis staffs are shown in many of the projects        Data analysis staff also receive requests for
and investigative cases described in the semi-           assistance from VHA and VBA. To illustrate,
annual report.                                           data analysis staff assisted VHA and VBA in
                                                         reviews of their accounts receivable during this
In addition, data analysis staff process requests        period. VHA requested our office to upload
from other Federal agencies, and other                   accounts receivable records stored in our files to
governmental organizations. The Data Analysis            assist them in reconciling individual hospital
Section routinely receives requests from the             accounts. VBA requested our assistance in
Federal Bureau of Investigation, Department of           uploading accounts receivable transactions
Health and Human Resources, Air Force Office             pertaining to their 58 regional offices to enable
of Special Investigations, and other Department          them to correct large discrepancies noted in their
of Defense organizations. The following reflects         accounts receivable balances.
some of the analysis and data collected for these
groups.                                                  Monitoring VA's Year 2000 Conversion

                                                         Data analysis staff uncovered a Year 2000
                                                         computer-coding problem that warranted




                                                    64
                                                        Office of Management & Administration

management attention during this reporting
period. While working with a Social Security                       
Notice of Death File maintained by the Austin                      
                                                                                            
Automation Center, we discovered a file in                                                   
which all of the people reported as having died
in 1998 would be shown to have died in 1919 in                                              	
the Year 2000. We advised VA Central Office                                                   

of this Year 2000 computer dilemma and they
corrected the coding problem for all SSA files                                       
                                                                  	

	
                                                                                       
before serious misinformation occurred.                             




                                                       Overall Performance
II. OPERATIONAL
SUPPORT                                                Followup on OIG Reports

                                                       The Division is responsible for obtaining
Mission Statement                                      implementation actions on audits, inspections,
                                                       and reviews with over $1.2 billion of actual or
   Promote OIG organizational effectiveness            potential monetary benefits as of March 31,
   and efficiency by providing reliable and            1999. Of this amount $1 billion is resolved, but
   timely followup reporting and tracking on           not yet realized as VA has agreed to implement
   OIG recommendations; response to                    the recommendations, but has not yet done so.
   Freedom of Information Act (FOIA)                   In addition, $230 million relates to unresolved
   requests; policy review and development;            reviews awaiting contract resolution by VA
   strategic, operational, and performance             contracting officers.
   planning; Inspector General reporting
   requirements; and Internet document                 The Division is also responsible for maintaining
   management and control.                             the Department's centralized, computerized
                                                       followup system that provides for oversight,
Resources                                              monitoring, and tracking of all OIG
                                                       recommendations through both resolution and
This Division has 9 FTE with the following             implementation. Resolution and implementation
allocation:                                            actions are monitored to ensure that disagreements
                                                       between OIG and management are resolved as
                                                       promptly as possible and that corrective actions
                                                       are implemented as agreed upon by management
                                                       officials. Disagreements unable to be resolved
                                                       between OIG and management are decided by the
                                                       Deputy Secretary, VA's audit followup official.

                                                       Management officials are required to provide the
                                                       OIG with documentation showing the
                                                       completion of corrective actions, including
                                                       reporting of collection actions until the amounts




                                                  65
Office of Management & Administration

due VA are either collected or written off. OIG           files. It also processes OIG reports and
staff evaluates information submitted by                  documents to assist VA management in
management officials to assess both the                   establishing evidence files used in taking
adequacy and timeliness of actions and to                 administrative or disciplinary actions against VA
request periodic updates on an ongoing basis.             employees.

As of March 31, 1999, VA had 117 open                     During this reporting period, we processed 137
internal OIG reports with 313 resolved, but               requests under the Freedom of Information and
unimplemented, recommendations and 51                     Privacy Acts and released 202 audit,
unresolved contract review recommendations                investigative, and other OIG reports. In two
which are awaiting contracting officer’s                  instances we had no records. We totally denied
decisions.                                                eight requests under the appropriate exemptions
                                                          of the Acts. Information was partially withheld
During this reporting period, the Division took           in 81 requests because release would have
action to close 48 internal reports issued in this        constituted an unwarranted invasion of personal
and prior periods, with 169 recommendations               privacy, interfered with enforcement
and a monetary benefit of $218 million, after             proceedings, disclosed the identity of
obtaining information that showed management              confidential sources, disclosed internal
officials had fully implemented corrective                Department matters, or was specifically
actions.                                                  exempted from disclosure by statute.

During this period, 100 percent of followup               During this period, only 2 FOIA cases did not
requests on immediate actions were sent within            receive written responses within 20 working
three months. Also, 100 percent of the initial            days, as required. Six complex cases were over
and the subsequent followup letters were                  one year old; five of these were from the same
processed in less than 3 months. In both cases            requester. The average processing time for
we met the standard.                                      workable FOIA requests coded as complex was
                                                          112 working days; for cases coded as routine, it
FOIA, Privacy Act, and Other Disclosure                   was 13 working days.
Activities
                                                          Internet Technology
The Division processes all OIG FOIA and
Privacy Act requests from Congress (on behalf             The Division is responsible for processing and
of constituents), veterans, veterans service              controlling electronic publication of OIG
organizations, VA employees, news media, law              reports, including maintaining the OIG websites
firms, contractors, complainants, general public,         and posting OIG reports and information on the
and subjects/witnesses of inquiries and                   Internet. The OIG's public website received
investigations. In addition, the Division                 1,256,000 hits from almost 70,000 visitors
processes official requests for information and           during this period.
documents from other Federal Departments and
agencies, such as the Office of Special Counsel,          The OIG frequent requests page is the most
the Department of Justice, and the FBI. These             comprehensive and up to date of all pages in the
requests require the review and possible                  VA's Electronic Reading Room. We now
redacting of OIG hotline, healthcare inspection,          directly maintain this page to ensure that
criminal and administrative investigation,                frequently-requested reports are available in a
contract audit, and internal audit reports and            timely manner. We provided direct links to an




                                                     66
                                                         Office of Management & Administration

audit report and a healthcare inspection report,
which were frequently requested during this
                                                        III. RESOURCES
period, along with our vacancy announcements.           MANAGEMENT DIVISION
One frequently-requested OIG report was
downloaded over 3,000 times from the OIG
website. The vacancy announcements page                 Mission Statement
received over 5,000 hits from 3,565 visitors
during the last month of the reporting period.              Promote OIG organizational effectiveness
We also posted a number of unredacted reports,              and efficiency by providing reliable and
press releases, and recurring OIG publications              timely management and administrative
such as the last Semiannual Report to the                   support services.
Congress.
                                                        The Resources Management Division provides
We initiated further improvements in protecting         support services for the entire OIG. Our
our information assets by dedicating staff to           services include personnel advisory services and
information security and by participating in            liaison; budget formulation, presentation, and
Department-level initiatives and policy                 execution; automated data processing
development. We also provided input on                  programming and support; travel processing;
security improvements on the Department's               procurement; space and facilities management;
network replacement projects and to the                 and general administrative support.
Department's new Chief Information Officer.
                                                        Resources
Review and Impact of Legislation and
Regulations
                                                        The Resources Management Division has 14
                                                        FTE currently assigned to the OIG headquarters.
The Division coordinated concurrences on
                                                        The staff allocation for the five functional areas
legislative and regulatory proposals from the
                                                        is as follows.
Congress, Office of Management and Budget,
and the Department that relate to VA programs
and operations. The OIG commented and made                                        
                                                                                  
recommendations concerning the impact of the
legislation and regulations on economy and
                                                            %&' ('
efficiency in the administration of programs and               
operations or the prevention and detection of
fraud and abuse. During this period, 53                                                   
                                                                                           
legislative, 39 regulatory proposals, and 14
“other” proposals were reviewed and                                !"#

                                                                    $
commented on, as appropriate.                                               
                                                                            




                                                   67
Office of Management & Administration

Overall Performance                                      Administrative Support

Automated Data Processing                                Due to the increased staffing and the
The OIG awarded a contract to convert the                realignment within the OIG, there are several
existing management information system from              relocation projects currently in progress. These
an outdated version of Oracle to an up-to-date           projects involve substantial planning and
version, which will provide similar functionality        coordination between OIG staff and various
with a graphical user interface. In addition, we         outside parties to ensure a smooth transition and
are incorporating a new case numbering system,           minimal impact on work processes. The
additional search features, and some improved            administrative staff works closely with building
data validation functions. The new system will           management to coordinate office renovation
be Year 2000 compliant.                                  plans, telephone installation, and the
                                                         procurement of furniture and equipment.
Budget
                                                         In addition, this component processed 67
The staff assisted in the coordination and               procurement actions and reviewed and approved
preparation of the 2000 budget submission and            each month the 38 statements received from the
materials for associated briefings and                   OIG’s cardholders under the Government’s
Congressional hearings. Numerous inquiries               purchase card program.
from the Office of Management and Budget and
Congress were addressed, especially pertaining
to the recent realignment and the utilization of
additional personnel resources.

The staff executed 93 percent of the OIG’s mid-
year budget authority.

Human Resources Management

During this period, the staff made significant
progress in recruiting and hiring to an increased
staffing level authorized for FY 1999. The staff
also processed 76 personnel actions, 1
distinguished career award, 50 special
contribution awards, 4 time-off awards, and 2
quality step increases.

Travel

OIG personnel travel almost continuously. As a
result, the Travel section processed 1,188 travel
and 20 permanent change of station vouchers in
addition to 8 amendments to existing permanent
change of station authorities.




                                                    68
OTHER SIGNIFICANT OIG ACTIVITIES
President’s Council on Integrity                       Presentation to House Veterans’ Affairs
and Efficiency (PCIE)                                  Committee

Federal Audit Executive Committee                      At the request of the Committee, the OIG
                                                       Counselor and managers in the Contract Review
The Assistant Inspector General (AIG) for              and Evaluation Division gave a presentation on
Auditing continued as the chairperson of the           the division activities. They pointed out that
Committee. The purpose of the Committee is to          postaward review of VA’s Federal Supply
discuss and coordinate on issues affecting the         Schedule contracts had returned about $100
Federal audit community in general, and in             million to VA for the 5-year period starting in
particular, matters affecting audit policy and         October 1993.
operations of common interest to members. In
addition, the AIG for Auditing is the Federal          Presentation at the 1999 Acquisition
audit community representative on the PCIE             Management Forum
audit committee.
                                                       The OIG Counselor and Director, Contract
Inspections and Evaluations Roundtable                 Review and Evaluation Division gave a
                                                       presentation on OIG issues related to contract
The AIG for Healthcare Inspections works               review activities. The purpose of the 1999
intensively with the PCIE Inspections and              Forum is to provide continuing education
Evaluations Roundtable, providing leadership in        opportunities for contract specialists and
developing a core skills inventory for                 officers.
Government inspectors and evaluators. The
Deputy AIG serves as co-chair of the Inspection        Presentation at the 1999 Federal
and Evaluation Roundtable’s Education and              Healthcare Acquisition Conference
Training Subcommittee.
                                                       The OIG Counselor and Director, Contract
                                                       Review and Evaluation Division gave a
OIG Management Presentations                           presentation on lessons learned from OIG
                                                       reviews. The conference was co-sponsored by
Dallas/Fort Worth Chapter, Association                 the VA, Department of Defense, and the
for Government Accountants                             National Contract Management Association.
                                                       About 600 professionals, representing both
The AIG for Auditing provided a presentation           public and private sector organizations, attended
on the “Future of the Audit Community” to the          the conference.
Chapter. He highlighted Federal Audit
Executive Committee and PCIE initiatives, the          Presentation at the Coalition for
crossroads that the Federal audit community is         Government Procurement
facing, and the actions federal auditors are
taking to contribute to a better Government.           The Director, Contract Review and Evaluation
                                                       Division and OIG Counselor addressed recent
                                                       Government efforts in enforcing contract
                                                       compliance at the “Coalition’s Conference.”
                                                       About 170 members, representing public and




                                                  69
Other Significant OIG Activities

private sector interests in contracting with the          Presentation to Leadership VA 1999
Government, attended the conference.
                                                          The Inspector General made a presentation on
Presentation at George Washington                         the work of the OIG to Leadership VA 1999.
University Law School Government                          This program is VA’s premier leadership
Contracts Program                                         development program.

The Director, Contract Review and Evaluation              OIG Congressional Testimony
Division, gave a presentation regarding Federal
Supply Schedule contract reviews and outcomes.            In February 1999, the Inspector General and the
The program was attended primarily by                     AIG for Auditing testified before the House
pharmaceutical industry representatives.                  Committee on Government Reform and
                                                          Oversight, Subcommittee on National Security,
Presentation at the American Society of                   Veterans Affairs, and International Affairs. The
Military Surgeons                                         testimony addressed the major performance and
                                                          management challenges facing VA. Highlighted
A manager from the Contract Review and                    were the contributions of the OIG in combating
Evaluation Division spoke at an American                  waste, fraud, and abuse in VA programs and
Society of Military Surgeons meeting.                     administrative activities.
Presentation topics included preaward and
postaward reviews, commercial selling                     In March 1999, the Inspector General and the
practices, defective pricing, price reduction, and        AIG for Auditing testified before the House
the OIG role in VA’s contracting program. A               Committee on Veterans Affairs, Subcommittee
question and answer session followed the                  on Oversight and Investigations. The hearing
presentation.                                             focused on the VA’s management of the Federal
                                                          Employees’ Compensation Act, also known as
Presentation to the Department of                         the Worker’s Compensation Program. The
Defense                                                   testimony presented the significant audit and
                                                          investigative activity conducted by the OIG to
The Director, Management, Policy, and                     root out fraud and mismanagement, improve
Professional Development conducted a seminar              case management, and reduce costs.
on PCIE external quality control reviews to the
Department of Defense.                                    In March 1999, the Inspector General and the
                                                          AIG for Management and Administration
International Symposium on Preventing                     testified before the House Committee on
Medical Errors                                            Veterans Affairs, Subcommittee on Oversight
                                                          and Investigations. The testimony addressed the
Two senior Office of Healthcare Inspections               policies and protections of the OIG for
employees participated in a panel on the                  employees who engage in whistleblowing
occurrence of medical errors at an International          activities, as well as for other employees who
Symposium on Preventing Medical Errors. The               may be subjected to retaliation for filing various
topic of the presentation was the occurrence,             types of claims or complaints against VA.
reporting, and prevention of medication errors.




                                                     70
                                                           Other Significant OIG Activities

Obtaining Required Information or
Assistance

Sections 5(a)(5) and 6(b)(2) of the Inspector
General Act of 1978 require the Inspector
General to report instances where access to
records or assistance requested was
unreasonably refused, thus hindering the ability
to conduct audits or investigations. During this
6-month period, there were no reportable
instances under these sections of the Act.

Under P.L. 95-452, the IG has authority “… to
require by subpoena the production of all
information, documents, reports, answers,
records, accounts, papers, and other data and
documentary evidence necessary . . . .” The use
of IG subpoena authority has proven valuable in
our efforts, especially in cases dealing with third
parties. During this reporting period, 14
subpoenas were issued in conjunction with
various OIG investigations and audits.




                                                      71
Other Significant OIG Activities




                                   72
                                         APPENDIX A
                           DEPARTMENT OF VETERANS AFFAIRS
                             OFFICE OF INSPECTOR GENERAL
                                 REVIEWS BY OIG STAFF

  Report                                                             Funds Recommended
 Number/                                                                for Better Use    Questioned
Issue Date                   Report Title                             OIG      Management   Costs

COMBINED ASSESSMENT PROGRAM
9IGCAP501 Combined Assessment Program Project VAMC
3/31/99   Martinsburg, WV


INTERNAL AUDITS
9R5D02007 Audit of Surgical Suite Renovation Project at                 $126,000      $126,000
10/23/98  Department of Veterans Affairs Medical Center
          Fresno, CA

9D2A19001 Audit of Veterans Integrated Service Network (VISN
1/12/99   10) Organization, Planning, and Implementation of
          Key Strategic Goals and Objectives

9R5D02032 Audit of Ambulatory Care Renovation Project at
1/29/99   Department of Veterans Affairs Medical Center
          Atlanta, GA

9R3E99037    Audit of the Department of Veterans Affairs Purchase     $22,000,000   $22,000,000
2/12/99      Card Program

9R8E04052    Audit of VA Medical Center Management of Medical         $75,600,000   $75,600,000
3/9/99       Supply Inventories

9AFG10061 Report of Audit of the Department of Veterans
3/10/99   Affairs Consolidated Financial Statements for Fiscal
          Year 1998

9R4A19075 Audit of Veterans Health Administration Decision          $140,000,000*   $140,000,000*
3/31/99   Support System Standardization

* Implementation of the agreed-upon action plan will justify system costs and result in the system
fulfilling its potential.




                                                     73
Report                                                             Funds Recommended
 Number/                                                              for Better Use    Questioned
Issue Date                    Report Title                           OIG     Management   Costs

OTHER OFFICE OF AUDIT REVIEWS
9R5B01005    Accuracy of Data Used to Measure Claims Processing
10/15/98     Timeliness

9ANG01003 Observations on the VA Franchise Fund Financial
10/27/98  Operations for Fiscal Year 1997

9R8E11008    Evaluation of VA Medical Center Clinical Services
10/30/98     Contracts with Medical Schools

9R1B18012    Review of Education Service's Quality Review
11/25/98     System

9AFG10018 Management Letter – ADP Security at Southwest
12/9/98   Healthcare Network

9AFG01016 Agreed-Upon Procedures: Retirement, Health, and
12/16/98  Life Insurance Withholdings/Contributions and
          Supplemental Semiannual Headcount Report

9R8A06021 Evaluation of Allegations Concerning Selected Fee
12/31/98  Services Activities at the Jerry L. Pettis Memorial VA
          Medical Center Loma Linda, CA

9R3B01031    Evaluation of Benefit Payments to Incarcerated        $170,000,000 $170,000,000
2/5/99       Veterans

9R1B18044    Review of Vocational Rehabilitation and Counseling
2/24/99      Service's Quality Review System

9R1G01054 Evaluation of VHA's Income Verification Match             $18,026,448   $18,026,448
3/15/99   Program

9AFG10068 ADP Security at Carl T. Hayden Medical Center
3/17/99

9R1G01063 Review of Medical Insurance Billing Practices at
3/24/99   VAOPC Sepulveda, CA

9R5B10047    Attributes of Defaulted VA Home Loans
3/25/99

9AFG10066 Management Letter: Accuracy of Fiscal Year 1998
3/26/99   Property, Plant, and Equipment Financial Information

9AFG10065 Management Letter: Accuracy of Department of
3/29/99   Veterans Affairs' Payroll Data for Fiscal Year 1998




                                                     74
Report                                                           Funds Recommended
 Number/                                                            for Better Use    Questioned
Issue Date                   Report Title                          OIG     Management   Costs

OTHER OFFICE OF AUDIT REVIEWS (Con’t)
9AFG10067 Management Letter: Accuracy of Fiscal Year 1998
3/31/99   Medical Facility Accounts Receivable Financial
          Information

9AYA19078 Evaluation of Medical Center Investment in
3/31/99   Ambulatory Care Infrastructure

CONTRACT REVIEWS *

9PEX20010 Report of Survey – American Regent Laboratories'
11/6/98   Implementation of Section 603 Drug Pricing
          Provisions of Public Law 102-585

9PEX04009 Review of Federal Supply Schedule Proposal                $170,000
11/12/98  (Solicitation Number M3-Q4-97), Sterling Diagnostic
          Imaging, Inc., Newark, DE

9PEX04004 Review of Federal Supply Schedule Proposal              $20,640,526
11/30/98  (Solicitation Number M3-Q4-97), Eastman Kodak
          Company, Rochester, NY

9PEX09013 Review of Federal Supply Schedule Proposal
11/30/98  (Solicitation Number M6-Q5-98), Hill-Rom
          Company, Inc., Batesville, IN

9PEX18020 Postaward Review of Federal Supply Schedule                                           $71,536
12/31/98  Contract V797P-3903j, Carl Zeiss, Inc., Thornwood,
          NY

9PEX20027 Survey of Biogen, Inc.’s Public Law 102-585, Section
1/25/99   603 Policies and Procedures

9PEX20030 Survey of Agouron Pharmaceutical, Inc.'s Public Law
1/26/99   102-585, Section 603 Policies and Procedures

9PEX01022 Review of Federal Supply Schedule Proposal               $2,409,502
2/4/99    (Solicitation No. M5-Q50-97), Baxter Healthcare
          Corporation, Deerfield, IL

9PEX20033 Survey of Astra Pharmaceuticals, L.P.'s (Formerly                                    $167,352
2/4/99    Known as Astra USA, Inc.) Public Law 102-585,
          Section 603 Policies and Procedures


* Management estimates are not applicable to contract reviews. Cost avoidances resulting from these
reviews are determined when the OIG receives the contracting officer’s decision on the report
recommendations.




                                                   75
Report                                                         Funds Recommended
 Number/                                                          for Better Use    Questioned
Issue Date                   Report Title                        OIG     Management   Costs

CONTRACT REVIEWS (Con’t)
9PEX20040 Report of Survey – Pasteur Merieux Connaught's
2/17/99   Implementation of Section 603 Drug Pricing
          Provisions of Public Law 102-585

9PEX18024 Postaward Review of Federal Supply Schedule                                    $14,337
2/22/99   Contract V797P-3622j, Angelica Image Apparel, St.
          Louis, MO

9PEE02036    Review of Federal Supply Schedule Proposal           $680,400
2/23/99      (Solicitation Number M3-QF-98), Everest &
             Jennings, Earth City, MO

9PEX20046 Survey of Berlex Laboratories' Public Law 102-585,
2/25/99   Section 603 Policies and Procedures

9PEX20050 Review of Schein Pharmaceutical, Inc.'s                                        $60,780
3/1/99    Implementation of Section 603 Drug Pricing
          Provisions of Public Law 102-585 Under Federal
          Supply Schedule Contract Number V797P-5548m

9PEX20053 Review of Athena Neurosciences, Inc.                                           $46,685
3/11/99   Implementation of Section 603 Drug Pricing
          Provisions of Public Law Under Federal Supply
          Schedule Contract Numbers V-797P-5161x and
          V-797P-5762n

9PEX11082 Settlement Agreement – Postaward Review of Ciba-                             $8,000,000
3/11/99   Geigy (Novartis) Corporation

9PEX20056 Review of 3M Pharmaceuticals Implementation of                                $191,819
3/15/99   Section 603 Drug Pricing Provisions of Public Law
          102-585 Under Federal Supply Schedule Contract
          Number V797P-5512m

9PEX09055 Review of Federal Supply Schedule Proposal
3/17/99   (Solicitation Number M3-Q3-97), Kerr Corporation,
          Orange, CA

9PEX20076 Review of Astra Pharmaceuticals, L.P. (Formerly                                 $4,204
3/31/99   Known as Astra Merck, Inc.) Implementation of
          Section 603 Drug Pricing Provisions of Public Law
          102-585 Under Federal Supply Schedule Contract
          Numbers V797P-5853n and V797P-5134x




                                                   76
Report                                                               Funds Recommended
 Number/                                                                for Better Use    Questioned
Issue Date                    Report Title                             OIG     Management   Costs

ADMINISTRATIVE INVESTIGATIONS
9PRA03015 Ethical Conduct Issues VA Medical Center Memphis,
1/20/99   TN

9PRD03026 Conduct Issues Concerning a Senior Official, Alvin                                    $5,000
2/2/99    C. York VA Medical Center at Murfreesboro, TN

9PRG03035 Administrative Investigation: Conduct and Personal
2/12/99   Property Issues, VA New Jersey Health Care System,
          Lyons Division, New Jersey

9PRA99043 Administrative Investigation: Gambling, Time and
3/3/99    Attendance, and Other Issues, VA Medical Center
          Biloxi, MS

9PRA19045 Administrative Investigation: Misuse of Position and
3/16/99   Misuse of Resources Issues, VA Palo Alto Health
          Care System, Palo Alto Division

9PRA99059 Administrative Investigation: Travel, Vehicle Use,
3/25/99   and Contracting Issues at the Mid-Atlantic Veterans
          Integrated Service Network Durham, NC

9PRA18073 Administrative Investigation: Credit Union Checking
3/30/99   Account Issues, VA Central Office Chaplain Service,
          Hampton, VA

9PRA19074 Administrative Investigation: Loss of VA Property
3/30/99   and Inappropriate Purchase Issues, VA Medical
          Center Long Beach, CA

HEALTHCARE INSPECTIONS
9HIA28006    Inspection of Alleged Mismanagement of Fee-Basis
10/23/98     Program and Patient Mismanagement, Department of
             Veterans Affairs Medical Center San Juan, PR

9HIF03011    Quality Program Assistance Review Department of
11/9/98      Veterans Affairs Medical Center San Juan, PR

9HIA28017    Inspection of Alleged Inadequate Informed Consent
12/8/98      for Surgery, James A. Haley Veterans' Hospital
             Tampa, FL

9HIA28019    Inspection of Five Adverse Patient Care Events at the
12/16/98     Department of Veterans Affairs Medical Center
             Miami, FL




                                                      77
Report                                                                Funds Recommended
 Number/                                                                 for Better Use    Questioned
Issue Date                    Report Title                              OIG     Management   Costs

HEALTHCARE INSPECTIONS (Con’t)
9HIA28023    Inspection of Alleged Nursing Non-Attendance, Lack
1/7/99       of Compassion, and Verbal Abuse

9HIA28025    Inspection of Search Procedures for an Allegedly
1/11/99      Missing Patient, Department of Veterans Affairs
             Central Alabama Health Care System Tuskegee, AL

9HIA06014    Evaluation of the Veterans Health Administration's
1/25/99      State Veterans Homes Inspection Process

9HIA28028    Inspection of Alleged Inadequate Medical Care,
1/26/99      James A. Haley Veterans' Hospital Tampa, FL

9HIA28029    Inspection of Alleged Inadequate Psychiatric Nurse
1/29/99      Staffing, VA Northern Indiana Health Care System,
             Marion Division, Marion, IN

9HIA28034    Inspection of Multiple Allegations of Improper
2/2/99       Medical and Psychiatric Care for Long-Term Care
             Patients, Veterans Affairs Puget Sound Health Care
             System, American Lake Division

9HIA28038    Inspection of Alleged Lack of Quality of Care
2/10/99      Department of Veterans Affairs Medical Center New
             Orleans, LA

9HIA28041    Inspection of Alleged Substandard Patient Care in the
2/12/99      Arizona State Veterans Home, Phoenix, AZ

9HIA28039    Inspection of Patient Care Allegations and Quality
2/17/99      Program Assistance Review, Department of Veterans
             Affairs Medical Center Togus, ME

9HIA28042    Evaluation of Quality Management Structure and
2/18/99      Resources in the Department of Veterans Affairs
             Veterans Health Administration

9HIA28048    Inspection of Alleged Failure to Provide Surgery and
2/26/99      Appropriate Medical Care Department of Veterans
             Affairs Medical Centers, Little Rock and Fayetteville,
             Arkansas

9HIA28051    Oversight Evaluation of the Veterans Health
3/2/99       Administration's Implementation of its Patient Safety
             Improvement Policy in Two Sentinel Events




                                                      78
Report                                                               Funds Recommended
 Number/                                                                for Better Use    Questioned
Issue Date                    Report Title                             OIG     Management   Costs

HEALTHCARE INSPECTIONS (Con’t)
9HIA28062    Inspection of Alleged Multiple Clinical and
3/17/99      Administrative Deficiencies on Long-Term Care; a
             Focus Review of Nursing Unit 8a; and a Quality
             Program Assistance Review, Department of Veterans
             Affairs Medical Center Northport, NY

9HIA28069    Inspection of Alleged Cover Up of a Patient's Death,
3/18/99      VA Medical Center Dayton, OH

9HIA28077    Inspection of Quality of Care Allegations,
3/29/99      Department of Veterans Affairs Medical Center
             Boston, MA

9HIA28079    Inspection of Alleged Poor Quality of Care,
3/30/99      Department of Veterans Affairs Medical Center West
             Los Angeles, CA

TOTAL:                          72 Reports                          *$449,652,876 *$425,752,448   $8,561,713

* The difference between the OIG and Management estimates is $23,900,428. This entire difference is
based on the pending receipt of the contracting officer’s decision.




                                                      79
80
                                         APPENDIX B
                         DEPARTMENT OF VETERANS AFFAIRS
                           OFFICE OF INSPECTOR GENERAL
                       CONTRACT REVIEWS BY OTHER AGENCIES

                                                                                 Funds
 Report                                                                       Recommended
 Number/                                                                       for Better Unsupported
Issue Date                         Report Title                                    Use       Costs

8PEN03128     Proposal, RFP 521-057-98 (EP) Construction, VAMC Birmingham,
10/13/98      Urrutia, Inc., Abbeville, AL

8PEN02109     Proposal, Project No. 644-014, Construct Conference Ctr, VAMC
10/27/98      Phoenix, Huber Hunt and Nichols, Phoenix, AZ

8PEN02110     Claim, Project No. 549-085/031, A/E, VAMC Dallas, Dahl
10/27/98      Architects, Inc./F&S Partner, Inc., Dallas, TX

9PEN02101     Claim, Project No. 600-099, Correct Deficiencies, VAMC Long
12/06/98      Beach, AC Martin Partners, Los Angeles, CA

8PEN03130     Proposal, RFP 69d-366-98, Upgrade Ambulatory Surgery, VACSC
01/06/99      Milwaukee, Oakley Construction Company, Inc., Chicago, IL

8PEN03131     Proposal, RFP 690-367-98, Asbestos Abatement, VACSC
01/06/99      Milwaukee, Enviroplus, Inc., Evanston, IL

8PEN03129     Proposal, RFP No. 69d-365-98, Renovate Ambulatory Care,
01/08/99      VAMC Lakeside, Alvarez/Mota Joint Venture, East Dundee, IL

8PEN02008     Proposal, Contract No. V101ac0066, Construction, VAMC                $40,500       $498,378
02/17/99      Northport, Carter Steel & Fabricating Company, Bellefontaine, OH

8PEN02014     Proposal, Project No. 672pm2083, A/E, VAMC San Juan O'kon &
02/17/99      Company, Inc., Atlanta, GA

5PEN02307     Claim, Project No. 580-040, Electrical, VAMC Houston, TX,          $3,280,340
02/18/99      Centex Bateson Construction Co., Inc., Dallas, TX

TOTALS:                                 10 Reports                               $3,320,840     $498,378

The Defense Contract Audit Agency completed all the reports issued. This data is also reported in the
Department of Defense OIG's Semiannual Report to Congress.




                                                     81
82
                                                  APPENDIX C
              CONTRACT REVIEW REPORTS FOR WHICH A CONTRACTING
                OFFICER DECISION HAD NOT BEEN MADE FOR OVER
                        6 MONTHS AS OF MARCH 31, 1999

                                                                Recommended        Reason for Delay
                                                   Questioned     Better Use       and Planned Date
 Report Title, Number, and Issue Date                Costs         of Funds         for a Decision

 Contract Reviews by OIG

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT
Review of Federal Supply Schedule Proposal                          $5,484,450   Pending receipt of
(Solicitation No. M5-Q50-97), Wyeth-Ayerst                                       Contracting Officer Price
Laboratories, Philadelphia, PA, 7PE-E02-127, 9/4/97                              Negotiation Memorandum
                                                                                 (PNM); No planned
                                                                                 decision date available.

Review of Federal Supply Schedule Proposal                         $7,893,240    Pending receipt of
(Solicitation Number M5-Q50-97), Boehringer                                      Contracting Officer PNM;
Ingelheim Pharmaceuticals, Inc., Ridgefield, CT, 8PE-                            No planned decision date
E02-021, 10/16/97                                                                available.

Review of Federal Supply Schedule Proposal                         $92,037,146   Pending receipt of
(Solicitation Number M5-Q50-97), Schering                                        Contracting Officer PNM;
Corporation, Union, NJ, 8PE-E02-024, 10/17/97                                    No planned decision date
                                                                                 available.

Review of Federal Supply Schedule Proposal              `          $17,084,449   Pending receipt of
(Solicitation Number M5-Q50-97), Ortho                                           Contracting Officer PNM;
Pharmaceutical Corporation, Raritan, NJ,                                         No planned decision date
8PE-E02-015, 10/20/97                                                            available.

Review of Federal Supply Schedule Proposal                          $1,266,297   Pending receipt of
(Solicitation Number M5-Q50-97), Smithkline                                      Contracting Officer PNM;
Beecham, Philadelphia, PA,                                                       No planned decision date
8PE-E02-029, 10/21/97                                                            available.

Review of Federal Supply Schedule Proposal                                       Pending receipt of
(Solicitation Number M5-Q50-97), Eli Lilly and                                   Contracting Officer PNM;
Company, Indianapolis, IN,                                                       No planned decision date
8PE-E02-016, 10/22/97                                                            available.

Review of Federal Supply Schedule Proposal                          $5,932,784   Pending receipt of
(Solicitation Number M5-Q50-97), Abbott                                          Contracting Officer PNM;
Laboratories Hospital Products Division, Abbott                                  No planned decision date
Park, IL, 8PE-E02-038, 11/5/97                                                   available.




                                                        83
                                                                  Recommended        Reason for Delay
                                                     Questioned     Better Use       and Planned Date
 Report Title, Number, and Issue Date                  Costs         of Funds         for a Decision

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT (Con’t)
Review of Federal Supply Schedule Proposal                             $294,535    Pending receipt of
(Solicitation Number M3-Q3-92), Graphic Controls                                   Contracting Officer PNM;
Corporation, Buffalo, NY, 8PE-E02-063, 1/26/98                                     No planned decision date
                                                                                   available.

Review of Federal Supply Schedule Proposal                           $9,207,294    Pending receipt of
(Solicitation Number M5-Q50-97), McGaw                                             Contracting PNM; No
Incorporated, Irvine, CA, 8PE-E02-064, 2/9/98                                      planned decision date
                                                                                   available.

Review of Federal Supply Schedule Proposal                             $91,969     Pending receipt of
(Solicitation Number M3-Q3-97), Gendex Dental X-                                   Contracting Officer PNM;
Ray, Division of Dentsply International, Inc., Des                                 No planned decision date
Plaines, IL, 8PE-E02-074, 3/4/98                                                   available.

Review of Federal Supply Schedule Proposal                            $2,468,847   Pending receipt of
(Solicitation Number M3-Q4-97), Medrad, Inc,                                       Contracting Officer PNM;
Indianola, PA, 8PE-E02-084, 3/19/98                                                No planned decision date
                                                                                   available.

Review of Federal Supply Schedule Proposal                           $3,126,441    Pending receipt of
(Solicitation Number M3-Q3-92, Open Season IV)                                     Contracting Officer PNM;
Howmedica, Inc., Pfizer Hospital Products Group                                    No planned decision date
Rutherford, NJ, 8PE-E02-081, 3/23/98                                               available.

Audit of Claims and Requests for Equitable                             $394,154    Claim in litigation; no
Adjustments Submitted by Bay Construction                                          planned resolution date
Company, Contract Number V662C-1439,                                               available.
8PE-E10-082, 3/25/98

Review of Federal Supply Schedule Proposal                                         Pending receipt of
(Solicitation Number M3-Q3-97), Midwest Dental                                     Contracting Officer PNM;
Products Corporation (a Wholly Owned Subsidiary                                    No planned decision date
of Dentsply International, Inc.), Des Plaines, IL,                                 available.
8PE-E02-089, 3/31/98

Review of Federal Supply Schedule Proposal                           $2,136,157    Pending receipt of
(Solicitation Number M3-Q4-97), Bayer                                              Contracting Officer PNM;
Corporation, AGFA Division, Ridgefield Park, NJ,                                   No planned decision date
8PE-E02-098, 5/1/98                                                                available.

Review of Federal Supply Schedule Proposal                             $784,625    Pending receipt of
(Solicitation Number M5-Q50-97), Organon, Inc.,                                    Contracting Officer PNM;
West Orange, NJ, 8PE-E02-100, 5/15/98                                              No planned decision date
                                                                                   available.




                                                        84
                                                               Recommended       Reason for Delay
                                                  Questioned     Better Use      and Planned Date
 Report Title, Number, and Issue Date               Costs         of Funds        for a Decision

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT (Con’t)
Review of Federal Supply Schedule Proposal                        $1,695,678   Pending receipt of
(Solicitation Number M3-Q3-97), Star Dental,                                   Contracting Officer PNM;
Lancaster, PA, 8PE-E02-109, 6/3/98                                             No planned decision date
                                                                               available.

Audit of Termination Settlement Proposal and Claims                $333,886    Pending receipt of
for Equitable Adjustment Submitted by Bar-Con                                  Contracting Officer PNM;
Corporation Contract V523C-1129,                                               No planned decision date
8PE-D03-112, 6/24/98                                                           available.

Review of Federal Supply Schedule Proposal                                     Pending receipt of
(Solicitation Number M3-Q3-97), Kavo America                                   Contracting Officer PNM;
Corporation, Lake Zurich, IL,                                                  No planned decision date
8PE-E02-114, 6/24/98                                                           available.

Audit of Claim for Alleged Damages Under an                        $318,008    Pending receipt of
Agreement with a VAMC, 8PE-A12-104, 7/1/98                                     Contracting Officer PNM;
                                                                               No planned decision date
                                                                               available.

Review of Federal Supply Schedule Proposal                        $9,340,040   Pending receipt of
(Solicitation Number M3-Q4-97), Imation Enterprises                            Contracting Officer PNM;
Corporation Oakdale, MN, 8PE-E02-108, 7/20/98                                  No planned decision date
                                                                               available.

Review of Federal Supply Schedule Proposal                          $87,425    Pending receipt of
(Solicitation Number M3-Q3-97), Nobel Biocare USA,                             Contracting Officer PNM;
Inc., Westmont, IL, 8PE-X06-148, 9/30/98                                       No planned decision date
                                                                               available.




                                                      85
                                      Recommended                              Reason for Delay
                                        Better Use Unsupported                 and Planned Date
 Report Title, Number, and Issue Date    of Funds     Costs                     for a Decision

 Contract Reviews by Other Agencies

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT

Claim, Contract No. V554C-684, Laundry Chute             $450,977            Claim in litigation; no
VAMC Denver, CO, Hughes-Groesch Construction                                 planned resolution date
Co., Inc., Denver, CO, 7PE-N03-130, 3/31/97                                  available.

Claim, Contract V101DC-0048, Expand/Renovate           $1,469,934            Claim in appeal; planned
Bldg-1, VAMC Salt Lake, Interwest Construction                               resolution date not
Salt Lake City, UT, 7PE-N03-114, 9/30/97                                     available.

Proposal, Project No. 543-015, Sprinkler & Fire          $503,356            Negotiation not finalized;
Alarm Pro, VAMC Columbia Fire Security Systems,                              no planned resolution date
Inc., Bossier City, LA,                                                      available.
8PE-N03-110, 3/19/98

 OFFICE OF FACILITIES MANAGEMENT
Change OR/FR 10 Contract No. V101BC0053                 $126,130             Negotiation not finalized;
VAMC Atlanta, GA Caddell Contraction                                         resolution planned for next
Masterclean, Incorporated, Decatur, GA,                                      reporting period.
3PE-N02-111, 11/16/93

Adjustment Claim, V101C-1606, Construction              $271,599             Negotiation not finalized;
Service, VAMC Albany, Bhandari Constructors Inc.,                            no planned resolution date
Syracuse, NY, 5PE-N02-007, 3/31/95                                           available.

Claim, Contract No. V101C-1651, Environment            $7,370,861            Negotiation not finalized;
Improvement, VAMC North Chicago, Blount Inc.                                 no planned resolution date
4PE-N02-202, 2/7/96                                                          available.

Claim, Contract V101C-1532, Asbestos Removal            $875,708    $1,898   Negotiation not finalized;
VAMC W. Roxbury, Saturn Construction Co., Inc.,                              resolution planned for next
Valhalla, NY, 5PE-N02-006, 2/23/96                                           reporting period.

Claim, Project No. 632-062, 120 Bed Nursing Home       $1,623,126            Negotiation not finalized;
Care Unit, VAMC Northport, J.F. O’Healy                                      resolution planned for next
Construction Corporation, Bayport, NY,                                       reporting period.
3PE-N02-001, 3/26/96

Claim, Project No. 553-808, Replacement Hospital,     $11,952,726            Negotiation not finalized;
VAMC Detroit, MI, Bateson/Dailey, Dallas, TX,                                no planned resolution date
6PE-N02-204, 12/11/96                                                        available.

Claim, Contract No. V101C-1603, Install Sprinklers,    $1,120,170            Negotiation not finalized;
VAMC Boston, L. Addison & Associates, Inc.,                                  no planned resolution date
Wakefield, MA, 6PE-N02-108, 12/19/96                                         available.




                                                        86
                                      Recommended                    Reason for Delay
                                        Better Use Unsupported       and Planned Date
 Report Title, Number, and Issue Date    of Funds     Costs           for a Decision

 OFFICE OF FACILITIES MANAGEMENT (Con’t)

Claim, Project No. 690-035 MFI Addition, VAMC          $724,755    Negotiation not finalized;
Brockton, Saturn Construction Co., Inc., Valhalla                  no planned resolution date
NY, 6PE-N02-001, 5/19/97                                           available.

Proposal, Project No. 549-085, Clinical Addition,    $14,804,392   Negotiation not finalized;
VAMC Dallas, Centex Construction Company, Inc.,                    no planned resolution date
Dallas, TX, 7PE-N02-303, 5/20/97                                   available.

Proposal, Project No. 672-045, Change Order            $284,827    Negotiation not finalized;
Outpatient Clinic Add., VAMC San Juan, J.A. Jones                  no planned resolution date
Construction Co., San Juan, PR,                                    available.
7PE-N02-007, 12/9/97

Proposal, Project No. 508-018A Clinical Addition,       $17,565    Negotiation not finalized;
VAMC Atlanta, Caddell Construction Company,                        no planned resolution date
Montgomery, AL, 8PE-N02-005, 8/6/98                                available.

 OFFICE OF THE GENERAL COUNSEL
Claim, Contract No. V539C-591,                         $131,932    Contract in litigation; no
Install Incinerator, VAMC Cincinnati                               planned resolution date
R.E. Schweitzer Construction, Cincinnati, OH                       available.
4PE-N03-113, 6/21/94

Claim, Contract No. V657C-1103; Replace HVAC            $90,437    Claim in litigation; no
VAMC St. Louis, Gross Mechanical Contractors Inc.,                 planned resolution date
St. Louis, MO, 6PE-N03-119, 10/24/96                               available.




                                                       87
                                      Recommended                  Reason for Delay
                                        Better Use Unsupported     and Planned Date
 Report Title, Number, and Issue Date    of Funds     Costs         for a Decision

 OFFICE OF VETERANS HEALTH ADMINISTRATION

A-128, Fiscal Year Ended 6/30/96, State Approving                Negotiation not finalized;
Agency Contract, State Home Construction &                       planned completion date
Nursing Home Care, State of Idaho, Boise, ID,                    could not be provided.
8PE-G06-046, 1/7/98

A-128, Fiscal Year Ended 6/30/95, State Approving                Negotiation not finalized;
Agency Contract, State Home Construction &                       planned completion date
Nursing Home Care, State of Idaho, ID,                           could not be provided.
7PE-G06-058, 1/8/98

A-128, Fiscal Year Ended 6/30/96, State Approving                Negotiation not finalized;
Agency Contract, State Veterans Home, State of                   planned completion date
Tennessee, Nashville, TN, 8PE-G06-047, 1/9/98                    could not be provided.

A-128, Fiscal Year Ended 6/30/96, Construction of                Negotiation not finalized;
State Home Facilities, State of Mississippi, Jackson,            planned completion date
MS, 8PE-G06-079, 7/28/98                                         could not be provided.




                                                        88
                                             APPENDIX D

                  FOLLOWUP/RESOLUTION OF OIG RECOMMENDATIONS

The Inspector General Act Amendments of 1988 require identification of all significant management decisions
with which the Inspector General is in disagreement and all significant and other recommendations unresolved
for over 6 months (management decisions not made). We had no Inspector General disagreements on significant
management decisions and there were no internal audit recommendations unresolved for over 6 months as of
March 31, 1999. Contract report recommendations unresolved for over 6 months are included in Appendix C.

Following are tables which provide a summary of the number of OIG reports with potential monetary benefits
that were unresolved at the beginning of the period, the number of reports issued and resolved during the period
with potential monetary benefits, and the number of reports that remained unresolved at the end of the period.

                SUMMARY OF UNRESOLVED AND RESOLVED OIG AUDITS

As required by the IG Act Amendments, Tables 1 and 3 provide statistical summaries of unresolved and
resolved reports for the period October 1, 1998 – March 31, 1999. The dollar figures used throughout this
report are based on the definitions included in the IG Act Amendments of 1988. The figures are current
as of March 31, 1999, and may reflect changes from the data in the individual reports due to OIG
validation to ensure compliance with the IG Act Amendments definitions.

TABLE 1 - SUMMARY OF UNRESOLVED AUDIT REPORTS

Table 1 provides a summary of all unresolved reports and the length of time they have been unresolved.


                   MONTHS                 TYPE AUDIT                NUMBER            TOTAL
                     Over                 Internal Audit               0
                                                                                         42
                   6 Months             Contract Review                  42
                   Less Than              Internal Audit                 0
                                                                                         8
                    6 Months            Contract Review                  8
                                                             TOTAL                       50

Tables 2 and 3 show a total of 40 reports that were unresolved as of March 31, 1999. This number differs
from the 50 reports shown above because tables 2 and 3 include only reports with monetary benefits as
required by the IG Act Amendments. Tables 2 and 3 also provide the reports resolved during the period
with the OIG estimates of disallowed costs and funds to be put to better use, including those in which
management agreed to implement OIG recommendations and those in which management did not agree
to implement OIG recommendations. The Assistant Secretary for Financial Management maintains data
on the agreed upon reports and Management estimates of disallowed costs and funds to be put to better
use in order to comply with the reporting requirements for the Secretary's Management Report to
Congress, required by the IG Act Amendments.




                                                       89
TABLE 2 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS

Table 2 summarizes reports, the dollar value of questioned costs, and the costs disallowed and allowed.


                                                                    NUMBER            QUESTIONED
                    RESOLUTION STATUS                                 OF                  COSTS
                                                                    REPORTS            (In Millions)
    No management decision by 9/30/98                                     0                 $0
    Issued during reporting period                                        9                 $8.6
             Total Inventory This Period                                  9                 $8.6
    Management decision during reporting period
       Disallowed costs                                                   9                 $8.6
       Allowed costs                                                      0                 $0
            Total Management Decisions This Period                        9                 $8.6
            Total Carried Over to Next Period                             0                 $0


Definitions:

•    Questioned Costs
         For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG
recommends VA pursue collection, including Government property, services or benefits provided to
ineligible recipients; recommended collections of money inadvertently or erroneously paid out; and
recommended collections or offsets for overcharges or ineligible costs claimed.
         For contract review reports, it is contractor or grantee costs OIG recommends be disallowed by
the contracting officer, grant official, or other management official. Costs normally result from a finding
that expenditures were not made in accordance with applicable laws, regulations, contracts, grants, or
other agreements; or a finding that the expenditure of funds for the intended purpose was unnecessary or
unreasonable.

•   Disallowed Costs are costs: that contracting officers, grant officials, or management officials have
    determined should not be charged to the Government and which will be pursued for recovery; or on
    which management has agreed that VA should bill for property, services, benefits provided, monies
    erroneously paid out, overcharges, etc. Disallowed costs do not necessarily represent the actual
    amount of money that will be recovered by the Government due to unsuccessful collection actions,
    appeal decisions, or other similar actions.

•   Allowed Costs are amounts on which contracting officers, grant officials, or management officials
    have determined that VA will not pursue recovery of funds.




                                                    90
TABLE 3 – RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

Table 3 summarizes reports with Recommended Funds to be Put to Better Use by management, and the
dollar value of recommendations that were agreed to and not agreed to by management.


                                                                             NUMBER               RECOMMENDED
                     RESOLUTION STATUS                                         OF                FUNDS TO BE PUT
                                                                             REPORTS              TO BETTER USE
                                                                                                       (In Millions)

    No management decision by 9/30/98                                              49                     $245.4
    Issued during reporting period                                                 12                     $453.4
           Total Inventory This Period                                             61                     $698.8
    Management decisions during reporting period
      Agreed to by management                                                      11                     $441.0
      Not agreed to by management                                                  10                      $31.5
           Total Management Decisions This Period                                  21                     $472.5
           Total Carried Over to Next Period                                      401                     $226.3

1
 Of the 40 reports carried over, a management decision had not been made for over 6 months on 35 reports with a dollar value of
$201.8 million.

Definitions:
    Recommended Better Use of Funds
         For audit reports, it represents a quantification of funds that could be used more efficiently if
management took actions to complete recommendations pertaining to deobligation of funds, costs not
incurred by implementing recommended improvements, and other savings identified in audit reports.
         For contract review reports, it is the sum of the questioned and unsupported costs identified in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless additional
evidence supporting the costs is provided. Questioned costs normally result from findings such as a
failure to comply with regulations or contract requirements, mathematical errors, duplication of costs,
proposal of excessive rates, or differences in accounting methodology. Unsupported costs result from a
finding that inadequate documentation exists to enable the auditor to make a determination concerning
allowability of costs proposed.

• Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of funds
that will be used more efficiently based on management's agreement to implement actions, or the amount
contracting officers disallowed in negotiations, including the amount associated with contracts that were
not awarded as a result of audits.

• Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.



                                                             91
92
                                           APPENDIX E
                REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL

The table below cross-references the reporting requirements prescribed by the Inspector General Act of
1978 (Public Law 95-452), as amended by the Inspector General Act Amendments of 1988 (Public Law
100-504), to the specific pages where they are addressed.

 IG Act
References                               Reporting Requirement                                          Page
Section 4 (a) (2)    Review of legislation and regulations                                                67

Section 5 (a) (1)    Significant problems, abuses, and deficiencies                                      1-68

Section 5 (a) (2)    Recommendations with respect to significant problems, abuses, and                   1-68
                     deficiencies

Section 5 (a) (3)    Prior significant recommendations on which corrective action has not been            89
                     completed

Section 5 (a) (4)    Matters referred to prosecutive authorities and resulting prosecutions and            i
                     convictions

Section 5 (a) (5)    Summary of instances where information was refused                                   71

Section 5 (a) (6)    List of audit reports by subject matter, showing dollar value of questioned         73-81
                     costs and recommendations that funds be put to better use                       (App. A & B)

Section 5 (a) (7)    Summary of each particularly significant report                                     i to vi

Section 5 (a) (8)    Statistical tables showing number of reports and dollar value of questioned          90
                     costs for unresolved, issued, and resolved reports                                (Table 2)

Section 5 (a) (9)    Statistical tables showing number of reports and dollar value of                     91
                     recommendations that funds be put to better use for unresolved, issued, and       (Table 3)
                     resolved reports

Section 5 (a) (10)   Summary of each audit report issued before this reporting period for which no      83 to 88
                     management decision was made by end of reporting period                           (App. C)

Section 5 (a) (11)   Significant revised management decisions                                            None

Section 5 (a) (12)   Significant management decisions with which the Inspector General is in             None
                     disagreement




                                                       93
94
                                               APPENDIX F
                                           VA FIELD OPERATIONS

Investigations
Northeast Field Office (51NY) New York, NY ........................................................ 212 807-3444
Boston Resident Agency (51BN) Boston, MA .............................................................. 781 687-3138
Newark Resident Agency (51NJ) Newark, NJ............................................................... 973 645-3590
Washington, DC Resident Agency (51WA) Washington, DC...................................... 202 565-8079
Southeast Field Office (51SP) Bay Pines, FL ............................................................. 727 398-9559
Atlanta Resident Agency (51AT) Atlanta, GA .............................................................. 404 347-7869
Columbia Resident Agency (51CS) Columbia, SC ....................................................... 803 695-6707
New Orleans Resident Agency (51NO) New Orleans, LA ........................................... 504 619-4340
West Palm Beach Resident Agency (51WP) West Palm Beach, FL............................. 561 882-7720
Central Field Office (51CH) Chicago, IL................................................................... 708 202-2676
Dallas Resident Agency (51DA) Dallas, TX ................................................................. 214 655-6022
Houston Resident Agency (51HU) Houston, TX .......................................................... 713 794-3652
Kansas City Resident Agency (51KC) Kansas City, KS ............................................... 913 551-1439
Western Field Office (51LA) Los Angeles, CA.......................................................... 310 268-4268
Phoenix Resident Agency (51PX) Phoenix, AZ ............................................................ 602 640-4684
San Francisco Resident Agency (51SF) Oakland, CA................................................... 510 637-1074


Audit
Central Office Operations Division (52CO) Washington, DC................................. 202 565-4433
Contract Review and Evaluation Division (52C) Washington, DC ........................ 202 565-4818
Financial Management Audit Division (52CF) Washington, DC............................ 202 565-7913
Austin Residence (52AU) Austin, TX............................................................................ 512 326-6216
Operations Division Atlanta (52AT) Atlanta, GA..................................................... 404 347-7790
Operations Division Boston (52BN) Boston, MA ...................................................... 781-687-3120
Philadelphia Residence (52PH) Philadelphia, PA.......................................................... 215 381-3052
Operations Division Chicago (52CH) Chicago, IL.................................................... 708 202-2667
Operations Division Kansas City (52KC) Kansas City, MO ................................... 816 426-7100
Dallas Residence (52DA) Dallas, TX ............................................................................ 214 655-6000
Operations Division Seattle (52SE) Seattle, WA ....................................................... 206 220-6654
Los Angeles Residence (52LA) Los Angeles, CA......................................................... 310 268-4336

                                                            95
96
                            APPENDIX G
                                 GLOSSARY
A&MM    Acquisition and Materiel Management
ADP     Automated Data Processing
AIG     Assistant Inspector General
BATF    Bureau of Alcohol, Tobacco, and Firearms
C&P     Compensation & Pension
CAP     Combined Assessment Program
CDR     Cost Distribution Report
CFS     Consolidated Financial Statements
DCIS    Defense Criminal Investigative Service
DIC     Dependency and Indemnity Compensation
DOL     Department of Labor
DSS     Decision Support System
FBI     Federal Bureau of Investigation
FOIA    Freedom of Information Act
FSS     Federal Supply Schedule
FTE     Full Time Equivalent
FY      Fiscal Year
GPRA    Government Performance and Results Act
HCA     Housing Credit Assistance
HEC     Health Eligibility Center
HHS     Department of Health and Human Services
IPA     Intergovernmental Personnel Act [assignment]
IT      Information Technology
IVM     Income Verification Match
NCA     National Cemetery Administration
NHCU    Nursing Home Care Unit
OHI     Office of Healthcare Inspections
OIG     Office of Inspector General
PCIE    President’s Council on Integrity and Efficiency
PNM     Price Negotiation Memorandum
QM      Quality Management
QPA     Quality Program Assistance [Review]
RFP     Request for Proposal
RRB     Railroad Retirement Board
SAR     Semiannual Report [to Congress]
SMS     Scarce Medical Specialist
SSA     Social Security Administration
SVH     State Veterans Homes
VA      Department of Veterans Affairs
VAMC    VA Medical Center
VAOPC   VA Outpatient Clinic
VARO    VA Regional Office
VBA     Veterans Benefits Administration
VHA     Veterans Health Administration
VISN    Veterans Integrated Service Network
VR&C    Vocational Rehabilitation and Counseling
WCP     Workers’ Compensation Program




                                       97
Copies of this report are available to the public. Written requests should be sent to:

       Office of the Inspector General (53B)
       Department of Veterans Affairs
       810 Vermont Avenue, NW
       Washington, DC 20420


The report is also available on our Web Site:

       http://www.va.gov/oig/53/semiann/reports.htm

For further information regarding VA’s OIG, you may call 202 565-8620




 Cover photo of
 Korean War Veterans Memorial
 Washington, DC by
 Joseph M. Vallowe, Esq.
 VA OIG, Washington, DC




                                           98
Help VA's Secretary ensure the integrity of departmental operations
by reporting suspected fraud, waste, or abuse in VA programs
or operations to the Inspector General Hotline.



                 (CALLER CAN REMAIN ANONYMOUS)




To Telephone:        (800) 488 - 8244
                     (800) 488 - VAIG

To Send
Correspondence:      Department of Veterans Affairs
                     Inspector General Hotline (53E)
                     P.O. Box 50410
                     Washington, DC 20091-0410

Internet Homepage: http://www.va.gov/oig/hotline/hotline.htm

E-mail Address       VAOIG.HOTLINE@forum.va.gov




                                Department of Veterans Affairs
                                Office of Inspector General
                                Semiannual Report

                                October 1, 1998 - March 31, 1999
